APPENDIX

APPENDIX TABLE OF CONTENTS
Page
Appendix A North Dakota Supreme
Court’s decision in Matter of
Estate of Hogen, 2019 ND
141, 927 N.W.2d . . . . . . . . . . . . . . App. 1
Appendix B Order on Petition for Complete
Settlement and Distribution of
Estate . . . . . . . . . . . . . . . . . . . . . App. 11
Appendix C Order Discharging Personal
Representative and Denying
Rodney Hogen's Declaration
and Petition . . . . . . . . . . . . . . . . App. 22
Appendix D North Dakota Supreme Court’s
decision in Estate of Hogen, 2015
ND 125, 863 N.W.2d 876 . . . . . . App. 43
Appendix E Order on Petition for Delivery
of Possession And Control of
Estate Real Property . . . . . . . . . App. 80
Appendix F Order Denying Petition for
Restraining Personal
Representative . . . . . . . . . . . . . . App. 95
Appendix G Order Bifurcating Issues . . . . . . App. 97
Appendix H Order Denying Personal
Representative's Motion for
Consolidation . . . . . . . . . . . . . . App. 100

ii
Page
Appendix I Order for the Release of Lis
Pendens . . . . . . . . . . . . . . . . . . . App. 103
Appendix J Judgment of the North Dakota
Supreme Court . . . . . . . . . . . . . App. 115
Appendix K North Dakota statutes . . . . . . . App. 117
Appendix L Petition for Order Restraining
Personal Representative. . . . . . App. 135
Appendix M Order for Entry of Second Amended
(On Remand) Order on Petition
for Approval of Final Account,
for Determination of Testacy Status,
and for Settlement of Estate . . App. 147
Appendix N Motion for Entry of Cashmore
Bifurcation Order . . . . . . . . . . . App. 154
Appendix O Petition for Supervised
Administration . . . . . . . . . . . . . App. 158
Appendix P Personal Representative's
Formal Request for Delivery of
Possession and Control of
Estate Real Property . . . . . . . App. 162
Appendix Q Order for Supervised
Administration . . . . . . . . . . . . . App. 169

iii
Page
Appendix R Objection to the Court’s Order
Granting Supervisory
Administration . . . . . . . . . . . . . App. 171
Appendix S Affidavit of Rodney Hogen
Responding to the Petition
for Complete Settlement and
Distribution of the Estate . . . . App. 177
Appendix T Objection to Proceedings . . . . . App. 187
Appendix U Petition for Discharge of
Personal Representative . . . . . App. 193
Appendix V Declaration of Interested Persons
Voiding the Allocation, Partition,
Sale, Encumbrance of Real Property
Once Owned by the Decedent
and
Petition of Interested Persons for
Order Voiding Personal
Representative’s Allocation,
Partition, Sale or Encumbrance
of Real Property Once Owned
by the Decedent [Or Order Confirming
the Declaration of Interested
Persons Voiding the
Personal Representative’s
Transaction(s)]
and
Petition of Interested Persons to

iv
Page
Vacate this Court’s Order of April 3,
2017 . . . . . . . . . . . . . . . . . . . . . App. 216
Appendix W Objection to Discharge of the
Personal Representative in
Supervised Proceedings . . . . . . App. 269
Appendix X Transcript of Proceedings of
July 22, 2010 . . . . . . . . . . . . . . . App. 291

App. 1
__________
APPENDIX A
__________
927 N.W.2d 474
Supreme Court of North Dakota.
In the MATTER OF the ESTATE OF Arline H.
HOGEN, Deceased
Steven C. Hogen,
Petitioner and Appellee
v.
Rodney Hogen, Respondent and Appellant
and
Susan Hogen and Marby Hogen, Purported
Interested Persons and Appellants
No. 20180325
Filed 5/16/2019
Appeal from the District Court of Cass County, East
Central Judicial District, the Honorable John C. Irby,
Judge.
Attorneys and Law Firms
Sara K. Sorenson, West Fargo, ND, for petitioner and

App. 2
appellee.
Jonathan T. Garaas, Fargo, ND, for appellants.
Opinion
Jensen, Justice.
[¶1] Susan and Marby Hogen, as purported interested
persons, and Rodney Hogen (collectively “appellants”)
appeal from probate court orders settling the Arline
Hogen Estate and discharging Steven Hogen as
personal representative of the Estate. The appellants
generally argue that the probate court did not have
jurisdiction to enter an order for the complete
settlement and distribution of the Estate and that the
court lacked authority or abused its discretion in
requiring Rodney Hogen to pay from his share of the
Estate property all attorney fees incurred by the Estate
after this Court’s remand in Estate of Hogen, 2015 ND
125, 863 N.W.2d 876. We affirm.
I
[¶2] When Arline Hogen died in 2007, she was survived
by her two sons, Steven and Rodney Hogen, and all of
her property was devised equally to her two sons under
her will. Arline Hogen and her deceased husband,
Curtiss Hogen, owned farmland in Barnes and Cass
Counties, and Rodney Hogen had farmed the land with
Curtiss Hogen. When Curtiss Hogen died in 1993, his
undivided half interest in the farmland was distributed
to the Curtiss Hogen Trust. After his father’s death,
Rodney Hogen farmed the land under a rental

App. 3
agreement with the Trust and with Arline Hogen, the
owner of the other half interest in the farmland. After
Arline Hogen’s death in 2007, Steven Hogen was
appointed personal representative of her Estate.
According to Steven Hogen, he discovered evidence
indicating the Estate may be entitled to an offset from
Rodney Hogen’s share of the Estate as compensation
for Rodney Hogen’s failure to make certain payments
to his mother.
[¶3] Steven Hogen petitioned the probate court for an
offset against Rodney Hogen’s share of the Estate and
a final accounting. After an evidentiary hearing, the
court determined Rodney Hogen owed the Estate
certain farmland rent, conservation reserve program
payments, and interest. The court also approved
Steven Hogen’s request for personal representative fees
and for attorney fees, costs, and expert witness fees.
[¶4] In Estate of Hogen, 2015 ND 125, ¶ 1, 863 N.W.2d
876, we affirmed the probate court’s decision in part,
reversed in part as to the calculation of payments
attributable to Barnes County conservation reserve
program land, and remanded for further proceedings.
In a related case involving the Curtiss Hogen Trust, we
affirmed a district court decision determining Rodney
Hogen breached fiduciary duties to the Trust and
authorizing Steven Hogen, as trustee, to sell Trust land
to offset against Rodney Hogen’s share of the land.
Matter of Curtiss A. Hogen Trust B, 2018 ND 117, ¶ 1,
911 N.W.2d 305. More recently, we affirmed a
summary judgment dismissing an action by Marby and
Susan Hogen against Steven Hogen personally and as
personal representative of the Estate and as trustee of

App. 4
the Trust to quiet title to certain land involved in the
Estate and the Trust proceedings. Hogen v. Hogen,
2019 ND 17, ¶ 1, 921 N.W.2d 672.
[¶5] On remand in the probate proceeding, the probate
court ultimately issued an order approving Steven
Hogen’s petition as personal representative for the
complete settlement and distribution of the Estate,
including the sale of certain land to pay for
administration costs, expenses, and attorney fees, and
discharging Steven Hogen as personal representative
of the Estate. The court ordered payment of $50,000
from each of Steven and Rodney Hogen’s share of the
Estate for the personal representative’s attorney fees
and expenses incurred before the remand in Estate of
Hogen, 2015 ND 125, 863 N.W.2d 876, and payment of
$200,000 entirely from Rodney Hogen’s share of the
Estate for the personal representative’s attorney fees
and expenses after the remand. The court also ordered
a withholding of $23,000 from Rodney Hogen’s share of
the Estate for the personal representative’s attorney
fees related to remaining work in the then pending
appeal in the quiet title action and for an expected
appeal in this case, with any unused funds distributed
to Rodney Hogen. The court discharged Steven Hogen
as personal representative of the Estate, but stayed the
discharge until the expiration of the time for appeal or
until the proceeding was finally resolved on appeal.
II
[¶6] The appellants generally argue the probate court
failed to substantially comply with its statutory
jurisdiction, acted in excess of its statutory jurisdiction,

App. 5
or acted without jurisdiction in entering an order on
the petition for complete settlement and distribution of
the Estate after this Court’s remand in Estate of
Hogen, 2015 ND 125, 863 N.W.2d 876. They claim the
probate proceedings concluded with the order for final
accounting and settlement that was appealed in Estate
of Hogen. They argue that order was final under
N.D.C.C. § 30.1-21-01 for distribution of all the Estate
land and terminated Steven Hogen’s power and
authority as personal representative under N.D.C.C. §
30.1-17-10(2). They claim the probate court’s
post-remand decisions failed to comply with several
jurisdictional statutory provisions, including N.D.C.C.
§ 30.1-21-08 for administration of property after the
Estate had been settled, N.D.C.C. § 30.1-19-03(2) for
bringing claims after distribution, N.D.C.C. §
30.1-20-11 for the personal representative to allocate
real property, N.D.C.C. § 30.1-03-01 for the sale of real
property, N.D.C.C. § 30.1-20-06 for the allocation of
capital gains, and N.D.C.C. §§ 30.1-18-09 and
30.1-20-03 for a retainer for the 2014 through 2016
crop years.
[¶7] In Hogen v. Hogen, 2019 ND 17, ¶ 16, 921 N.W.2d
672, we recently rejected the appellants’ similar
argument about finality and the termination of Steven
Hogen’s authority as personal representative. We
recognized that the prior order did not terminate the
Estate proceeding or discharge Steven Hogen as
personal representative, and that the Estate was still
subject to administration after our earlier decision in
the probate proceeding. Id. We conclude the appellants’
jurisdictional arguments in this appeal are resolved by
that decision in Hogen.

App. 6
III
[¶8] The appellants argue the probate court abused its
discretion or lacked statutory authority to require
Rodney Hogen to pay all post-remand attorney fees
from his share of the Estate. They argue the court
failed to follow the procedural protections in
N.D.R.Civ.P. 11 for awarding attorney fees and that
none of his claims were frivolous under N.D.C.C. §
28-26-01(2). They also claim the court’s inherent power
did not justify the punishment in the form of the award
of attorney fees and that the personal representative
and his attorneys had conflicts of interest that
precluded payment of all attorney fees from Rodney
Hogen’s share of the Estate. They argue the probate
court erred in not applying the “American Rule” for
payment of attorney fees.
[¶9] In requiring Rodney Hogen to pay all post-remand
attorney fees from his share of the Estate, the probate
court explained:
The Court finds that the litigation
following the remand from the North
Dakota Supreme Court was occasioned by
Rodney’s stubborn refusal to comply with
court orders and to follow standard
probate procedures. Rodney exercised
unauthorized control over the land and
interfered with the personal
representative’s ability to manage estate
resources including the receipt of
appropriate farm rent. Further, Rodney
continued to obstruct the personal

App. 7
representative in his efforts to complete
the estate proceedings. Pursuant to
Estate of Kjorvestad, 375 N.W.2d 160,
171 (N.D. 1985) personal representative’s
and attorney’s fees and costs following the
remand of this matter by the Supreme
Court are awarded against Rodney Hogen
and Rodney Hogen’s distribution from the
estate rather than from the estate as a
whole. Rodney Hogen’s continued
objections to and obstruction of the
probate process and his actions in
convoluting the title to the real property
have been unreasonable and unjustified.
Of particular note is the recording a lis
pendens in a direct violation of this
Court’s February 2, 2016 Order.
[¶10] In Estate of Kjorvestad, 375 N.W.2d 160, 171
(N.D. 1985), this Court awarded the personal
representative attorney fees and costs on appeal from
the appellant’s share of an estate under N.D.R.App.P.
38 for the appellant’s sweeping and unsubstantiated
accusations on appeal. We said that the public airing of
the appellant’s “private obsession ought to be at her
personal expense” and that “ ‘the probate code should
not be construed so as to permit one heir or devisee to
finance his or her lawsuit against another heir or
devisee out of the funds of the estate.’ ” Id. (quoting In
re Estate of Kesting, 220 Neb. 524, 371 N.W.2d 107,
109 (1985)). We exercised our powers under
N.D.R.App.P. 38 and directed that the personal
representative be paid its attorney fees out of the
appellant’s share of the estate only, rather than from

App. 8
the total estate. Kjorvestad, at 171. See First Trust Co.
v. Conway, 423 N.W.2d 795, 796 (N.D. 1988) (affirming
district court’s award of amount of attorney fees for
prior appeal).

[¶11] The attorney fee award in Kjorvestad, 375
N.W.2d at 171, was premised on N.D.R.App.P. 38,
which authorizes this Court to award attorney fees for
frivolous appeals. Although Kjorvestad recognizes an
appropriate concern about precluding a construction of
the probate code to permit one heir or devisee to
finance his or her lawsuit against another heir or
devisee out of funds of an estate, N.D.R.App.P. 38 is a
rule of appellate procedure and does not apply to
proceedings like this in the district court. In Estate of
Nohle, 2017 ND 100, ¶¶ 22-24, 893 N.W.2d 755,
however, we recently affirmed a district court decision
ordering a probate litigant to pay attorney fees
incurred by personal representatives in district court
proceedings. We explained that parties are generally
responsible for their own attorney fees, but:
The district court has authority to stem abuses
of the judicial process, which comes not only
from applicable rules and statutes, such as
N.D.R.Civ.P. 11, but “from the court’s inherent
power to control its docket and to protect its
jurisdiction and judgments, the integrity of the
court, and the orderly and expeditious
administration of justice.” Federal Land Bank v.
Ziebarth, 520 N.W.2d 51, 58 (N.D. 1994). A
district court has discretion under N.D.C.C. §
28-26-01(2) to decide whether a claim is
frivolous and the amount and reasonableness of

App. 9
an award of attorney fees, but when the court
decides a claim is frivolous, the court must
award attorney fees. See Strand v. Cass Cnty.,
2008 ND 149, ¶¶ 12-13, 753 N.W.2d 872. “A
claim for relief is frivolous under N.D.C.C. §
28-26-01(2) only if there is such a complete
absence of actual facts or law a reasonable
person could not have expected a court would
render a judgment in that person’s favor.” [In re]
Estate of Dion, 2001 ND 53, ¶ 46, 623 N.W.2d
720. We review the district court’s decision
under the statute for an abuse of discretion. Id.

Rath v. Rath, 2016 ND 46, ¶ 26, 876 N.W.2d 474
(quoting Estate of Pedro, 2014 ND 237, ¶ 14, 856
N.W.2d 775). A court also has authority to award
attorney’s fees for “[a]llegations and denials in any
pleadings in court, made without reasonable cause and
not in good faith, and found to be untrue. ...” N.D.C.C.
§ 28-26-31. An award of attorney’s fees under N.D.C.C.
§ 28-26-31 is within the court’s discretion. Rath, at ¶
26.
Nohle, at ¶ 23. In Nohle, at ¶ 24, we affirmed a district
court decision ordering a probate litigant to pay
$26,175.50 to personal representatives for attorney fees
and costs incurred in the district court for responding
to motions the court found were frivolous and contained
allegations not made in good faith. We said the
litigant’s actions unnecessarily drove up the costs of
the proceeding and concluded the district court did not
abuse its discretion in ordering the litigant to
personally pay the personal representatives reasonable
attorney fees. Id.

App. 10
[¶12] Here, the probate court made findings about
Rodney Hogen’s litigation strategy on remand and
those findings are supported by the record. As in Nohle,
2017 ND 100, ¶¶ 22-24, 893 N.W.2d 755, a probate
court has inherent authority to provide for the orderly
and expeditious administration of justice and also has
authority to award attorney fees under N.D.C.C. §
28-26-31. Here, the probate court’s decision is
consistent with the good faith and reasonable cause
requirements of N.D.C.C. § 28-26-31 and the court’s
inherent authority to provide for an orderly and
expeditious administration of the Estate while
ensuring that an heir or devisee does not finance his or
her lawsuit against another heir or devisee out of the
Estate funds. On this record, we cannot say the district
court abused its discretion in its award of attorney fees.
IV
[¶13] We have considered the remaining issues raised
by the appellants and conclude they are either
unnecessary to our decision or without merit. We
affirm the probate court’s orders.
[¶14] Jon J. Jensen
Lisa Fair McEvers
Daniel J. Crothers
Jerod E. Tufte
Gerald W. VandeWalle, C.J.

App. 11
__________
APPENDIX B
__________
IN DISTRICT COURT, COUNTY OF CASS, STATE
OF NORTH DAKOTA
IN THE MATTER OF THE ESTATE OF ARLINE H.
HOGEN, DECEASED.
File No. 09-07-P-1OO
ORDER ON PETITION FOR COMPLETE
SETTLEMENT AND DISTRIBUTION OF ESTATE
INTRODUCTION
[¶1] The background. for this estate litigation has
been set forth by prior orders including the Judgment
of the North Dakota Supreme Court. In the Matter of
the Estate of Arline H. Hogen. Deceased, 2015 N.D.
125. The background was also set forth in this Court's
Order on Petition for Approval of Final Account, for
Determination of Testacy Status, and for Settlement of
Estate also sets forth the background of this case. That
background will not be repeated here but will be
referred to by reference to those other documents.
[¶2] With the exception of some miscalculation of rent
owed on CRP property, the North Dakota Supreme
Court upheld this Court's Findings and Order. The
personal representative pursued a right of retainer
against devisee. Rodney Hogen. This Court's basic

App. 12
Findings were that Rodney did not owe the estate for
cash rent or crop share proceeds before Arline Hogen's
death in March of 2007, but he did owe the estate for
cash rent and crop share proceeds and for CRP
program payments, post death, in the amount of
$116,308.00 as of November 1, 2013. Interest was
accruing on the various components that comprised the
total amount due.
[¶3] Probating an estate is supposed to be a relatively
simple process. The personal representative is to
gather the assets of the estate, pay the debts and
expenses of administration and distribute the balance
to the heirs and devisees. That, of course, is not what
happened in this case. The Court cautioned the parties
and counsel, early on, that unless they chose a different
course, administration expenses could consume a
substantial amount of the estate. In a hearing held
March 29, 2011, the Court stated:
I think there is some stubbornness here
on your client's part that we need to get
past here to get this thing over with,
before these guys have to start selling
farmland to pay the legal fees. That
would be a real tragedy here, and it would
be embarrassing to the legal system if
that is what happened. (Page 13, lines 1520, March 29 hearing transcript).
That was 6 years ago. The Court's file contains 701
document filings consisting of 11,087 pages. The
companion case, Trust of Curtis A. Hogen Trust B, 092017-CV-01717, contains over 3,200 pages of filings.

App. 13
[¶4] The personal representative has previously
petitioned for delivery of possession and control of
estate real property. This Court, by ordered dated
February 2, 2016 ordered Rodney Hogen to surrender
and abandon to the personal representative and
immediately deliver to the personal representative
complete possession and- control over all of the estate's
real property. The Court further ordered "consistent
with the immediately proceeding ¶8 of this order and
N.D.C.C. § 30.1-18-09, neither Rodney Hogen nor his
agents or-attorneys shall interfere in any manner with
the complete possession and complete control of the
estate's real property, or with the personal
representative's power over title to the estate's real
property which the PR has under N.D.C.C. § 30.1-1811."
[¶5] On the day following the entry of this Court's
Order of February 2, 2016 which ordered Rodney
Hogen to surrender the property to the personal
representative, Rodney signs a lis pendens presumably
prepared by his attorney, covering all of the real
property. The lis pendens was recorded with the Cass
County Recorder on February 4, 2016 as Document
Number 1469575. Previously, in what can only be
concluded as an attempt to convolute the title to the
subject real estate, Rodney Hogen signed and recorded
a series of quit claim deeds purporting to deed the
estate property to an individual named Marby Hogen
and reserve a life estate to himself and his wife, Susan
Hogen. These deeds appear to have been prepared by
his attorney. Although not the subject of these
proceedings, Rodney Hogen executed similar deeds for

App. 14
the property held by the Curtis A. Hogen trust.
[¶6] Rodney, apparently, still clings to the misguided
notion that the personal representative, Steven Hogen,
has no authority over the property in this estate. That
is plainly wrong. In a lengthy opinion the North Dakota
Supreme Court carefully went over N.D.C.C. 30.1-12-01
which was taken from Section 3-01 of the Uniform
Probate Code. It is from this statute that Rodney
continues to argue that because the statute states
"upon the death of a person, the decedent's real and
personal property devolves to the persons to whom it is
devised by the decedent's last will. .. or in the absence
of testamentary 'disposition, to the decedent's heirs ...
subject to ... administration" that the real property
involved is no longer subject to administration. This
statute, of course, has to be read in context with the
statutes regarding a personal representative's powers
and duties. Under, N.D.C.C. § 30.1-18-11 a personal
representative has broad power over the property of the
decedent's estate until termination of the personal
representative's appointment. The personal
representative's appointment has not been terminated
despite Rodney's arguments to the contrary. Any
contention to the contrary is wrong. This statute
provides:
Until termination of the personal
representative's appointment, a personal
representative has the same power over
the title to the property of the estate that
an absolute owner would have, in trust,
however, for that benefit of the creditor's
and others interests in the estate. This

App. 15
power may be exercised without notice,
hearing, or order of the Court.
[¶7] Obviously, this estate is in need of further
administration. The devolution of the property upon
death to the successors is expressly subject to
administration which is still continuing. In its lengthy
opinion In the Matter of the Estate of Arline Hogen.
2015 N.D. 125, the North Dakota Supreme Court
quoted extensively from a "noted manual for the
U.P.C." authored by Richard V. Wellman. Uniform
Probate Code Practice Manual (2d ed. 1977).
As Professor Bellman explains:
The code provides in [U.P.C.] Section 3101 for devolution of title upon death to
the successors. . .. He (PR) also bas the
power at any time to take or retake
possession of these assets for the estate,
and his request for delivery of any
property in the hands of an heir or
devisee is conclusive evidence in any
action that he may bring to show that
possession is necessary for the purpose of
administration ...
Estate of Hogen ¶20. There can be no more clearer of a
request for possession of the assets, the estate's
farmland, than the motion made by the PR to have
Rodney Hogen surrender the property to him. Rodney
Hogen's contention that this Court's previous Order on
Approval of Final Account, Determination of Testacy
Status and for Settlement of Estate somehow

App. 16
terminated the administration of the estate and with it
the P.R.. 's authority to administer the estate is an
incorrect interpretation of this Court's Order and the
law. Among the Findings and Orders of this Court,
which were upheld by the Supreme Court was ¶28 of
'the Court's Order on Petition for Approval of Final
Account, for Determination of Testacy Status and for
Settlement of Estate. " ... The Estate will proceed to a
formal close." The PR's present petition is part of that
process.
[¶8] The personal representative has set forth the
condition of the estate which, in short, is not good.
Among the problems that are encumbering the estate
are:
a) Prior to her death, Arline Hogen, for Rodney's
benefit, mortgaged her property to secure loans
made to Rodney by a financial institution.
Rodney has not been paying these loans and
foreclosure looms as a substantial possibility.
b) Rodney is substantially indebted to the estate
for unpaid rent.
c) The Court has previously approved attorney's
fees and personal representative's fees. Those
fee awards have been affirmed by the North
Dakota Supreme Court. Those fees need to be
paid.
[¶9] There has been companion litigation ongoing in
the Trust of Curtis A Hogen Trust B created under the
Last Will and Testament of Curtis A Hogen. This is

App. 17
found in file 09-2015-CV-01717. The trust has faced
similar issues with Rodney failing to make appropriate
payments to the estate for farm rental and CRP
payments. In that litigation, which was commenced
later than the litigation in the estate, the Court
determined the amounts of farm rental and CRP
payments that were owed by Rodney to the trust. As
the matters of appropriate rental rates have been
previously litigated, in that case for the 2014, 2015 and
2016 crop years, this Court adopts those as its findings
for rents and CRP payments owed to the estate for
those years. See Norberg v. Norberg, 2017 N.D. 14. In
the personal representative's Petition for Complete
Settlement in Distribution of the Estate the personal
representative has calculated the rent and CRP
payments owing to the estate based on the findings of
the trust litigation. The Court adopts those calculations
and the methods by which those amounts owing were
determined. The additional amounts owed for the 2014,
2015 and 2016 crop years, without interest, would be
$55,379.73 as calculated by the PR. Interest at 6% per
year will be allowed on each component of that total.
[¶10] Further delay in the administration of this estate
will result in unnecessary further deterioration of the
estate's assets. Administration expenses will grow,
even more, and the opportunity to sell or lease the
farmland will be missed for yet another year and
perhaps lost forever to foreclosure. The PR's Petition
for Complete Settlement and Distribution of the estate
benefits the estate. The proposal is reasonable and
appropriate.
ORDER

App. 18
[¶11] The Court orders as follows:
[¶12] The personal representative shall allocate the
estate real property for the benefit of the particular
devisees as set forth in Exhibit A to the personal
representative's petition or in such other manner as
may be commercially reasonable. The Court finds that
the allocation proposed by the PR is reasonable and
beneficial to the estate.
[¶13] The lis pendens filed by Rodney Hogen against
the estate property is deemed released. The personal
representative shall prepare for the Court an Order for
the Release of Lis Pendens in recordable form which
the Court will execute and return to the personal
representative for recording.
[¶14] The personal representative shall be authorized
to sell sufficient estate property at auction or other
commercially reasonably manner and use the proceeds
to pay:
a) Mortgages and other monetary liens as
detailed in the personal representatives "Exhibit
A."
b) Estate attorney's fees and costs as ordered by
the Court.
c) Any payments to the devisees to make an
equal distribution.
[¶15] The personal representative, Steven Hogen, shall
distribute the remaining real property and proceeds

App. 19
from the sale of real property allocated to Rodney
Hogen after the proceeds from the sale of the real
property allocated to Rodney Hogen have been used to
pay for:
a) Encumbrances against the estate's real
property owed by Rodney Hogen and as detailed
in the personal representative's Exhibit "A"
b) One-half of the estate's attorney's fees and
costs as ordered by the Court in its previous
Order on Petition for Approval of Final Account,
for Determination of Testacy Status, and for
Settlement of Estate and as affirmed by the
North Dakota Supreme Court.
[¶16] The Court finds that the litigation following the
remand from the North Dakota Supreme Court was
occasioned by Rodney's stubborn refusal to comply with
court orders and to follow standard probate procedures.
Rodney exercised unauthorized control over the land
and interfered with the personal representative's
ability to manage estate resources including the receipt
of appropriate farm rent. Further, Rodney continued to
obstruct the personal representative in his efforts to
complete the estate proceedings. Pursuant to Estate of
Kjorvestad, 375 N.W. 2d 160, 171 (N.D. 1985) personal
representative's and attorney's fees and costs following
the remand of this matter by the Supreme Court are
awarded against Rodney Hogen and Rodney Hogen's
distribution from the estate rather than from the estate
as a whole.1 [Footnote 1 - In Kjorvestad the Court
stated "Indeed Mrs. Conway (the objecting heir) has
paid no heed to this Court's prior warnings about

App. 20
dissipating funds of the estate through rancorous
litigation."] Rodney Hogen's continued objections to
and obstruction of the probate process and his actions
in convoluting the title to the real property have been
unreasonable and unjustified. Of particular note is the
recording a lis pendens in a direct violation of this
Court's February 2, 2016 Order.
[¶17] The personal representative is authorized to
distribute the· remaining real property, cash and
proceeds from the sale of real property allocated to
Steven Hogen after the proceeds from the sale of the
real property allocated to Steven Hogen have been used
to pay for:
a) One-half of the estate's fees and costs as
ordered by the Court and affirmed by the North
Dakota Supreme Court;
b) One-half of the encumbrance owing to First
State Bank of North Dakota.
[¶18] That any capital gains taxes associated with the
sale of real property herein shall be assessed against
and paid by the devisee to whom such property has
been allocated herein.
[¶19] The personal representative shall be authorized
to perform any act, sign any deed, or take any other
appropriate action to carry out the terms of this order
to accomplish a complete settlement and distribution of
this estate.
[¶20] Upon completion of all items set forth herein, the

App. 21
personal representative shall file a sworn statement
with the Court and a proposed Order Discharging the
Personal Representative.
Dated this 3 day of April, 2017.
BY THE COURT:
/s/ John C. Irby
_____________________
John C. Irby
District Court Judge
East Central Judicial District

App. 22
__________
APPENDIX C
__________
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
Court File No.: 09-07-P-1OO
ORDER DISCHARGING PERSONAL
REPRESENTATIVE AND DENYING RODNEY
HOGEN'S DECLARATION AND PETITION
[¶1] A Petition for Discharge of Personal
Representative, signed by Steven C. Hogen, as
Personal Representative, and a Declaration of
Interested Persons Voiding the Allocation, Partition,
Sale, Encumbrance of Real Property Once Owned by
the Decedent and Petition of Interested Persons for
Order Voiding Personal Representative's Allocation,
Partition, Sale or Encumbrance of Real Property Once
Owned by the Decedent [or Order Confirming the
Declaration of Interested Persons Voiding the Personal
Representative's Transaction(s)] and Petition of
Interested Persons to Vacate this Court's Order of April
3, 2017, filed by Rodney Hogen, Susan Hogen, and
Marby Hogen, came before the Court for hearing on
August 10, 2018.
[¶2]

Personal Representative Steven Hogen

App. 23
appeared personally with his counsel, Sara K. Sorenson
and Robert G. Hot of Ohnstad Twichell, P.C. Rodney
Hogen, Susan Hogen, and Marby Hogen did not
appear, but were represented by Jonathan T. Garaas of
the Garaas Law Firm. No testimony was taken at the
hearing.
[¶3] Rodney's Declaration and Petition were
filed subsequent to the Personal Representative's
Petition for Discharge of Personal Representative, and
Rodney's Declaration and Petition make arguments in
response to the Petition for Discharge of Personal
Representative. The Court therefore views Rodney's
Declaration and Petition as a response to the Petition
for Discharge of Personal Representative.
[¶4] Following the first appeal of Rodney
Hogen in this matter which was pursuant to a Rule
54(b) certification, the North Dakota Supreme Court
remanded this matter in a decision dated May 27,
2015, to "recalculate the retainer after considering the
effect of the Barnes County conservation reserve
program land on the cash rent for the Barnes County
land and on the average per acre cost of production for
the Cass County land." Estate of Hogen, 2015 ND 125,
¶35, 863 N.W.2d 876. The Court has recalculated the
retainer in accordance with the decision of the North
Dakota Supreme Court. (Index # 571.) In addition,
following remand, the Court has held a number of
hearings and entered a number of orders following the
remand in order to complete the administration of the
Estate, including entering an order allocating the
property between the beneficiaries such that the
property could be sold to pay for Estate debts and

App. 24
mortgages against Estate property. (Index # 702.)
[¶5] The Court, having considered the
arguments of counsel, all the filings of record, and
being fully advised in the premises, now issues the
following Order.
I.
Susan and Marby Hogen are not interested
persons in the Estate.
[¶6] The Court finds that Susan and Marby are
not interested persons in the Estate. The Court takes
judicial notice of the fact that Rodney's counsel in this
case brought a quiet-title action in Barnes County on
behalf of Susan and Marby, alleging that Susan and
Marby had an interest in the Estate property. In the
Barnes County action, arguments identical to those
made by Rodney in this Court and rejected, were
repeated in Barnes County, and such arguments were,
again, rejected. The judgment in the Barnes County
case states as follows:
IT
IS
FURTHER
ORDERED,
ADJUDGED, AND DECREED that the
Estate's power over the title to all the
above described real property is superior
to any title or interest of Marby Hogen or
Susan Hogen, and a conveyance of the
Estate's interest in the real property
described above to a third party
extinguishes any title to or an interest in
said property by Marby Hogen or Susan
Hogen.

App. 25
(Judgment, ¶ 5, Marby Hogen and Susan Hogen, v.
Steven C. Hogen. as Personal Representative of the
Estate of Arline H. Hogen. Deceased, Case No. 02-2017CV-00116, Barnes County District Court, Index # 90.)
As set forth in the Personal Representative's Petition,
the Estate's interest in real property referred to in the
Barnes County Judgment has been transferred to third
parties other than Rodney Hogen.
[¶7] The term "interested person" is defined to
include "heirs, devisees, children, spouses, creditors,
beneficiaries, and any others having a property right in
or claim against a trust estate or the estate of a
decedent." N.D.C.C. § 30.1-01-06(26). Susan and Marby
are not heirs, devisees, children, spouses, creditors, or
beneficiaries of the decedent, and they have been
judicially declared to not have a property right in the
Estate. The Court finds that Susan and Marby have no
interest in the Estate property. Because Susan and
Marby are not interested persons, they have no
standing to join in Rodney's "Declaration" and
"Petition."
[¶8] Susan and Marby allege they have been
denied notice and opportunity to be heard as interested
persons. But even if Susan and Marby were arguably
interested persons, they have received whatever
process was due to them by choosing to start a quiettitle action in Barnes County. Susan and Marby had
notice and opportunity to be heard in the Barnes
County case, and that is the remedy they chose to
vindicate their alleged interests. They cannot now relitigate their claims here. Ungar v. N.D. State Univ.,
2006 ND 185, ¶ 11, 721 N.W.2d 16. ("Resjudicata, or

App. 26
claim preclusion, prevents relitigation of claims that
were raised, or could have been raised, in prior actions
between the same parties or their privies. "). Indeed,
the entire "Declaration" and "Petition" is a
regurgitation of the same arguments made and rejected
in this case, in Barnes County, and in the Trust
Case.[FN1- The Trust proceeding also referred to
herein as "Trust Case" is venued in Cass County
District Court as Case No. 09-2015-CV-01717.] In fact,
the Affidavit of attorney Jonathan T. Garaas in support
of the "Declaration" and "Petition" is verbatim to the
affidavit submitted in the Trust Case. Compare Trust
Case (Index. #497, Case No. 09-2018-CV -01717) with
Estate Case (Index #730). And, in the Trust Case, the
North Dakota Supreme Court rejected the arguments
made in the Affidavit, which were incorporated by
reference in Rodney Hogen's "Objection to Steven's [sic]
C. Hogen's Amended Final Report and Account." (Trust
Case, Index # 491, ¶ 35.) See generally, Matter of
Hogen Trust B, 2018 ND 117, 911 N.W.2d 305. The
arguments, made again here, are barred as res judicata
and/or issue preclusion. Ungar, 2006 ND 185, ¶11.
II.
Rodney cannot void the sale under
N.D.C.C. § 30.1-18-13.
[¶9] Rodney argues that he is able to void the
sale of real estate under N.D.C.C. § 30.1-18-13. This
statute provides:
Any sale or encumbrance to the personal
representative, the personal
representative's spouse, agent, or
attorney, or any corporation, limited

App. 27
liability company, or trust in which the
personal representative has a substantial
beneficial interest, or any transaction
which is affected by a substantial conflict
of interest on the part of the personal
representative, is voidable by any person
interested in the estate except one who
has consented after fair disclosure,
unless:
1. The will or a contract entered into by
the decedent expressly authorized the
transaction; or
2. The transaction is approved by the
court after notice to interested persons.
N.D.C.C. § 30.1-18-13.
[¶10] The Court concludes this statute does not
apply here because the Personal Representative did not
sell the land to himself, his spouse, agent, attorney, or
any entity in which he has an interest. And Rodney has
offered no other evidence that the Persona]
Representative had a conflict of interest in selling the
property. To the contrary, the Personal Representative
sold the property at an auction in accordance with an
order of this Court and followed this Court's
instructions. (Index # 702.)
[¶11] Rodney again makes arguments
pertaining to the auction procedure for selling the
Estate property, which arguments have already been
rejected by the North Dakota Supreme Court in the

App. 28
Trust proceeding. Rodney incorporates his
"Declaration" and "Petition" into his Response objecting
to the Personal Representative's Petition for Discharge
in this matter. The Affidavit of attorney Jonathan T.
Garaas in support of the "Declaration" and "Petition,"
which complains about the auction procedure, is
verbatim to the affidavit submitted in the Trust Case.
Compare Trust Case (Index. #497, Case No. 09-2018CV-01717) with Estate Case (Index #730).
[¶12] In the Trust Case, the district court and
the North Dakota Supreme Court rejected the
arguments made in the Affidavit, which were
incorporated by reference in Rodney Hogen's "Objection
to Steven's [sic] C. Hogen's Amended Final Report and
Account" in the Trust Case. (Trust Case, Index # 491,
¶35); see Matter of Hogen Trust B, 2018 ND 117, ¶36,
911 N.W.2d 305. ("We reject Rodney Hogen's claim the
sale of the Trust estate was not done in a reasonable
manner under the circumstances of this case."). The
arguments, made again here, are barred as res judicata
and/or issue preclusion. Ungar, 2006 ND 185, ¶11, 721
N.W.2d 16.
III. The division and distribution of Estate
property is approved.
[¶13] More than 18 months ago, on January 27,
2017, the Personal Representative brought a Petition
for Complete Settlement and Distribution of the Estate.
(Index # 668.) Steven Hogen, as the sole remaining
Trustee of the Trust, brought a virtually identical
petition in the Trust Case. (Index. #420, Case No. 092015-CV -01717). Because the land in the Trust and

App. 29
the land in the Estate are jointly owned, the manner of
allocation and distribution were the same in the Trust
case and in the Estate case to achieve a 50%
distribution to Steven and a 50% distribution to
Rodney. (Compare Index # 668 with Trust Case, Index.
#420, Case No. 09-2015-CV-01717.)
[¶14] As set forth in the January, 2017 petition
in this proceeding, the Personal Representative
indicated with citation to the record in the Trust
proceeding the following: "In the companion Trust
proceeding, Rodney Hogen testified and introduced
emails that he and Steven Hogen agreed to a split of
the Trust and Estate property as set forth in such
emails." (Index # 668, ¶9.) In the Trust proceeding, the
court ruled as follows: "The Court finds that the
allocation of Trust property is fair and proper. Steven
and Rodney agreed to a particular split of the Trust
and Estate property. The agreement is evidenced by
emails introduced to the record during Rodney's
testimony. Steven allocated the Trust property in
accordance with that agreement." (Index. # 506, ¶8,
Trust Case, No. 09-2015-CV-01717.)
[¶15] The North Dakota Supreme Court then
affirmed the finding of the court in the Trust Case. See
Matter of Hogen Trust B, 2018 ND 117, ¶36, 911
N.W.2d 305 ("Evidence in this record supports the
division and distribution of the Trust property."). The
arguments concerning the division and distribution of
the Estate property, made again here, are barred as res
judicata and/or issue preclusion. Ungar, 2006 ND 185,
¶11,721 N.W.2d 16.

App. 30
[¶16] Rodney also argues that the Personal
Representative has not accounted for his actions as the
Personal Representative and has not provided any
accounting for any cash rent, income, or expenditures.
The Court finds this claim has no merit. On January
27, 2017, the Personal Representative filed a "Record
of Receipts and Disbursements," which shows the
activity in the Estate checking account from its
inception in 2007 until December 22,2016. (See Index
# 673.) The Personal Representative then filed a
supplement to this Record to reflect disbursements
from the Estate checking account after December
22,2016. (See Index # 712.) All of these documents were
served upon Rodney, via his counsel. (See Index # 674,
Index # 726.)
[¶17] Personal Representative's counsel has
provided information regarding the rent received in
response to inquiry from Rodney's counsel as set forth
in Exhibit "B" to the Personal Representative's
Petition. Moreover, the rent income and proceeds from
the sale, which have been deposited into the IOLTA
Trust Account of the Personal Representative's counsel,
and the rent income and disbursements from such
account, have been detailed in the Petition for
Discharge of the Personal Representative and in
Exhibit 3 of the Personal Representative's Petition,
entitled "Remaining Estate Income to Steven and
Rodney." (See Index # 711 (Petition), # 714 (Exhibit 3).)
The Personal Representative's counsel has stated that
the amount remaining in the IOLTA Trust Account for
the Estate is $407,608.05, which is the total of the
amount designated as "Preliminary cash allocation
prior to deduction for unpaid fees/costs and future

App. 31
expenses" on the Petition for Discharge of Personal
Representative (Index # 711, ¶ 6 (indicating the
preliminary cash for distribution of $119,780.52 in
Steven's column and $287,827.53 in Rodney's column,
which totals $407,608.05). The Court finds that the
Personal Representative has properly accounted for
Estate funds and his actions.
IV.
Steven has not yet been discharged as personal
representative.
[¶18] Rodney argues Steven's appointment as
personal representative terminated in 2013 when this
Court entered an "Order on Petition for Approval of
Final Account, for Determination of Testacy Status,
and for Settlement of Estate. " The Court finds that
Steven's appointment as personal representative did
not terminate after this Order, which neither closed the
Estate nor discharged the Personal Representative.
(See Index # 436.)
[¶19] N.D.C.C. § 30.1-17-10 says that "[a]n
order closing an estate as provided in section 30.1-2101 or 30.1-21-02 terminates an appointment of a
personal representative." N.D.C.C. § 30.1-17-10
(emphasis added). But N.D.C.C. § 30.1-21-01 provides
that the probate court "may enter an order or orders,
on appropriate conditions, ... approving settlement
and... directing or approving distribution of the estate
and discharging the personal representative from
further claim or demand of any interested person."
N.D.C.C. § 30.1-21-01 (emphasis added). This Court
has never issued an order closing this Estate or
discharging the Personal Representative. Rodney

App. 32
Hogen again argues that Steven Hogen has no
authority to act as the Personal Representative,
claiming the Estate was terminated after Rodney's first
unsuccessful appeal following a Rule 54(b) certification.
(Index # 506.) Rodney's argument ignores that a Rule
54(b) certification necessarily means there were more
tasks to be completed before the Estate could be closed
and the personal representative discharged. Indeed,
this Court has already detailed the tasks that needed
to be completed following the remand and as referenced
in orders prior to the appeal:
IT IS FURTHER ORDERED that,
pursuant to N.D.C.C. § 30.1-21-01(1), and
Estate of Cashmore, 2010 ND 159, ¶14,
787 N.W.2d 261, issues that must yet be
resolved in this probate proceeding,
including but not limited to those issues
addressed and/or referred to in Doc. #436
and Doc. #490 (the Estate will proceed to
a formal close; Estate farmland will need
to be utilized for administrative purposes,
"including dealing with mortgages that
Arline Hogen gave on the land to secure
debt incurred by Rodney"), Doc. #499 (the
amount of the right of retainer claim,
post-remand), Doc. #500 (payment of
remaining attorney fees and PR fees,
additional real estate taxes, and the
amount of the right of retainer claim,
post-remand), Doc. #502 (payment of
additional administrative expenses,
including additional real estate taxes),
Doc. #505 (payment of PR's fee and

App. 33
attorney fees "out of the estate assets"),
Doc. #506 (payment of PR's fee and
attorney fees), Doc. #521 and Doc. #522
(payment of PR's fee and attorney fees,
and utilizing correct right of retainer
claim, post-remand), Doc. #546 (in the
"REPORT OF PRESENT STATUS OF
PROBATE," at pp. 4-5, the "prior
payments" needed to be paid out of the
assets in the Estate before the Estate can
be closed), Doc. #562 (proceed to a formal
close, selling some farm property, deed of
sale will have to be given to the buyer,
deed of distribution for whatever's left
will have to be given--p. 16, I. 9;
substantial attorneys fees and PR fees
that are going to have to be paid out of
the assets of the estate--p. 17, 1. 15; the
personal representative has some
significant work to do to bring the estate
to its finality, including deeds of
distribution, paying administrative
expenses, and so forth, "so I will order
that the personal representative complete
the items that are necessary to close the
estate, whatever those are determined to
be" --p. 21, 1. 17; "the personal
representative should do whatever is
necessary, take the necessary steps to
close the estate, including collection of
assets, payment of expenses, and
distribution of any remaining property" -p. 22, 1. 12), and Doc. #568 (see pp. 2-7),
are hereby bifurcated, and all such issues

App. 34
will be ruled upon by the Court after
future proceedings and orders, which will
culminate in a formal closing and the
entry of a final judgment at a later date
as to all such issues, and/or entry of an
order closing the estate at such later date,
and/or entry of an order terminating the
appointment of the PR at such later date.
(Index # 639, ¶ 4.)
[¶20] This probate proceeding was commenced
in 2007, which was the year that Arline died, and has
continued since that time. Accordingly, N.D.C.C. §
30.1-12-08, cited by Rodney in support of his argument
and which statute generally limits probate proceedings
being commenced more than three years after the
decedent's death, does not apply. Likewise, Rodney's
citation to Dennison does not support his argument; in
that case "[n]o probate was filed to administer
[Magdalena Retzer's] estate[.]" Dennison v. N.D.
Department of Human Services, 2003 ND 10, ¶ 11, 656
N.W.2d 25. The Court rejects Rodney's repeated and
incorrect arguments regarding termination of the
Estate.
[¶21] In addition, this Court has previously
rejected this argument from Rodney and expressly
determined that Steven's appointment as personal
representative has not been terminated and that the
Estate was in need of further administration. (Index #
702 at ¶¶ 6-7.)
V.

The

Personal

Representative's requested

App. 35
attorney fees and expenses are approved.
[¶22] The North Dakota Supreme Court has
summarized the law with regard to awarding attorney
fees to a personal representative of an estate:
Section 30.1-18-20, N.D.C.C. (U.P.C. § 3720), authorizes a district court to award
a personal representative necessary
expenses and disbursements, including
reasonable attorney fees, from an estate
for prosecuting estate proceedings in good
faith, whether successful or not. A
personal representative's actions must be
in good faith and for the benefit of the
estate. A benefit to the estate includes a
personal representative' s good faith
attempt to effectuate a testator's
testamentary intent or to increase the
assets in the estate.
In re Estate of Hogen, 2015 ND 125, ¶50,863 N.W.2d
876 (citations omitted).
[¶23] Rodney does not challenge any specific
hourly rates or time entries in the fee request but
rather claims that all fees are barred by N.D.R.Civ.P.
54(e). Rule 54(e) states that a motion for attorney fees
must be made "within 21 days after notice of entry of
judgment." Rodney argues that the Personal
Representative needed to bring a motion for attorney
fees within 21 days of this Court's April 3, 2017 Order
on Petition for Complete Settlement and Distribution
of Estate in order to be timely. But the Court's April 3,

App. 36
2017 order was not a final judgment; it was an
interlocutory order. There has been no final judgment
in this case, so Rule 54(e) does not apply.
[¶24] The Court finds that the hourly rates
charged by Ohnstad Twichell, P.C., are reasonable, and
Rodney has not challenged the hourly rates. The Court
further finds that the time spent by Ohnstad Twichell,
P.C., in prosecuting these proceedings is reasonable,
and Rodney has not challenged any of the time entries
of the requested fees. Although the amount of attorney
fees requested is large, the fees were reasonable and
necessary in light of the protracted nature of this
litigation, which was caused by Rodney's tenacious
litigation strategy. The Court finds that Steven, as
Personal Representative, acted in good faith and for the
benefit of the estate by employing attorneys to defend
against Rodney's tenacious litigation tactics. The
attorney fees benefitted the estate by ensuring Rodney
could not impede or obstruct the administration of the
Estate and by increasing the assets of the estate.
[¶25] The Court finds that Ohnstad Twichell,
P.C., has discounted a significant portion (nearly
$90,000) of the actual attorney fees spent on this
contentious and protracted litigation in an effort to
avoid duplication and bring some sense of
proportionality to this case. The Court has taken this
voluntary discount into account when considering the
reasonableness of the fee request.
[¶26] The Personal Representative requests
$50,000 for attorney fees expended prior to the remand
by the supreme court in the first appeal in this case.

App. 37
Rodney has made no specific challenge to this amount.
The Court finds that this amount is reasonable and
approves the request. One-half of this amount will be
withheld from each of Steven and Rodney's shares of
the Estate.
[¶27] The Personal Representative requests a
total of $200,000 in attorney fees that were expended
following the remand from the supreme court. This
amount includes $128,082.15 in fees for post-remand
Estate administration, $10,788.59 in fees for two
separate actions to evict a tenant from the Estate
property, and $61,129.26 in fees to defend the Barnes
County quite-title action ostensibly brought by Susan
and Marby Hogen.
[¶28] The Court has already ruled that the
Personal Representative's attorney fees and costs postremand are to be deducted from Rodney's share of the
Estate pursuant to Matter of Estate of Kjorvestad, 375
N.W.2d 160, 171 (N.D. 1985). The Court finds
$128,082.15 in attorney fees for post-remand litigation
reasonable in light of the protracted nature of the
proceedings and Rodney's efforts to obstruct the
administration of the Estate. This amount shall be
withheld from Rodney's share of the Estate.
[¶29] The Personal Representative was sued
ostensibly by Rodney's wife and daughter in the Barnes
County quiet-title action. The Court takes judicial
notice of the Barnes County Court's finding in the
quiet-title case that Susan and Marby were nominal
plaintiffs and that the action was "clearly controlled by
Rodney." (Memorandum and Order Re: Motion for

App. 38
Summary Judgment, ¶ 4, Marbv Hogen and Susan
Hogen, v. Steven C. Hogen, as Personal Representative
of the Estate of Arline H. Hogen, Deceased, Case No.
02-2017-CV-00116, Barnes County District Court,
Index # 78.) The Court finds that Rodney was
responsible for and controlled the Barnes County action
against the Personal Representative. Rodney's
involvement in the Barnes County case is evident from
the fact that Susan and Marby were represented by
Rodney's counsel, the fact that Susan and Marby are
Rodney's immediate family members, and the fact that
the same arguments made by Rodney here were made
by Susan and Marby in that case. The Court finds that
the Barnes County action was another tenacious tactic
by Rodney to obstruct the administration of the Estate
and therefore orders that the costs of that action be
taken out of Rodney's share of the Estate pursuant to
Estate of Kjorvestad, 375 N.W.2d at 171. The Court
finds that $61,129.26 in attorney fees for the Barnes
County case was reasonable, and Rodney makes no
challenge to the specific amount. The Court finds that
the attorney fees expended in the Barnes County case
benefitted the Estate by allowing the sale of Estate
property to move forward, which increased the assets
of the Estate. The $61,129.26 shall be withheld from
Rodney's share of the Estate.
[¶30] The Personal Representative was also
required to evict a tenant of the homestead in
connection with the sale of the property. Prior to the
eviction hearing in April 2018, the tenant, LeRoy
Cromwell, neither paid rent to the Personal
Representative or obeyed his instructions to leave the
property. Two separate eviction proceedings were

App. 39
necessary as the tenant testified he had been regularly
paying monthly rent to Rodney Hogen, who had not
asked him to vacate the premises. This contravenes ¶4
of this Court's Order of April 3, 2017. These Cass
County District Court eviction proceedings may be
found as files #09-2017-CV-02802 and 09-2018-CV01059. Rodney Hogen has not accounted to the
Personal Representative for any monthly rents received
from this tenant.
[¶31] The Court finds that $10,788.59 in
attorney fees was reasonable for the two eviction
actions. Rodney alleges this was a "massive amount"
but offers no evidence or argument as to why. The
Court finds the amount is reasonable because the
complex background of the case and protracted
litigation made those eviction actions far more complex
than a typical landlord-tenant eviction proceeding. The
Court finds that Rodney's actions in allowing the
tenant to remain on the property made it necessary for
the Personal Representative to evict the tenant and
therefore orders that the costs of the eviction actions be
taken out of Rodney's share of the Estate pursuant to
Estate of Kjorvestad, 375 N.W.2d at 171. The Court
finds that evicting the tenant from the property was
necessary and benefitted the Estate by allowing the
sale of Estate property to move forward, which
increased the assets of the Estate. The $10,788.59 shall
be withheld from Rodney's share of the Estate.
[¶32] The Personal Representative also requests
a total of $23,000 in attorney fees be withheld from
Rodney's share until the final resolution of all appeals
related to this case and the Barnes County case, which

App. 40
has already been appealed. This amount includes
$3,000 for the remaining work to be done on the Barnes
County appeal and $20,000 for the expected appeal in
this case. Rodney has made no challenge to the
reasonableness of these amounts, and for the foregoing
reasons, they are properly chargeable to Rodney
pursuant to Estate of Kjorvestad, 375 N.W.2d at 171.
The Court finds these amounts to be reasonable and
orders an additional $23,000 to be withheld from
Rodney's share of the Estate for fees related to these
appeals. These withheld funds shall be placed in the
Ohnstad Twichell Trust Account and used to pay the
attorney fees and costs incurred by the Personal
Representative in connection with such appeals. Any
unused funds shall be promptly distributed to Rodney.
VI.
Steven is discharged as Personal Representative,
but such order is stayed until the appeal period runs in
this matter or until this matter is finally resolved
following an appeal.
[¶33] The Court has the power to condition the
discharge of a personal representative upon the
occurrence of an event. See In re Estate of Fisk, 2010
ND 186, ¶ 1,788 N.W.2d 611 (appeal from an order
discharging a personal representative upon payment on
a claim against the estate). The Probate Code provides
that "the court may enter an order or orders, on
appropriate conditions, ... discharging the personal
representative from further claim or demand of any
interested person." N.D.C.C. § 30.1-21-01 (emphasis
added). Nothing in the Probate Code prohibits staying
the discharge of a personal representative pending
appeal. The Court finds that staying the discharge of

App. 41
the Personal Representative until the appeal period
runs with no filing of an appeal, or until the matter is
finally resolved following an appeal, and until the
Barnes County case is finally resolved, is an
appropriate condition in this case because Rodney's
tenacious litigation strategy and history of appealing
indicate that there is nearly an absolute certainty this
order will be appealed. Rodney also agrees that the
Personal Representative should not be discharged until
all probate litigation is concluded. (Index # 745 at p. 12,
¶ J.) The Court orders that Steven is discharged as
Personal Representative, but such discharge is stayed
until the appeal period runs with no filing of an appeal
in this matter or until this matter is finally resolved
following an appeal, and such order is further stayed
until the Barnes County appeal is finally resolved
following the appeal in that case.
[¶34] Based on the foregoing, the Court orders
as follows:
[¶35] The Court approves the distributions and
disbursements as set forth in the Personal
Representative's Petition for Discharge of Personal
Representative.
[¶36] Attorney fees and expenses expended
prior to the remand by the North Dakota Supreme
Court in the first appeal in this case in the amount of
$50,000 shall be paid to Ohnstad Twichell, P. C. Onehalf of this amount will be withheld from each of
Steven's and Rodney's shares of the Estate.
[¶37] Attorney fees and expenses following the

App. 42
remand by the North Dakota Supreme Court in the
amount of $200,000 shall be paid to Ohnstad Twichell,
P.C. This entire amount shall be withheld from
Rodney's share of the Estate.
[¶38] An additional $23,000 shall be withheld
from Rodney's share of the Estate for attorney fees and
costs related to the Barnes County case appeal and any
appeal in this case. These withheld funds shall be
placed in the Ohnstad Twichell Trust Account and used
to pay the attorney fees and costs incurred by the
Personal Representative in connection with such
appeals. Any unused funds shall be promptly
distributed to Rodney Hogen.
[¶39] Steven Hogen is discharged as Personal
Representative, but such discharge is stayed until the
appeal period runs with no filing of an appeal in this
matter or until this matter is finally resolved following
an appeal, and such discharge is further stayed until
the Barnes County appeal is finally resolved following
the appeal in that case.
BY THE COURT
Signed: 8/22/2018 3:01:42 PM
/s
__________________________
John C. Irby

App. 43
__________
APPENDIX D
__________
863 N.W.2d 876
Supreme Court of North Dakota.
In the Matter of the ESTATE OF Arline H. HOGEN,
Deceased,
Steven C. Hogen, Petitioner and Appellee and
Cross–Appellant
v.
Rodney HOGEN, Respondent and Appellant and
Cross–Appellee.
No. 20140119.
May 27, 2015. Rehearing Denied July 1, 2015.

In re Estate of Hogen, 2015 ND 125, 863 N.W.2d 876
Opinion
KAPSNER, Justice.
[¶ 1] Rodney Hogen appeals and Steven Hogen, as
personal representative of the estate of Arline Hogen,
cross-appeals from an order approving a final
accounting and settlement in the probate of the estate

App. 44
of Arline Hogen. We hold the district court did not err
in concluding the devolution of real property to Rodney
Hogen was subject to the personal representative's
power during administration of the estate to seek a
retainer for any noncontingent indebtedness Rodney
Hogen owed Arline Hogen or the estate. We conclude
the court erred to the extent it calculated the estate's
retainer based on Barnes County conservation reserve
program land, but we otherwise conclude the court did
not clearly err in determining the estate's retainer
against Rodney Hogen's interest in the estate. We
further conclude the court did not abuse its discretion
in awarding personal representative fees and attorney
fees. We affirm in part, reverse in part, and we remand
for recalculation of the retainer against Rodney
Hogen's interest in the estate after considering the
effect of the Barnes County conservation reserve
program land on the cash rent for the Barnes County
land and on the average per acre cost of production for
the Cass County Land.
I
[¶ 2] Curtiss and Arline Hogen were husband and wife,
and they jointly owned about 737 acres of farmland in
Barnes and Cass Counties. In the late 1960s, Rodney
Hogen began farming the land with his father, Curtiss
Hogen. When Curtiss Hogen died in 1993, his will
distributed his undivided half interest in the farmland
into the Curtiss Hogen Trust B, with Arline Hogen
designated as the recipient of the net income from the
Trust. Curtiss Hogen's will appointed his sons, Steven
and Rodney Hogen, as co-trustees of the Trust and
authorized the Trust to continue the farming operation.

App. 45
Rodney Hogen continued farming the land under a
cash rent and crop-share rental arrangement with the
Trust and with Arline Hogen, the owner of the other
undivided half interest in the farmland. An inventory
of Arline Hogen's estate reflected the Barnes County
land consisted of about 308 tillable acres and 14
non-tillable acres and the Cass County land consisted
of about 393 tillable acres and about 22 non-tillable
acres. Rodney Hogen initially cash rented the Barnes
County land for $30 per acre and farmed the Cass
County land as a crop-share tenant. According to
Rodney Hogen, under the terms of the crop-share
agreement for the Cass County land, he received
two-thirds of the crop-share proceeds and was
responsible for two-thirds of the input costs and Arline
Hogen and the Trust each received one-sixth of the
crop-share proceeds and were each responsible for
one-sixth of the input costs. Rodney Hogen claimed he
made yearly reconciliations of the cash rent and
crop-share proceeds due to Arline Hogen against the
input costs she owed for the Cass County land.
[¶ 3] When Arline Hogen died on March 23, 2007, she
was survived by her two sons, Steven and Rodney
Hogen, and her 1994 will equally devised all her
property to them. In April 2007, Steven Hogen applied
for informal probate of Arline Hogen's will and
appointment as personal representative of her estate,
and he was appointed personal representative of her
estate. According to Steven Hogen, he subsequently
determined Rodney Hogen had not made certain cash
rent and crop-share payments to Arline Hogen before
her death in March 2007, and he claimed her estate
was authorized to offset the amount of Rodney Hogen's

App. 46
indebtedness to her against Rodney Hogen's interest in
her estate.
[¶ 4] On March 19, 2010, Steven Hogen, as personal
representative of the estate, petitioned for approval of
a final accounting, for a determination of Arline
Hogen's testacy status, and to formally close the
probate of her estate. The personal representative
sought a retainer against Rodney Hogen's share of the
estate under N.D.C.C. § 30.1–20–03, claiming Rodney
Hogen owed the estate about $98,000 for cash rent,
crop-share payments, and conservation reserve
program payments for crop years 2003 through 2009.
[¶ 5] Rodney Hogen opposed the personal
representative's petition, denying any liability for an
offset against his interest in the estate and seeking
removal of Steven Hogen as personal representative of
the estate and removal of the estate's counsel. Rodney
Hogen also sought appointment as successor personal
representative and supervised administration of the
estate. After a hearing, the district court ordered the
parties to proceed under N.D.C.C. § 30.1–20–03 to
determine the amount of retainer or offset, if any,
against Rodney Hogen's interest in the estate.
[¶ 6] Rodney Hogen answered the petition, asserting
any debt he owed the estate was a contingent
indebtedness under N.D.C.C. § 30.1–20–03. He denied
“the estate [was] in a condition to be closed,” and
claimed he was not indebted to the estate for any
unpaid rents and expenses. Rodney Hogen thereafter
moved for summary judgment on the personal
representative's claim for a retainer, asserting any

App. 47
debts he owed the estate were barred by statutes of
limitations in N.D.C.C. §§ 28–01–26 or 30.1–19–03. He
also claimed he and Steven Hogen were co-owners of
the cash rent and crop-share proceeds immediately
after Arline Hogen's death and those funds were not
needed for administration of her estate. The district
court ruled the personal representative's claims for
cash rent and crop-share proceeds before March 19,
2004, were barred by the six-year statute of limitations
in N.D.C.C. § 28–01–16 and granted Rodney Hogen
summary judgment dismissing the estate's claim for a
retainer for the 2003 crop year. The court denied the
remainder of Rodney Hogen's motion for summary
judgment.
[¶ 7] After further proceedings, the personal
representative filed an amended petition for approval
of a final accounting and formal settlement of the
estate in February 2013, seeking a retainer against
Rodney Hogen's share of the estate for cash rent,
crop-share proceeds, and conservation reserve program
payments for crop years 2004 through 2012. After a
protracted bench trial, the district court determined
that the estate was not entitled to an offset against
Rodney Hogen's share of the estate for cash rent or
crop-share proceeds before Arline Hogen's death in
March 2007, but that Rodney Hogen owed the estate
$95,544.44 for cash rent and crop-share proceeds for
crop years 2007 through 2013. The court further
determined Rodney Hogen owed the estate for a share
of conservation reserve program payments and also
awarded the estate interest, which resulted in a
determination that Rodney Hogen owed the estate a
total of $123,387.44 to be offset against his interest in

App. 48
the estate. The court also approved Steven Hogen's
request for the estate to pay $27,500 in personal
representative fees and $333,272.23 in attorney fees,
costs, and expert witness fees.
II
A
[¶ 8] Rodney Hogen argues the district court erred in
authorizing the personal representative to pursue a
retainer in this probate proceeding against his devised
real property for claimed post-death cash rent and
crop-share proceeds under N.D.C.C. § 30.1–20–03. He
claims his share of Arline Hogen's real property vested
in him immediately upon her death under N.D.C.C. §
30.1–12–01 and the common law rule stated in Stanton
v. Stanton, 134 Neb. 660, 279 N.W. 336 (1938). He
asserts “North Dakota's present statutory scheme
seems to follow the general common law rule ... as to
devised real property” to the effect that when a
decedent dies testate, a debt owed the decedent, who
failed to mention the debt in the will, is not subject to
the right of retainer and the debt must be collected in
a separate legal action.
[¶ 9] In Stanton, 279 N.W. at 341, the Nebraska
Supreme Court described the common law for
devolution of a decedent's property:
It must be remembered that at common
law all of the property of a deceased
person passed direct to his heirs upon his
death, free from any debts due the

App. 49
deceased from the heirs. Most states,
including this state, have enacted
statutes providing that personal property
passes to the executor or administrator
upon the death of the owner. Such
statutes are clearly in derogation of the
common law and it is only because of
them that an executor or administrator
comes into possession of the personalty
and may retain from the interest of a
legatee or distributee the amount owing
to the deceased. In this state the
legislature has not changed the common
law in so far as the descent of real estate
is concerned. The result is that real estate
descends to the devisees of a deceased
free from the debts of such devisee subject
only to conditions imposed by statute.
Our statutes, hereinbefore cited, do not
provide for advancements in testate
estates, the will of testator presumably
being the testator's last expression of his
intention. There being nothing in the will
purporting to charge the devisee with the
indebtedness owing the testator, it
evinces an intention to treat the notes as
a simple indebtedness and to leave their
enforcement to the ordinary legal
methods provided by law. No charge
against the land was created by the
testator in the case at bar. Under such
circumstances, the only remedy of the
administrator or executor is to invoke the
ordinary legal remedies to enforce

App. 50
payment. The adoption of any other rule
would be equivalent to a rewriting of
testator's will by us or tantamount to the
passage of a statute by the court in a field
where the legislature has refused to act.
[¶ 10] In Stenson v. H.S. Halvorson Co., 28 N.D. 151,
156, 147 N.W. 800, 801 (1913) (citing 1905 R.C. § 5186),
a case involving a decedent without a will, this Court
considered the effect of a statutory provision stating
that both real and personal property of an intestate
decedent passed to the decedent's heirs subject to
administration. This Court sustained a right of
retainer against an heir of the intestate decedent and
held the heir's indebtedness constituted part of the
estate's assets for which the heir should account before
receiving anything out of the estate's other assets. 28
N.D. at 159–62, 147 N.W. at 802–04.
[¶ 11] Both Stanton and Stenson recognize the common
law rule for devolution of property may be altered by
statute, and Rodney Hogen's arguments require
examination of relevant parts of the Uniform Probate
Code (“U.P.C.”), adopted in North Dakota in 1973. See
1973 N.D. Sess. Laws ch. 257, § 1. See also N.D.C.C. §
1–01–06 (“[i]n this state there is no common law in any
case in which the law is declared by the code”).
[¶ 12] Statutory interpretation is a question of law,
fully reviewable on appeal. Estate of Elken, 2007 ND
107, ¶ 7, 735 N.W.2d 842. The primary objective in
interpreting a statute is to determine the intent of the
legislation. Id. The intent of legislation must be sought
initially from the statutory language. Olson v. Job

App. 51

Serv., 2013 ND 24, ¶ 5, 827 N.W.2d 36. Words in a
statute are given their plain, ordinary, and commonly
understood meaning, unless defined by statute or
unless a contrary intention plainly appears. N.D.C.C.
§ 1–02–02. Statutes are construed as a whole and are
harmonized to give meaning to related provisions.
N.D.C.C. § 1–02–07. We construe statutes to give effect
to all of their provisions, so that no part of a statute is
rendered inoperative or superfluous. N.D.C.C. §
1–02–38(2) and (4). Statutory provisions that are part
of a uniform statute must be construed to effectuate
their general purpose to make uniform the law of those
states enacting them. N.D.C.C. § 1–02–13. In
construing the U.P.C., we may also look to the Editorial
Board Comment for guidance. In re Estate of Conley,
2008 ND 148, ¶ 15, 753 N.W.2d 384.
[¶ 13] Section 30.1–20–03, N.D.C.C. (U.P.C. § 3–903),
provides for a right of retainer or offset against a
successor's interest in an estate for the amount of a
noncontingent indebtedness of the successor to the
estate:
The amount of a noncontingent
indebtedness of a successor to the estate
if due, or its present value if not due,
shall be offset against the successor's
interest. But, the successor has the
benefit of any defense which would be
available to the successor in a direct
proceeding for recovery of the debt.
[¶ 14] Under the U.P.C., “ ‘[s]uccessors' means persons,
other than creditors, who are entitled to property of a

App. 52
decedent under the decedent's will or ... [by intestate
succession under N.D.C.C.] title [30.1],” and “
‘[p]roperty’ includes both real and personal property.”
N.D.C.C. § 30.1–01–06(43) and (53) ( U.P.C. §
1–201(38) and (49)). The language of the retainer
statute applies to the “amount of a noncontingent
indebtedness ... if due, or its present value if not due,”
but the U.P.C. does not define a “noncontingent
indebtedness.”
[¶ 15] One source defines “contingent” as “[p]ossible;
uncertain; unpredictable,” or “[d]ependent on
something that might or might not happen in the
future; conditional.” Black's Law Dictionary 387 (10th
ed.2014). Another source defines contingent as “likely
but not certain to happen: possible”; “in happening by
chance or unforeseen causes.” Merriam Webster's
Collegiate Dictionary 270 (11th ed.2005). Juxtaposing
those definitions with the ordinary definition of “non”
as the “reverse, absence of, or lacking the usual esp.
positive characteristics of the thing specified” in
Merriam Webster's Collegiate Dictionary at 841,
results in ascribing a meaning to noncontingent as
something that is certain to happen or is not
conditioned on something that might or might not
happen in the future. These sources also define
“indebtedness” to mean the condition of owing money
or being indebted, or something such as an amount of
money that is owed. Black's Law Dictionary at 885;
Merriam Webster's Collegiate Dictionary at 632.
[¶ 16] We conclude a “noncontingent indebtedness”
means an amount owed that is certain to occur and is
not subject to some future uncertain event which may

App. 53
or may not happen. See Graber v. Bontrager, 69 N.D.
300, 305–06, 285 N.W. 865, 868–69 (1939) (defining
contingent claim as a claim for which the liability
depends upon some future event which may or may not
happen and which makes it uncertain whether it will
ever be a liability). We further conclude cash rent and
crop-share obligations a devisee owes a decedent or the
estate are debts or obligations that are certain to
happen and are not conditioned on something that
might or might not happen in the future. We therefore
conclude a devisee's cash rent and crop-share
obligations to a decedent are a noncontingent
indebtedness under N.D.C.C. § 30.1–20–03 (U.P.C. §
3–903).
[¶ 17] Moreover, the plain language of N.D.C.C. §
30.1–20–03 (U.P.C. § 3–903) authorizes an offset
against a “successor's interest” and permits a successor
to raise any defense to a noncontingent indebtedness
which would be available to the successor in a “direct
proceeding” for recovery of the indebtedness. The
U.P.C. defines a “proceeding” to include an “action at
law and suit in equity.” N.D.C.C. § 30.1–01–06(42)
(U.P.C. § 1–201(37)). We construe the phrases
“successor's interest” and “direct proceeding” in
N.D.C.C. § 30.1–20–03 (U.P.C. § 3–903) to give
meaning to each phrase and to authorize the personal
representative to allege “offsets against the successor's
interest” in the context of the probate of an estate
instead of requiring the personal representative to
bring a separate lawsuit or direct proceeding to collect
the debt. We therefore reject Rodney Hogen's argument
the personal representative was required to bring a
separate lawsuit to offset Rodney Hogen's

App. 54
indebtedness, if any, to Arline Hogen or to the estate
against his successor's interest in the estate.
[¶ 18] Rodney Hogen nevertheless argues his share of
Arline Hogen's real property vested in him immediately
upon her death under N.D.C.C. § 30.1–12–01 (U.P.C. §
3–101), and the district court should have determined
the estate had no right to post-death cash rent and
crop-share proceeds from 2007 through 2009 because
the estate made no demand, had no administrative
need, and did not have possession of the land and the
court should have determined the estate had no right
to post-death farm rent from 2010 through 2013
because the personal representative did not have
possession of the land and Rodney Hogen exercised his
right to farm the land as a tenant-in-common owner.
[¶ 19] Section 30.1–12–01, N.D.C.C. (U.P.C. § 3–101),
describes the devolution of a decedent's real and
personal property to devisees and heirs upon the
decedent's death, subject to administration, and
provides, in relevant part:
The power of a person to leave property
by will, and the rights of creditors,
devisees, and heirs to the person's
property, are subject to the restrictions
and limitations contained in this title to
facilitate the prompt settlement of
estates. Upon the death of a person, the
decedent's real and personal property
devolves to the persons to whom it is
devised by the decedent's last will ... or in
the absence of testamentary disposition,

App. 55
to the decedent's heirs ... subject to ...
administration.
[¶ 20] A personal representative's powers and duties
are generally described in N.D.C.C. ch. 30.1–18. A
personal representative is a fiduciary under a duty to
settle and distribute a decedent's estate under the
terms of a will and N.D.C.C. title 30.1 consistent with
the best interests of the estate. N.D.C.C. § 30.1–18–03
(U.P.C. § 3–703). Section 30.1–18–11, N.D.C.C. (U.P.C.
§ 3–711), describes a personal representative's broad
power over property of a decedent's estate until
termination of the personal representative's
appointment and provides:
Until termination of the personal
representative's appointment, a personal
representative has the same power over
the title to property of the estate that an
absolute owner would have, in trust
however, for the benefit of the creditors
and others interested in the estate. This
power may be exercised without notice,
hearing, or order of court.
The Editorial Board Comment to
30.1–18–11 (U.P.C. § 3–711), states:

N.D.C.C.

The personal representative is given the
broadest possible “power over title”. He
receives a “power”, rather than title,
because the power concept eases the
succession of assets which are not
possessed by the personal representative.

§

App. 56
Thus, if the power is unexercised prior to
its termination, its lapse clears the title of
devisees and heirs.... The power over title
of an absolute owner is conceived to
embrace all possible transactions which
might result in a conveyance or
encumbrance of assets, or in a change of
rights of possession. The relationship of
the personal representative to the estate
is that of a trustee.
A noted practice manual for the U.P.C. explains the
personal representative's broad power, subject to
administration, over a decedent's property under
U.P.C. § 3–711:
In general, the power[s] of a personal
representative [PR] are said to be those
that an absolute owner would have,
subject only to the trust to exercise the
power for the benefit of creditors and
others interested in the estate. This
general power and any power specifically
conferred upon him may be exercised
without notice, hearing, or court order.
Since the PR has a “power over the title”
rather than “title”, no gap in title will
result if the PR does not exercise his
power during the administration. The
title of the heir or devisee, however, is
“subject to administration”; hence, it
remains encumbered so long as the estate
is in administration or is subject to
further administration.

App. 57
1 Richard V. Wellman, Uniform Probate Code Practice
Manual 317–18 (2d ed.1977).
[¶ 21] Section 30.1–18–09, N.D.C.C. (U.P.C. § 3–709),
also describes a personal representative's power,
subject to administration, over a decedent's property
and provides:
Except as otherwise provided by a
decedent's will, every personal
representative has a right to, and shall
take possession or control of, the
decedent's property, except that any real
property or tangible personal property
may be left with or surrendered to the
person presumptively entitled thereto
unless or until, in the judgment of the
personal representative, possession of the
property by the personal representative
will be necessary for purposes of
administration. The request by a personal
representative for delivery of any
property possessed by an heir or devisee
is conclusive evidence, in any action
against the heir or devisee for possession
thereof, that the possession of the
property by the personal representative is
necessary for purposes of administration.
The personal representative shall pay
taxes on, and take all steps reasonably
necessary for the management,
protection, and preservation of, the estate
in the personal representative's
possession. The personal representative

App. 58
may maintain an action to recover
possession of property or to determine the
title thereto.
The Editorial Board Comment to N.D.C.C. §
30.1–18–09 (U.P.C. § 3–709), explains the relationship
of the devolution of title on death and a personal
representative's authority to take possession or control
of a decedent's property and states:
Section 30.1–12–01 provides for the
devolution of title on death. Section
30.1–18–[11] defines the status of the
personal representative with reference to
“title” and “power” in a way that should
make it unnecessary to discuss the “title”
to decedent's assets which his personal
representative acquires. This section
deals with the personal representative's
duty and right to possess assets. It
proceeds from the assumption that it is
desirable whenever possible to avoid
disruption of possession of the decedent's
assets by his devisees or heirs. But, if the
personal representative decides that
possession of an asset is necessary or
desirable for purposes of administration,
his judgment is made conclusive in any
action for possession that he may need to
institute against an heir or devisee. It
may be possible for an heir or devisee to
question the judgment of the personal
representative in later action for
surcharge for breach of fiduciary duty,

App. 59
but this possibility should not interfere
with the personal representative's
administrative authority as it relates to
possession of the estate.
As Professor Wellman explains:
The Code provides in [U.P.C.] Section
3–101 for devolution of title upon death to
the successors. This devolution is
expressly stated to be “subject to ...
administration” and the right to
possession and control of the decedent's
property in administered estates is vested
in the PR [personal representative] by
Section 3–709. Thus, “title” and “power to
possess and control” are to be
distinguished. The PR is required to
possess and to protect all money and
intangible assets of the estate. He has the
right, in relation to land and tangible
personal property, to surrender
possession to the persons presumptively
entitled to the asset when in his judgment
it is in the best interest of the estate. He
also has the power at any time to take or
retake possession of these assets for the
estate, and his request for delivery of any
property in the hands of an heir or
devisee is conclusive evidence in any
action that he may bring to show that
possession is necessary for the purposes
of administration....

App. 60
Two other points should be made. The
first is that in the full context of Section
3–709, the term “surrender” should not be
given the meaning of finality in a common
law surrender. This appears from the
“unless or until” and the language that
follows in the same sentence.
Secondly, the turn-over of possession of
land or an item of tangible personal
property by the PR to the person
presumptively entitled thereto should not
be construed as a “distribution.” Section
3–709 is obviously concerned with
possession for the present time; no
finality should attend the PR's decision
under this section not to disturb
possession of an estate asset by one
presumptively entitled to the asset, or his
decision to hand over the possession of an
estate asset to such a person for the
present. A “distribution” in kind is to be
made as provided in Section 3–907; it
enables the distributee to pass good title
to a good faith purchaser. (Section 3–910).
A “distribution” is appropriate only if the
PR does not think that the asset will be
needed for administration. It reflects the
PR's determination that the “distributee”
is the correct person to receive the asset.
A “distribution” should end the
assumption that the PR still has control
of the asset, even though Section 3–909
gives rights to recover assets improperly

App. 61
distributed to an estate representative
who can assert the right to have
distributions “returned.” See the official
Comment, Section 3–907 infra.
1 Wellman, supra, at 316–17.
[¶ 22] Section 30.1–20–07, N.D.C.C. (U.P.C. § 3–907),
authorizes a personal representative to distribute a
decedent's property in kind by an instrument or deed
of distribution and provides:
If distribution in kind is made, the
personal representative shall execute an
instrument or deed of distribution
assigning, transferring, or releasing the
assets to the distributee as evidence of
the distributee's title to the property.
The Editorial Board Comment to that section explains:
This and sections following should be read
with section 30.1–18–09 which permits
the personal representative to leave
certain assets of a decedent's estate in the
possession of the person presumptively
entitled thereto. The “release”
contemplated by this section would be
used as evidence that the personal
representative had determined that he
would not need to disturb the possession
of an heir or devisee for purposes of
administration.

App. 62
Under section 30.1–18–11, a personal
representative's relationship to assets of
the estate is described as the “same power
over the title to property of the estate as
an absolute owner would have.” A
personal representative may, however,
acquire a full title to estate assets, as in
the case where particular items are
conveyed to the personal representative
by sellers, transfer agents, or others. The
language of section 30.1–20–07 is
designed to cover instances where the
instrument of distribution operates as a
transfer, as well as those in which its
operation is more like a release.
Under N.D.C.C. § 30.1–20–08 (U.P.C. § 3–908), proof
that a distributee has received an instrument or deed
of distribution of assets in kind from a personal
representative is conclusive evidence that the
distributee has succeeded to the interest of the estate
in the distributed assets.
[¶ 23] Professor Wellman explains distribution in kind:
The personal representative is required to
execute whatever instrument may be
appropriate to the type of property in
order to give the distributee evidence of
his inheritance. When the distributee is
already in possession of such property,
the appropriate form may be a release.
When the property to be transferred is
real estate, the appropriate instrument is

App. 63
a deed.
The instrument of distribution does not,
in the purest sense of the words, cause
the vesting in interest of the title of the
devisee or heir; rather, it transforms the
beneficiary's beneficial interest in the
estate, as acquired by him at death by the
operation of Section 3–101, from an
equitable right to receive his due interest
in the estate to regular ownership of the
asset distributed. The ownership as
distributed is not necessarily the
distributee's only right since the
distributee may have additional claims on
the PR for further distributions or for
money to make him whole on account of
breaches of duty by the PR. Rather, it is
evidence that, as between the PR and the
distributee, since the former has
discharged his responsibility for
administering the distributed asset, the
latter is now entitled to hold himself out
to the world as its full owner. Distribution
is a release of the PR's primary right to
possess the asset for administration
purposes, although it does not follow that
the same or a successor PR may not later
be entitled to a return of the distributed
asset if that is found necessary in order to
correct a defective distribution....
The distributive acts of a PR, whether
consisting of payments by check or in

App. 64
cash, physical delivery of possession, or
execution and delivery of an instrument
or distribution, are quite important.
These acts reflect the PR's determination
of heirs in intestacy, his interpretation of
the will in a testate case, and his
conclusion regarding the identity of the
taker and the propriety of the distribution
in the light of all of his duties as estate
fiduciary. These and other determinations
by the PR are given importance by the
Code and are considered administrative
determinations that are assumed to be
correct. Errors can be corrected, of course,
but the Code seeks to give these
administrative acts of the PR
considerable stability and stature.
Sections 3–908, 3–909, and 3–910 of the
Code supply many details regrading the
consequences of distributions.
Wellman, supra, at 384–85.
[¶ 24] This Court has recognized a devisee's right to a
decedent's property is subject to administration by a
personal representative. Feickert v. Frounfelter, 468
N.W.2d 131, 132 (N.D.1991). We have also said a
personal representative has power over title to
property during the administration of an estate. Green
v. Gustafson, 482 N.W.2d 842, 846 n. 3 (N.D.1992). In
Matter of Estate of Johnson, 2015 ND 110, ¶ 19, 863
N.W.2d 215, we recently construed several of the
preceding statutory provisions about a devisee's title to
property during the administration of an estate, to pass

App. 65
title to a decedent's property to devisees at death,
subject to a personal representative's broad power over
title for administration purposes. We held a personal
representative had statutory authority under N.D.C.C.
§ 30.1–18–15 (U.P.C. § 3–715) to retain and lease
farmland in an estate for administration purposes for
the benefit of interested persons. Estate of Johnson, at
¶ 19. We recognized states with statutes similar to
N.D.C.C. § 30.1–18–15 had reviewed whether a
personal representative's sale or lease of an estate's
land was reasonable. Estate of Johnson, at ¶ 18 (citing
Matter of Estate of Booth, 202 Neb. 6, 272 N.W.2d 915,
916 (1978) and In re Estate of Corbin, 637 So.2d 51, 52
(Fla.Dist.Ct.App.1994)). In Estate of Johnson, at ¶ 19,
we held a personal representative could lease farmland
for a term within or extending beyond the period of
administration if the personal representative acted
reasonably for the benefit of interested persons.
[¶ 25] Under the U.P.C. statutory scheme, a devisee's
right to a decedent's property is subject to
administration by a personal representative, which
may continue until termination of the personal
representative's appointment or execution of an
instrument or deed of distribution, and nothing in the
statutory scheme for title to a decedent's land requires
a personal representative to take actual possession of
the *889 property to effectuate an offset. Rather,
N.D.C.C. § 30.1–18–09 (U.P.C. § 3–709) contemplates
the personal representative may take “possession or
control” of property except that any real property may
be left with the person presumptively entitled thereto
unless or until possession or control is necessary for
purposes of administration. The personal

App. 66
representative's power or control over the decedent's
property or estate during administration may be
exercised without notice, hearing, or an order and may
continue until termination of the personal
representative's appointment, or execution of an
instrument or deed of distribution transferring the
assets to the distributee. See N.D.C.C. §§ 30.1–18–11
(U.P.C. § 3–711), 30.1–20–07 (U.P.C. § 3–907) and
30.1–20–08 (U.P.C. § 3–908).
[¶ 26] We construe the statutory scheme in N.D.C.C.
title 30.1 to authorize the personal representative,
during administration of the estate, to pursue a
retainer claim against real property in an estate for
assertions involving a devisee's rental obligations to
the decedent or the estate. Under the statutory
provisions, a devisee's title to the decedent's property
is encumbered as long as the estate is subject to
administration. See N.D.C.C. § 30.1–18–11 (U.P.C. §
3–711).
[¶ 27] Steven Hogen was the duly authorized personal
representative of Arline Hogen's estate engaged in
administration of the estate, and he executed no
instrument or deed of distribution transferring or
releasing the property to Rodney Hogen. See N.D.C.C.
§§ 30.1–20–07 (U.P.C. § 3–907) and 30.1–20–08 (U.P.C.
§ 3–908). Rather, the record reflects the estate leased
the land to Rodney Hogen while the estate was being
administered. See Estate of Johnson, 2015 ND 110, ¶
19, 863 N.W.2d 215. We reject Rodney Hogen's claims
that as the personal representative of the estate,
Steven Hogen may not pursue a retainer claim against
Rodney Hogen for post-death crops and farm rentals

App. 67
because the estate made no demand, had no
administrative need, and did not have possession of the
lands, or because the personal representative did not
have possession of the land and Rodney Hogen
exercised his rights as a tenant-in-common owner. We
also conclude the statutory scheme for a personal
representative's powers during administration of the
estate does not preclude the personal representative
from seeking a retainer for conservation reserve
program payments attributable to the estate's Cass
County land for the 2010 through 2013 crop years. We
conclude the district court did not err in determining
the devolution of real property to Rodney Hogen was
subject to the personal representative's power during
administration of the estate to offset any noncontingent
indebtedness he owed to Arline Hogen or her estate.
B
[¶ 28] Rodney Hogen argues the personal
representative's claim for a retainer is barred by the
three-month limitation in N.D.C.C. § 30.1–19–03(2) (
U.P.C. § 3–803) and by the three-year limitation in
N.D.C.C. § 30.1–21–06 (U.P.C. § 3–1006).
[¶ 29] Section 30.1–19–03(2), N.D.C.C. (U.P.C. §
3–803), provides:
All claims against a decedent's estate
which arise at or after the death of the
decedent, including claims of the state
and any subdivision thereof, whether due
or to become due, absolute or contingent,
liquidated or unliquidated, founded on

App. 68
contract, tort, or other legal basis, are
barred against the estate, the personal
representative, and the heirs and devisees
of the decedent, unless presented as
follows:
a. A claim based on a contract with the
personal representative, within four
months after performance by the personal
representative is due.
b. Any other claim, within three months
after it arises.
[¶ 30] The plain language of N.D.C.C. § 30.1–19–03(2)
(U.P.C. § 3–803) applies to “claims against a decedent's
estate” and does not apply to claims an estate may
have against devisees for a retainer. We conclude the
personal representative's claim for a retainer is not
barred by the plain language of N.D.C.C. §
30.1–19–03(2) (U.P.C. § 3–803).
[¶ 31] Section 30.1–21–06, N.D.C.C. (U.P.C. § 3–1006),
provides:
Unless previously adjudicated in a formal
testacy proceeding or in a proceeding
settling the accounts of a personal
representative or unless otherwise
barred, the claim of any claimant to
recover from a distributee who is liable to
pay the claim, and the right of any heir or
devisee, or of a successor personal
representative acting in their behalf, to

App. 69
recover property improperly distributed
or the value thereof from any distributee
is forever barred at the later of:
1. Three years after the decedent's death.
2. One year after the time of distribution
thereof.
This section does not bar an action to recover property
or value received as the result of fraud.
[¶ 32] The plain language of N.D.C.C. § 30.1–21–06
(U.P.C. § 3–1006), applies to time limits to “recover
property improperly distributed ... from any
distributee.” A personal representative's claim for a
retainer against a devisee is not a claim to “recover
property improperly distributed,” and we conclude the
personal representative's claim for a retainer is not
barred by the plain language of N.D.C.C. § 30.1–21–06
(U.P.C. § 3–1006).
C
[¶ 33] Rodney Hogen argues the district court clearly
erred in determining the amount of the retainer or
offset. He argues the court failed to subtract 81.3 acres
of conservation reserve program land in Barnes County
in determining the cash rent due for the Barnes County
land and in determining the average per acre cost of
production for crop-share calculations for the Cass
County land. He also claims the court erred in
admitting evidence under N.D.R.Ev. 602, 701, and 802.

App. 70
[¶ 34] To the extent Rodney Hogen argues the district
court erred in admitting evidence under the cited rules
of evidence, he has not marshaled any argument with
supporting authority on the evidentiary issues, and we
decline to consider those issues on appeal. See Hale v.
State, 2012 ND 148, ¶ 12, 818 N.W.2d 684 (“we are not
ferrets and we ‘will not consider an argument that is
not adequately articulated, supported, and briefed’ ”).
[¶ 35] To the extent Rodney Hogen argues the district
court erred in failing to subtract about 81 acres of
conservation reserve program land in Barnes County in
determining cash rent due for the Barnes County land
and in determining the average per acre cost of
production for crop-share calculations for the Cass
County land, we agree with him that the record reflects
the court failed to account for the conservation reserve
program land in those calculations. During oral
argument, counsel for the personal representative
conceded minor adjustments to the retainer may be
necessary. We decline to make those adjustments on
the record before us, and we reverse the district court's
determination of the retainer to that limited extent and
direct the court to recalculate the retainer after
considering the effect of the Barnes County
conservation reserve program land on the cash rent for
the Barnes County land and on the average per acre
cost of production for the Cass County land.
[¶ 36] We conclude that review of the district court's
other findings about the terms of lease arrangements
for the relevant years, and the unpaid cash rent,
crop-share proceeds, and conservation reserve program
payments are governed by N.D.R.Civ.P. 52(a). A

App. 71
finding of fact is clearly erroneous under N.D.R.Civ.P.
52(a) if induced by an erroneous view of the law, if no
evidence exists to support the finding, or if, on the
entire record, we are left with a definite and firm
conviction a mistake was made. Brandt v. Somerville,
2005 ND 35, ¶ 12, 692 N.W.2d 144. Under N.D.R.Civ.P.
52(a), we do not reweigh conflicting evidence and a
choice between two permissible views of the evidence is
not clearly erroneous. Brandt, at ¶ 12.
[¶ 37] Except for calculations involving the Barnes
County conservation reserve program land, evidence in
the record supports the district court's findings about
payments Rodney Hogen owed Arline Hogen and the
estate for post-death cash rent, crop-share proceeds,
and conservation reserve program payments. Steven
Hogen and an accountant, Wayne Bradley, testified
about the amount due for those obligations and Rodney
Hogen's failure to make payments. Although Rodney
Hogen disputed the personal representative's evidence,
there was conflicting evidence about the extent of his
obligations and payments under relevant agreements.
We conclude the court's findings were not induced by
an erroneous view of the law, and we are not left with
a definite and firm conviction the court made a
mistake. Except for a recalculation based on the Barnes
County conservation reserve program land, we
conclude the court's findings are not clearly erroneous.
III
[¶ 38] In the personal representative's cross-appeal,
Steven Hogen argues the district court clearly erred in
determining the estate was not entitled to a greater

App. 72
offset from Rodney Hogen.
A
[¶ 39] Steven Hogen initially argues the district court
clearly erred in finding Rodney Hogen did not purloin
$23,329.75 from the Curtiss Hogen Trust, which was
set up to provide Arline Hogen with a stream of
income.
[¶ 40] The district court determined the personal
representative's claim about purloined money from the
Curtiss Hogen Trust was subject to a contingency
within the meaning of N.D.C.C. § 30.1–20–03, because
the Trust was not a party to the probate proceeding
and any money allegedly due to the Trust could not be
considered in the probate proceeding. The court
explained the Trust could bring a direct action against
Rodney Hogen for any money allegedly due the Trust.
We agree with the court's conclusion that any money
Rodney Hogen owed to the Trust was subject to a
contingency for purposes of a retainer against Arline
Hogen's estate under N.D.C.C. § 30.1–20–03, and we
conclude the district court did not err in rejecting that
claim.
B
[¶ 41] Steven Hogen also argues the district court
clearly erred in determining Arline Hogen waived
pre-death cash rent and crop-share proceeds owed by
Rodney Hogen to her. Steven Hogen argues Arline
Hogen was confined to an Alzheimer's unit in a nursing
home in 2002, Rodney Hogen never talked with Arline

App. 73
Hogen about reconciling payments for the cash rent
and crop-share proceeds against her input costs, the
shortages were not discovered until after her death,
and she could not have voluntarily and intentionally
waived any payment deficiencies for crop years 2004
through 2006.
[¶ 42] The district court found that in reconciling his
yearly cash rent and crop-share payments to Arline
Hogen against her input costs, Rodney Hogen had not
always credited her for excess input costs or paid her
for her full one-sixth of crop-share proceeds for the
Cass County land, but explained:
Rodney testified that he reconciled his
cash rent obligations, his crop-share
obligations and his mother's crop-share
expenses every year. Rodney's
“reconciliation” certainly wasn't done with
any type of accounting standard in place.
It is evident that the expenses that
Rodney paid on behalf of the landlord for
the Cass County crop share were less
than the cash rent owed on the Barnes
County land. The Court, more
importantly, finds that Rodney's farming
relationship with his mother was not
defined by exact standards. The so-called
contract was more or less a loose
guideline. What Rodney may have
deemed reconciled was, in fact, Arline
agreeing that what was received was good
enough. This is based on Rodney's history
of farming the property, the past course of

App. 74
conduct of the parties and the estate
planning documents executed by Arline
and Curtiss Hogen indicating a specific
desire to maintain the farming operation.
Any alleged shortfalls for Arline for the
years 2004, 2005 and 2006 are deemed to
have been waived and Rodney's
contractual obligations to Arline were
satisfied.
[¶ 43] A waiver requires a voluntary and intentional
relinquishment of a known existing advantage, right,
privilege, claim, or benefit. Miller v. Walsh Cnty. Res.
Dist., 2012 ND 152, ¶ 27, 819 N.W.2d 526. Here, there
was evidence Arline Hogen had been in an Alzheimer's
wing at a nursing home since 2002. She had not been
judicially determined to be incompetent, however, and
Steven Hogen testified she was capable of handling
some of her affairs and she wrote some checks for gifts
after 2002. There also was evidence Rodney Hogen had
farmed the land under arrangements with the Curtiss
Hogen Trust and with Arline Hogen at least since
Curtiss Hogen died in 1993. The district court applied
the parties' course of conduct over several previous
years to Rodney Hogen's reconciliations for the claimed
years to determine any alleged shortfalls were deemed
waived and his reconciliations satisfied his contractual
obligations. The court explained that what Rodney
Hogen deemed reconciled over the course of the parties'
contractual relationship was Arline Hogen agreeing
that his reconciliations were sufficient to satisfy his
contractual obligations. The parties' course of conduct
over the years indicates they did not abide by all the
contractual terms for their farming arrangement and

App. 75
provides support for the court's finding that Rodney
Hogen's yearly reconciliations of his obligations
satisfied his specific obligations for the 2004 through
2006 crop years. On the record in this case, we decline
to reweigh the evidence about the parties' course of
conduct and prior reconciliations or Arline Hogen's
agreement about the sufficiency of Rodney Hogen's
reconciliations. We conclude the court did not clearly
err in determining the estate was not entitled to a
retainer for the crop years from 2004 through 2006.
IV
[¶ 44] Rodney Hogen argues the district court abused
its discretion in not removing Steven Hogen as the
personal representative of the estate and in awarding
Steven Hogen personal representative fees and
attorney fees, costs, and expert witness fees from the
estate.
A
[¶ 45] Under N.D.C.C. § 30.1–17–11 (U.P.C. § 3–611),
a person interested in an estate may petition for
removal of a personal representative for cause, which
exists when removal would be in the best interest of
the estate, or the personal representative has
mismanaged the estate or failed to perform a duty
pertaining to the office. A district court has discretion
to remove a personal representative, and the court's
decision will not be set aside on appeal absent an abuse
of discretion. Estate of Shubert, 2013 ND 215, ¶ 27, 839
N.W.2d 811. A court abuses its discretion “when it acts
in an arbitrary, unconscionable, or unreasonable

App. 76
manner, when it misinterprets or misapplies the law,
or when its decision is not the product of a rational
mental process leading to a reasoned determination.”
Id.
[¶ 46] A cursory review of the record in this case
reflects a contentious probate dispute between the
parties and their attorneys. On this record, we cannot
say the district court's denial of Rodney Hogen's
request to remove Steven Hogen as personal
representative was arbitrary, capricious, or
unreasonable. We therefore conclude the court did not
abuse its discretion in denying Rodney Hogen's request
to remove Steven Hogen as personal representative of
the estate.
B
[¶ 47] Rodney Hogen argues the district court abused
its discretion in awarding Steven Hogen $27,500 in
personal representative fees from the estate, because
Steven Hogen pursued the retainer claim for his
personal benefit without benefiting the estate and he
failed to account for his time administering the estate.
[¶ 48] Under N.D.C.C. § 30.1–18–19 (U.P.C. § 3–719),
a personal representative is entitled to reasonable
compensation for services rendered for an estate. We
review an award of personal representative fees under
the abuse-of-discretion standard. Estate of Flaherty,
484 N.W.2d 515, 521 (N.D.1992). The district court
recognized the extensive volume of work done by
Steven Hogen for the estate and that the actions taken
by him were all done in good faith. The court awarded

App. 77
Steven Hogen $27,500 in personal representative fees.
We agree with the court's assessment of the volume of
work done by Steven Hogen to reconstruct the parties'
financial records for several years. The court's decision
about personal representative fees was the product of
a rational mental process leading to a reasoned
determination and was not arbitrary, capricious, or
unreasonable. We conclude the court did not abuse its
discretion in awarding Steven Hogen personal
representative fees from the estate.
C
[¶ 49] Rodney Hogen argues the district court abused
its discretion in awarding the personal representative
$333,272.23 in attorney fees, costs, and expert witness
fees from the estate, because Steven Hogen allegedly
pursued the retainer claim for his personal interest.
[¶ 50] Section 30.1–18–20, N.D.C.C. (U.P.C. § 3–720),
authorizes a district court to award a personal
representative necessary expenses and disbursements,
including reasonable attorney fees, from an estate for
prosecuting estate proceedings in good faith, whether
successful or not. A personal representative's actions
must be in good faith and for the benefit of the estate.
Matter of Estate of Peterson, 1997 ND 48, ¶ 25, 561
N.W.2d 618; Estate of Flaherty, 484 N.W.2d at 518. A
benefit to the estate includes a personal
representative's good faith attempt to effectuate a
testator's testamentary intent or to increase the assets
in the estate. Peterson, at ¶ 26; Flaherty, at 518. We
review an award of attorney fees under the abuse of
discretion standard. Flaherty, 484 N.W.2d at 519.

App. 78
[¶ 51] Although the amount of awarded attorney fees in
this case is large, the district court provided a reasoned
explanation for the award, including consideration of
the “lodestar” rate, and the fact the case involved
“tough litigation” and was “hard going.” This
proceeding involved lengthy evidentiary hearings and
issues related to reconstructing financial records and
tracing crop-share proceeds and cash rent over several
years for farmland in contentious litigation. Rodney
Hogen vigorously litigated the retainer issue, which
required Steven Hogen to expend additional resources
to resolve the issue. We have recognized a party “
‘cannot litigate tenaciously and then be heard to
complain about the time necessarily spent’ overcoming
its vigorous defense.” Duchscherer v. W.W. Wallwork,
Inc., 534 N.W.2d 13, 19 (N.D.1995) (quoting City of
Riverside v. Rivera, 477 U.S. 561, 580 n. 11, 106 S.Ct.
2686, 91 L.Ed.2d 466 (1986)). The district court
determined Steven Hogen acted in good faith and
pursued funds owed to the estate. Steven Hogen's duty
to effectuate an equal distribution of Arline Hogen's
estate by collecting all assets belonging to the estate,
including offsetting Rodney Hogen's debts to the estate,
applies regardless of whether Steven Hogen was also a
beneficiary under the will. On this record, we conclude
the district court's award of attorney fees was not
arbitrary, capricious, or unreasonable. We conclude the
court did not abuse its discretion in awarding the
personal representative attorney fees and expert
witness fees from the estate.
V
[¶ 52] We have considered any remaining issues and

App. 79
arguments raised by the parties, and we conclude they
are either unnecessary to our decision or are without
merit. We affirm the district court order in part,
reverse in part, and remand for proceedings consistent
with this opinion.
[¶ 53] LISA FAIR McEVERS, DANIEL J. CROTHERS
and DALE V. SANDSTROM, JJ., concur.
GERALD W. VANDE WALLE, C.J., concurs in the
result.

App. 80
_________
APPENDIX E
__________
Name, Address and Telephone No. of Attorney
Michael D. Nelson
Attorney ID #03457
OHNSTAD TWICHELL, P.C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, ND 58078-0458
(701) 282-3249
Attorney for Personal Representative
Court File No. 09-07-P-100
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
ORDER ON PETITION FOR DELIVERY OF
POSSESSION
AND CONTROL OF ESTATE REAL PROPERTY
[¶l] The above matter is before the Court on
the Personal Representative's ("PR") Petition for Entry
of Order for Delivery of Possession and Control of
Estate Real Property. A hearing on the Petition was
held on February 2, 2016, with the PR being
represented by attorney Michael D. Nelson of West

App. 81
Fargo, North Dakota, and respondent and interested
person Rodney Hogen ("Rodney'') being represented by
attorney Jonathan T. Garaas of Fargo, North Dakota.
[¶2] On the basis of the Petition and the
supporting and opposing papers filed in connection
with the Petition, and the argument of counsel, if any,
and the Court being fully advised in the premises, the
Court makes the following Findings and Order:
FINDINGS
[¶3] Adequate notice of the hearing on the
Petition has been provided to interested person
Rodney.
[¶4] Petitioner, the PR, has established that
the Estate's real property, including but not limited to
the following-described tracts or parcels, to-wit:
1.

An undivided 28.5% interest
in and to the Northeast
Quarter (NE¼) of Section
Twenty-one (21), EXCEPT
the East 572 feet of the
South 762 feet of the
Northeast Quarter (NE¼) of
Section Twenty-one (21),
Township One Hundred
Forty (140) North of Range
Fifty-four (54) West of the
Fifth Principal Meridian,
situate in the County of
Cass and the State of North

App. 82
Dakota, subject to highways,
easements and rights of way
of record.
2.

An undivided one-half
interest in and to the
Northeast Quarter (NE¼) of
Section Thirty-three (33), in
Township One Hundred
Forty (140) North of Range
Fifty-four (54) West of the
Fifth Principal Meridian,
situate in the County of
Cass and the State of North
Dakota, EXCEPTING the
following- described tract,
to-wit: The East Half of the
East Half of the Northeast
Quarter (E½E½NE¼) of
Section 33, Township 140,
Range 54, Cass County,
North Dakota, subject to
highways, easements and
rights of way of record.

3.

An undivided one-half
interest in and to the
Northwest Quarter (NW¼)
of Section Thirty-four (34),
in Township One Hundred
Forty (140) North of Range
Fifty-four (54) West of the
Fifth Principal Meridian,
situate in the County of

App. 83
Cass and the State of North
Dakota, subject to highways,
easements and rights of way
of record, EXCEPTING the
following tracts, to-wit:
That part of the Northwest
Quarter of Section Thirtyfour, in Township One
Hundred Forty North of
Range Fifty-four West of the
Fifth Principal Meridian,
situate in the County of
Cass and the State of North
Dakota, described as
follows, to-wit: Commencing
at the Northwest comer of
said Northwest Quarter;
thence South 00°52'48"
East, assumed bearing along
the West line of said
Northwest Quarter, a
distance of 549.67 feet to the
point of beginning of the
tract to be described; thence
North 88°54'30" East 388.17
feet; thence South 02°51'55"
East 548.01 feet; thence
South 88°54'23" West 407.12
feet to the West line of said
Northwest Quarter; thence
North 00°52'48" West 547.77
feet to the point of
beginning.

App. 84
AND
A tract of land situated in
the Northwest Quarter of
Section Thirty-four,
Township One Hundred
Forty North of Range Fiftyfour West of the Fifth
Principal Meridian, Cass
County, North Dakota, more
particularly described as
follows: Commencing at the
Northwest comer of the
Northwest Quarter of said
Section Thirty-four; thence
North 89°52'47" East along
the Section line and the
North line of Hogen
Subdivision a distance of
708.89 feet to a point;
thence South 00°52'47" East
along the East line of Lot
One, Block One, Hogen
Subdivision a distance of
537.60 feet to an iron pin at
the Southeast corner of said
Lot One, the point of
beginning;
thence
continuing South 00° 52'47"
East a distance of 239.48
feet to an iron pin; thence
South 88°38'54" West a
distance of 312.42 feet to an
iron pin on the East line of

App. 85
Lot Two, Block One, Hogen
Subdivision; thence North
02°51'55" West along the
East line of said Lot Two a
distance of 241.00 feet to an
iron pin at the Northeast
corner of said Lot Two and
on the South line of said Lot
One; thence North 88°54'23"
East along the South line of
said Lot One a distance of
320.69 feet to the point of
beginning.
AND
Lot One (1), Block One (1),
Hogen Subdivision, Cass
County, North Dakota.
4.

An undivided one-half
interest in and to Lot One
(1), Block One (1), Hogen
Subdivision, Cass County,
North Dakota.

5.

An undivided one-half
interest in and to the
Northwest Quarter (NW¼)
and the South Half of the
Southwest
Quarter
(S½SW¼) of Section Five
(5), Township One Hundred
Forty (140) North of Range

App. 86
Fifty-six (56) West of the
Fifth Principal Meridian,
Barnes County, North
Dakota, and the North Half
of the Southwest Quarter
(N½SW¼) of Section Five
(5), Township One Hundred
Forty (140) North of Range
Fifty-six (56) West of the
Fifth Principal Meridian,
Barnes County, North
Dakota, subject to existing
highways, easements and
rights of way of record,
EXCEPTING the following
tract, to-wit: Commencing at
the West Quarter corner of
said Section Five (5),
Township One Hundred
Forty (140), Range Fifty-six
(56), Barnes County, North
Dakota, thence South
46°01'57" East for a distance
of 945.90 feet to the point of
beginning of said tract
ofland to bedescribed;
thence East for a distance of
525 feet; thence South for a
distance of 550 feet; thence
West for a distance of 395
feet; thence South for a
distance of 170 feet; thence
West for a distance of 400
feet; thence North for a

App. 87
distance of 400 feet; thence
East for distance of 195 feet;
thence North for a distance
of 320 feet; thence East for a
distance of 75 feet to the
point of beginning.
(a) is asserted by Rodney, in whole or in part, to be in
his (Rodney's) possession and/or control, and (b) that
Petitioner has the right to possession and control of
said Estate real property under N.D.C.C. § 30.1-18-09,
to the exclusion of Rodney.
[¶5] Petitioner, the PR, has requested that
interested person Rodney deliver possession and
control of all Estate real property, including the real
property described above in ¶4, to Petitioner.
[¶6] Petitioner's request for delivery by Rodney
of possession and control of the Estate's real property
to Petitioner is conclusive evidence, in this proceeding,
that possession and control of said Estate real property
by the PR is necessary for the management, protection,
and preservation of the decedent' s Estate, and
necessary for purposes of administration, pursuant to
N.D.C.C. § 30.1-18-09.
ORDER
[¶7] NOW, THEREFORE, it is hereby ordered
and decreed, that:
[¶8] Rodney Hogen immediately and forthwith
surrender and abandon to the PR, and immediately

App. 88
and forthwith deliver over to the PR, complete
possession and complete control over, all the Estate's
real property, including but not limited to the
following-described tracts or parcels of real property,
to-wit:
1.

An undivided 28.5% interest
in and to the Northeast
Quarter (NE¼) of Section
Twenty-one (21), EXCEPT
the East 572 feet of the
South 762 feet of the
Northeast Quarter (NE¼) of
Section Twenty-one (21),
Township One Hundred
Forty (140) North of Range
Fifty-four (54) West of the
Fifth Principal Meridian,
situate in the County of
Cass and the State of North
Dakota, subject to highways,
easements and rights of way
of record.

2.

An undivided one-half
interest in and to the
Northeast Quarter (NE¼) of
Section Thirty-three (33), in
Township One Hundred
Forty (140) North of Range
Fifty-four (54) West of the
Fifth Principal Meridian,
situate in the County of
Cass and the State of North

App. 89
Dakota, EXCEPTING the
following- described tract,
to-wit: The East Half of the
East Half of the Northeast
Quarter (E½E½NE¼) of
Section 33, Township 140,
Range 54, Cass County,
North Dakota, subject to
highways, easements and
rights of way of record.
3.

An undivided one-half
interest in and to the
Northwest Quarter (NW¼)
of Section Thirty-four (34),
in Township One Hundred
Forty (140) North of Range
Fifty-four (54) West of the
Fifth Principal Meridian,
situate in the County of
Cass and the State of North
Dakota, subject to highways,
easements and rights of way
of record, EXCEPTING the
following tracts, to- wit:
That part of the Northwest
Quarter of Section Thirtyfour, in Township One
Hundred Forty North of
Range Fifty-four West of the
Fifth Principal Meridian,
situate in the County of
Cass and the State of North

App. 90
Dakota, described as
follows, to-wit: Commencing
at the Northwest corner of
said Northwest Quarter;
thence South 00° 52'48"
East, assumed bearing along
the West line of said
Northwest Quarter, a
distance of 549.67 feet to the
point of beginning of the
tract to be described; thence
North 88°54'30" East 388.17
feet; thence South 02°51'55"
East 548.01 feet; thence
South 88°54'23" West 407.12
feet to the West line of said
Northwest Quarter; thence
North 00°52'48" West 547.77
feet to the point of
beginning.
AND
A tract of land situated in
the Northwest Quarter of
Section Thirty-four,
Township One Hundred
Forty North of Range Fiftyfour West of the Fifth
Principal Meridian, Cass
County, North Dakota, more
particularly described as
follows: Commencing at the
Northwest comer of the

App. 91
Northwest Quarter of said
Section Thirty-four; thence
North 89°52'47" East along
the Section line and the
North line of Hogen
Subdivision a distance of
708.89 feet to a point;
thence South 00°52'47" East
along the East line of Lot
One, Block One, Hogen
Subdivision a distance of
537.60 feet to an iron pin at
the Southeast corner of said
Lot One, the point of
beginning;
thence
continuing South 00°52'47"
East a distance of 239.48
feet to an iron pin; thence
South 88°38'54" West a
distance of 312.42 feet to an
iron pin on the East line of
Lot Two, Block One, Hogen
Subdivision; thence North
02°51'55"West along the
East line of said Lot Two a
distance of 241.00 feet to an
iron pin at the Northeast
comer of said Lot Two and
on the South line of said Lot
One; thence North 88°54'23"
East along the South line of
said Lot One a distance of
320.69 feet to the point of
beginning.

App. 92
AND
Lot One (1), Block One (1),
Hogen Subdivision, Cass
County, North Dakota.
4.

An undivided one-half
interest in and to Lot One
(1), Block One (1), Hogen
Subdivision, Cass County,
North Dakota.

5.

An undivided one-half
interest in and to the
Northwest Quarter (NW¼)
and the South Half of the
Southwest
Quarter
(S½SW¼) of Section Five
(5), Township One Hundred
Forty (140) North of Range
Fifty-six (56) West of the
Fifth Principal Meridian,
Barnes County, North
Dakota, and the North Half
of the Southwest Quarter
(N½SW¼) of Section Five
(5), Township One Hundred
Forty (140) North of Range
Fifty-six (56) West of the
Fifth Principal Meridian,
Barnes County, North
Dakota, subject to existing
highways, easements and
rights of way of record,

App. 93
EXCEPTING the following
tract, to-wit: Commencing at
the West Quarter comer of
said Section Five (5),
Township One Hundred
Forty (140), Range Fifty-six
(56), Barnes County, North
Dakota, thence South
46°01'57" East for a distance
of 945.90 feet to the point of
beginning of said tract of
land to be described; thence
East for a distance of 525
feet; thence South for a
distance of 550 feet; thence
West for a distance of 395
feet; thence South for a
distance of 170 feet; thence
West for a distance of 400
feet; thence North for a
distance of 400 feet; thence
East for distance of 195 feet;
thence North for a distance
of 320 feet; thence East for a
distance of 75 feet to the
point of beginning.
[¶9] Consistent with the immediately
preceding ¶ 8 of this Order and N.D.C.C. § 30.1-18-09,
neither Rodney Hogen nor his agents or attorneys shall
interfere in any manner with the complete possession
and complete control of the Estate's real property, or
with the PR's power over title to the Estate's real
property which the PR has under N.D.C.C. § 30.1-18-

App. 94
11.
[¶l0] IT IS SO ORDERED.
BY THE COURT:
Signed: 2/2/2016 9:51:30 AM
s/ John C. Irby

App. 95
__________
APPENDIX F
__________
Name, Address and Telephone No. of Attorney
Michael D. Nelson
Attorney ID #03457
OHNSTAD TWICHELL, P.C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, NO 58078-0458
(701) 282-3249
Court File No. 09-07-P-l 00
Attorney for Personal Representative
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
ORDER DENYING PETITION FOR ORDER
RESTRAINING PERSONAL REPRESENTATIVE
[¶l] The above-entitled matter is before the
Court on interested person Rodney Hogen's ("Rodney")
Petition for Order Restraining Personal
Representative, filed at Doc. #560. This Petition was
brought on for hearing on February 2, 2016, with
Rodney represented by attorney Jonathan T. Garaas,
of Fargo, North Dakota, and the Personal
Representative, Steven C. Hogen ("PR"), represented
by attorney Michael D. Nelson, of West Fargo, North

App. 96
Dakota.
[¶2] On the basis of the reasoning set forth in
(a) the PR's "Brief in Opposition to Rodney
Hogen's Petition for Order Restraining Personal
Representative," Doc. #568, and (b) the PR's
"Combined: (1) Second Response Brief in Opposition to
Rodney Hogen's Petition for Order Restraining
Personal Representative, and (2) Reply Brief as to
Personal Representative's Motion for Entry of
Cashmore Bifurcation Order," Doc. #618, which
reasoning the Court adopts in total, and also on the
basis of the argument of counsel, and the Court's files
and records in this matter, and the Court being fully
advised in the premises,
[¶3] IT IS ORDERED Rodney's Petition for
Order Restraining Personal Representative (Doc. #560)
is in all things DENIED.
BY THE COURT
Signed: 2/4/2016 2:58:00 PM
s/ John C. Irby

App. 97
__________
APPENDIX G
__________
Name, Address and Telephone No. of Attorney
Michael D. Nelson
Attorney ID #03457
OHNSTAD TWICHELL, P.C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, NO 58078-0458
(701) 282-3249
Court File No. 09-07-P-l 00
Attorney for Personal Representative
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
ORDER BIFURCATING ISSUES
[¶1] The above-entitled matter is before the
Court on the Personal Representative's ("PR") "Motion
for Entry of Cashmore Bifurcation Order," filed at Doc.
#576. This Motion was brought on for hearing on
February 2, 2016, with the PR, Steven C. Hogen,
represented by attorney Michael D. Nelson, of West
Fargo, North Dakota, and interested person Rodney
Hogen ("Rodney") represented by attorney Jonathan T.
Garaas, of Fargo, North Dakota.

App. 98
[¶2] On the basis of the parties' briefs filed in
connection with the Motion, the argument of counsel,
and the Court's files and records in this matter, and
the Court being fully advised in the premises,
[¶3] IT IS ORDERED the PR's Motion for
Entry of Cashmore Bifurcation Order is GRANTED.
[¶4] IT IS FURTHER ORDERED that,
pursuant to N.D.C.C. § 30.1-21-01(1), and Estate of
Cashmore, 2010 ND 159, ¶ 14, 787 N.W.2d 261, issues
that must yet be resolved in this probate proceeding,
including but not limited to those issues addressed
and/or referred to in Doc. #436 and Doc. #490 (the
Estate will proceed to a formal close; Estate farmland
will need to be utilized for administrative purposes,
"including dealing with mortgages that Arline Hogen
gave on the land to secure debt incurred by Rodney"),
Doc. #499 (the amount of the right of retainer claim,
post-remand), Doc. #500 (payment of remaining
attorney fees and PR fees, additional real estate taxes,
and the amount of the right of retainer claim, postremand), Doc. #502 (payment of additional
administrative expenses, including additional real
estate taxes), Doc. #505 (payment of PR's fee and
attorney fees "out of the estate assets"), Doc. #506
(payment of PR's fee and attorney fees), Doc. #521 and
Doc. #522 (payment of PR's fee and attorney fees, and
utilizing correct right of retainer claim, post-remand),
Doc. #546 (in the "REPORT OF PRESENT STATUS
OF PROBATE," at pp. 4-5, the "prior payments" needed
to be paid out of the assets in the Estate before the
Estate can he closed), Doc. #562 (proceed to a formal
close, selling some farm property, deed of sale will have

App. 99
to be given to the buyer, deed of distribution for
whatever's left will have to be given--p. 16,1. 9;
substantial attorneys fees and PR fees that are going to
have to be paid out of the assets of the estate-p. 17, 1.
15; the personal representative has some significant
work to do to bring the estate to its finality, including
deeds of distribution, paying administrative expenses,
and so forth, "so I will order that the personal
representative complete the items that are necessary to
close the estate, whatever those are determined to be"-p. 21, 1. 17; "the personal representative should do
whatever is necessary, take the necessary steps to close
the estate, including collection of assets, payment of
expenses, and distribution of any remaining property"-p. 22,1. 12), and Doc. #568 (see pp. 2-7), are hereby
bifurcated, and all such issues will be ruled upon by the
Court after future proceedings and orders, which will
culminate in a formal closing and the entry of a final
judgment at a later date as to all such issues, and/or
entry of an order closing the estate at such later date,
and/or entry of an order terminating the appointment
of the PR at such later date.
BY THE COURT
Signed: 2/4/2016 3:55:46 PM
/s John C. Irby

App. 100
__________
APPENDIX H
__________
IN DISTRICT COURT, COUNTY OF CASS,
STATE OF NORTH DAKOTA.
In the Matter of Arline H. Hogen, Deceased
Cass File No. 09-07-P-100
Order Denying Personal Representative's Motion for
Consolidation
[¶1] This matter came on before the Court, pursuant
to personal representative, Steven C. Hogen's motions
to consolidate the present file (Estate case) with tile 092015-CV-01717, in the Matter of Curtiss A. Hogen
Trust B as created under the Last Will and Testament
of Curtiss A. Hogen (Trust Case). Among the reasoning
for the request was essentially the contention that
because Steven Hogen (Steven) and his brother Rodney
Hogen (Rodney) are the devisees in the Arline H.
Hogen Estate and are the residuary beneficiaries of the
Curtiss A. Hogen Trust B and that the dispute in both
matters involves Rodney's failure to meet his
obligations to the Trust and the Estate. Further, the
bulk of the assets in the Trust and the Estate are
undivided interests in the same farmland in Cass and
Barnes Counties. Further, that the ultimate resolution
of each matter will require the sale of a portion of the
farm properties.

App. 101
[¶2] Steven cites Rule 42 of the North Dakota Rules
of Civil Procedure as the authority for such
consolidation.
[¶3] The Court declines to exercise its discretion in
consolidating these matters for several reasons. First,
both the instant case and the Curtiss Hogen Trust case
have already been tried to their respective courts. At
the time of the personal representative's request, the
Court's file in the instant case contains over 10,000
pages of documents. This matter has been to the
Supreme Court twice. It's this Court's understanding
that the other matter has been tried to the Honorable
Steven McCullough and a decision is pending. The time
to attempt a savings of judicial resources and to
efficiently resolve this matter passed years ago.
[¶4] In the event of consolidation, the undersigned
judge will be no longer able to preside over the
consolidated matters. At one point the undersigned was
assigned to the Trust case, but a demand for change of
judge was made and granted in that matter. See
Odyssey Nos. 38 and 45 in the Trust case. In addition,
the litigants in each of these two cases appear in
different capacities. In the Estate case Steven is the
personal representative and a devisee, and Rodney is
a devisee. In the Trust case, both are co-trustees and
residuary beneficiaries. It would appear that either
Steven or Rodney would be allowed to file a demand for
change of judge in the estate case within ten days of
that matter being assigned the Honorable Steven
McCullough.

App. 102
[¶5] Further, because the litigants appear in each
case in different capacities than in the other case, the
procedures for resolutions of these matters differ.
[¶6] The time for consolidating these matters has long
passed. In the Estate case alone, over $350,000 in
attorney and personal representative fees have been
awarded and affirmed. This matter has been ordered to
proceed to a formal close which will no doubt involve
selling farm property. Given the undivided interest in
farm property held by the Estate, it would behoove the
personal representative to cooperate with the trustee
of the Curtiss Hogen Trust in any sale of farm property
to maximize the results if that is a concern.
Theoretically, however, that is not required. The Court
finds that there are no compelling reasons to
consolidate the two matters. For better or worse,
consolidation would result in the removal of the
undersigned as the presiding judge of this case. The
facts in these cases have, for the most part, been
already determined.
[¶7] Accordingly, the personal
motion to consolidate is denied.

representative's

Dated this 12 day of December, 2016.
BY THE COURT:
s/ John C. Irby
_____________________
John C. Irby
District Court Judge
East Central Judicial District

App. 103
__________
APPENDIX I
__________
Name, Address and Telephone No. of Attorney
Sara K. Sorenson
Attorney ID #05826
OHNSTAD TWICHELL, P.C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, NO 58078-0458
ssorenson@ohnstadlaw.com
(701) 282-3249
Court File No. 09-07-P-l 00
Attorney for Petitioner Steven C. Hogen
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
ORDER FOR THE RELEASE OF LIS PENDENS
[¶1] On February 2, 2016, this Court ordered
Rodney Hogen to surrender and abandon to the
personal representative and immediately deliver to the
personal representative complete possession and
control over all of the estate's real property. This Court
further ordered "consistent with the immediately
preceding ¶8 of this order and N.D.C.C. § 30.1-18-09,
neither Rodney Hogen nor his agents or attorneys shall
interfere in any manner with the complete possession

App. 104
and complete control of the estate's real property, or
with the personal representative's power over title to
the estate's real property which the PR has under
N.D.C.C. § 30.1-18-11."
[¶2] On the day following the entry of this
Court's Order of February 2, 2016, which ordered
Rodney Hogen to surrender the property to the
personal representative, Rodney signed a lis pendens,
presumably prepared by his attorney, covering all of
the real property. The lis pendens was recorded with
the Cass County Recorder on February 4,2016, as
Document Number 1469575, and with the Barnes
County Recorder on February 5,2016, as Document
Number 282524.
[¶3] A notice of lis pendens may be fi1ed "[i]n
a civil or criminal action in a court affecting the title to
real property:” N.D.C.C. § 28-05-07. "[T]he purpose of
a notice of lis pendens is to 'let the world know that
there is an action pending, and everybody interested
can go to the clerk's office, and there learn the
particulars from the complaint." Bragg v. Burlington
Res. Oil & Gas Co. LP, 2009 ND 33, ¶ 9, 763 N.W.2d
481 (quoting Plott v. Kittelson, 58 N.D. 881, 890,228
N.W. 217,220 (1929)). The use of lis pendens is
restricted to avoid abuse. Investors Title Ins. Co. v.
Herzig, 2010 ND 169, ¶34, 788 N.W.2d 312.
[¶4] North Dakota law provides for the
cancellation of lis pendens:
The court in which the action was

App. 105
commenced, at any time, on application of
any person aggrieved and on good cause
shown and on such notice as directed or
approved by the court, may order the
notice authorized by section 28-05-07 to
be canceled of record in whole or in part
by the recorder of any county in whose
office the same may have been filed for
record, and such cancellation must be
made by an endorsement to that effect on
the margin of the record which shall refer
to the order. Such cancellation, in like
manner, may be made by the recorder
upon a written request, directing such
cancellation, signed by the party or the
attorney of the party who caused such
notice to be fi1ed. Such notice is also
canceled by the entry of a final judgment
in the action if no appeal has been taken
from such judgment within the time
provided by law.
N.D.C.C. § 28-05-08.
[¶5] Rodney Hogen's recording a lis pendens in
direct violation of this Court's February 2,2016 Order
is unreasonable and unjustified.
[¶6] It is ordered that the lis pendens filed by
Rodney Hogen in the office of the Cass County
Recorder on February 4,2016, as Document Number
1469575, concerning the following described real
property:

App. 106
TRACT ONE.
An undivided 28.5%
interest in and to the Northeast Quarter
(NE¼) of Section Twenty-one (21),
EXCEPT the East 572 feet of the South
762 feet of the Northeast Quarter (NE¼)
of Section Twenty-one (21), Township One
Hundred Forty (140) North of Range
Fifty-four (54) West of the Fifth Principal
Meridian, situate in the County of Cass
and the State of North Dakota, subject to
highways, easements and rights of way of
record.
TRACT TWO. An undivided one-half
interest in and to the Northeast Quarter
(NE¼) of Section Thirty-three (33), in
Township One Hundred Forty (140)
North of Range Fifty-four (54) West of the
Fifth Principal Meridian, situate in the
County of Cass and the State of North
Dakota, EXCEPTING the following
described tract, to-wit: The East Half of
the East Half of the Northeast Quarter
(E½E½NE¼) of Section 33, Township
140, Range 54, Cass County, North
Dakota, subject to highways, easements
and rights of way of record.
TRACT THREE. An undivided one-half
interest in and to the Northwest Quarter
(NW1/4) of Section Thirty-four (34), in
Township One Hundred Forty (140)
North of Range Fifty-four (54) West of the

App. 107
Fifth Principal Meridian, situate in the
County of Cass and the State of North
Dakota, subject to highways, easements
and rights of way of record, EXCEPTING
the following tracts, to-wit:
That part of the Northwest
Quarter of Section Thirtyfour, in Township One
Hundred Forty North of
Range Fifty-four West of the
Fifth Principal Meridian,
situate in the County of
Cass and the State of North
Dakota, described as
follows, to-wit: Commencing
at the Northwest corner of
said Northwest Quarter;
thence South 00°52'48"
East, assumed bearing along
the West line of said
Northwest Quarter, a
distance of 549.67 feet to the
point of beginning of the
tract to be described; thence
North 88°54'30" East 388.17
feet; thence South 02°51'55"
East 548.01 feet; thence
South 88°54'23" West 407.12
feet to the West line of said
Northwest Quarter; thence
North 00°52'48" West 547.77
feet to the point of

App. 108
beginning.
AND
A tract of land situated in
the Northwest Quarter of
Section Thirty-four,
Township One Hundred
Forty North of Range Fiftyfour West of the Fifth
Principal Meridian, Cass
County, North Dakota, more
particularly described as
follows: Commencing at the
Northwest corner of the
Northwest Quarter of said
Section Thirty-four; thence
North 89°52'47" East along
the Section line and the
North line of Hogen
Subdivision a distance of
708.89 feet to a point;
thence South 00°52'47" East
along the East line of Lot
One, Block One, Hogen
Subdivision a distance of
537.60 feet to an iron pin at
the Southeast corner of said
Lot One, the point of
beginning;
thence
continuing South 00°52'47"
East a distance of 239.48
feet to an iron pin; thence

App. 109
South 88°38'54" West a
distance of 312.42 feet to an
iron pin on the East line of
Lot Two, Block One, Hogen
Subdivision; thence North
02°51'55" West along the
East line of said Lot Two a
distance of 241.00 feet to an
iron pin at the Northeast
corner of said Lot Two and
on the South line of said Lot
One; thence North 88°54'23"
East along the South line of
said Lot One a distance of
320.69 feet to the point of
beginning.
AND
Lot One (1), Block One (1),
Hogen Subdivision, Cass
County, North Dakota.
TRACT FOUR. An undivided one-half
interest in and to Lot One (1), Block One
(1), Hogen Subdivision, Cass County,
North Dakota.
is hereby released and cancelled, and the Cass County
Recorder is hereby authorized and directed to
discharge the same of record.
[¶7]

It is further ordered that the lis pendens

App. 110
filed by Rodney Hogen in the office of the Barnes
County Recorder on February 5, 2016, as Document
Number 282524, concerning the following described
real property:
TRACT ONE: An undivided one-half
interest in and to the Northwest Quarter
(NW1/4) and the South Half of the
Southwest Quarter (S1/2SW1/4) of
Section Five (5), Township One Hundred
Forty (140) North of Range Fifty-six (56)
West of the Fifth Principal Meridian,
Barnes County, North Dakota.
TRACT TWO: An undivided one-half
interest in and to the North Half of the
Southwest Quarter (N1/2SW1/4) of
Section Five (5), Township One Hundred
Forty (140) North of Range Fifty-six (56)
West of the Fifth Principal Meridian,
Barnes County, North Dakota, subject to
existing highways, easements and rights
of way of record, EXCEPTING the
following tract, to-wit: Commencing at the
West Quarter corner of said Section Five
(5), Township One Hundred Forty (140),
Range Fifty-six (56), Barnes County,
North Dakota, thence South 46°01'57"
East for a distance of 945.90 feet to the
point of beginning of said tract of land to
be described; thence East for a distance of
525 feet; thence South for a distance of
550 feet; thence West for a distance of 395

App. 111
feet; thence South for a distance of 170
feet; thence West for a distance of 400
feet; thence North for a distance of 400
feet; thence East for distance of 195 feet;
thence North for a distance of 320 feet;
thence East for a distance of 75 feet to the
point of beginning.
TRACT THREE: A tract of land situated
in the W1/2SW1/4 of Section 5, Township
140 North, Range 56 West, of the Fifth
Principal Meridian, Barnes County,
North Dakota, being more particularly
described as follows:
Commencing at the West
quarter corner of said
Section 5; thence South
46°01'57" East for a distance
of 945.90 feet to the point of
beginning of said tract of
land to be described; thence
East for a distance of 525.00
feet; thence South for a
distance of 550.00 feet;
thence West for a distance of
395.00 feet; thence South for
a distance of 170.00 feet;
thence West for a distance of
400.00 feet; thence North for
a distance of 400.00 feet;
thence East for a distance of
195.00 feet; thence North for

App. 112
a distance of 320.00 feet;
thence East for a distance of
75.00 feet to the point of
beginning.
The tract of land herein described
contains 10.17 acres, more or less.
Together with the following Easement
TRACT FM-500E-l
ACCESS ROAD
EASEMENT

AND

UTILITY

A tract of land variable in width situated
in the NW1/4SWI/4 of Section 5,
Township 140 North, Range 56 West of
the Fifth Principal Meridian, Barnes
County, North Dakota, lying at various
distances on each side of the following
described centerline:
Commencing at the West
quarter corner of said
Section 5; thence South
46E01'57" East for a
distance of 945.90 feet;
thence West for a distance of
75.00 feet; thence South for
a distance of 136.00 feet to
the point of beginning of
said centerline to be
described; thence West with

App. 113
50.00 feet on each side of
said centerline for a
distance of 31.00 feet;
thence North 89E53'33"
West with 50.00 feet on each
side of said centerline for a
distance of 525.00 feet;
thence continuing North
89E53'33" West with 75.00
feet on each side of said
centerline
to
the
intersection with the West
line of said Section 5.
The tract of land herein described
contains 1.45 acres, more or less, all of
which is included in Tract FM-500E-2.
This is a perpetual and assignable
easement and right-of-way to locate,
construct, operate, maintain, repair and
remove a roadway, overhead and/or
underground utility lines and a water
pipeline, in, upon, over, and across the
immediately above described land,
together with the right to trim, cut, fell,
and remove therefrom, all trees,
underbrush, obstructions, and any other
vegetation, structures, or obstacles within
the limits of the right of way as described
in Grant of Easement dated November 25,
1964, in Book B-5 of Miscellaneous, Page
157, Register of Deeds of Barnes County,

App. 114
North Dakota.
is hereby released and canceled of record, and the
Barnes County Recorder is hereby authorized and
directed to discharge the same of record.
BY THE COURT
Signed: 5/9/2017 11 18:49 AM
s/ John C. Irby
______________________
John C. Irby
District Court Judge
East Central Judicial District

App. 115
__________
APPENDIX J
__________
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
JUDGMENT
Supreme Court No. 20180325
Cass County Case No. 07-P-00100
Appeal from the district court for Cass County.
In the Matter of the Estate of Arline H. Hogen,
Deceased,
Steven C. Hogen, Petitioner and Appellee
v.
Rodney Hogen, Respondent and Appellant
and
Susan Hogen and Marby Hogen, Purported Interested
Persons and Appellants
[¶1] This appeal having been heard by the Court at the
February 2019 Term before:
[¶2] Chief Justice Gerald W. VandeWalle, Justice
Daniel J. Crothers, Justice Lisa Fair McEvers, Justice
Jerod E. Tufte, and Justice Jon J. Jensen;

App. 116
[¶3] and the Court having considered the appeal, it is
ORDERED AND ADJUDGED that the orders of the
district court are AFFIRMED.
[¶41 IT IS FURTHER ORDERED AND ADJUDGED
that Steven C. Hogen have and recover from Rodney
Hogen, Susan Hogen, and Marby Hogen costs and
disbursements on this appeal under Rule 39,
N.D.R.App.P., to be taxed and allowed in the court
below.
[¶51 This judgment, together with the opinion of the
Court filed this date, constitutes the mandate of the
Supreme Court on the date it is issued to the district
court under N.D.R.App.P. 40.
Dated: May 16, 2019
By the Court:
s/ Gerald VandeWalle
_________________
Chief Justice
ATTEST:
s/ Penny Miller
_________________
Clerk

App. 117
__________
APPENDIX K
__________
N.D.C.C. § 28-05-07. Lis pendens--Effect.
In a civil or criminal action in a court affecting the title
to real property, the plaintiff, at the time of filing the
complaint or criminal information or indictment or at
any time afterwards, or the defendant, when the
defendant sets up in the defendant's answer an
affirmative claim for relief affecting the title to real
property and demands substantive relief, at the time of
filing the defendant's answer or at any time
afterwards, may file for record with the recorder of
each county in which the real property is situated a
notice of the pendency of the action, containing the
names of the parties, the object of the action, and a
description of the real property affected. From the time
of filing only shall the pendency of the action be
constructive notice to a purchaser or encumbrancer of
the property affected thereby, and every person whose
conveyance or encumbrance is subsequently executed
or subsequently recorded is deemed a subsequent
purchaser or encumbrancer with notice and is bound by
all proceedings taken after the filing of such notice to
the same extent as if that person were a party to the
action. For the purpose of this section, an action is
deemed to be pending from the time of filing such
notice, but the notice in a civil action is of no avail
unless it is followed by the first publication of the

App. 118
summons, or by the personal service thereof on a
defendant, within sixty days after such filing.
N.D.C.C. § 28-26-31. Pleadings not made in good faith.
Allegations and denials in any pleadings in court, made
without reasonable cause and not in good faith, and
found to be untrue, subject the party pleading them to
the payment of all expenses, actually incurred by the
other party by reason of the untrue pleading, including
a reasonable attorney's fee, to be summarily taxed by
the court at the trial or upon dismissal of the action.
N.D.C.C. § 30.1-01-06. (1-201) General definitions.
Subject to additional definitions contained in the
subsequent chapters which are applicable to specific
chapters, and unless the context otherwise requires, in
this title:
***
7. “Claims”, in respect to estates of decedents and
protected persons, includes liabilities of the decedent or
protected person whether arising in contract, in tort, or
otherwise, and liabilities of the estate which arise at or
after the death of the decedent or after the
appointment of a conservator, including funeral
expenses and expenses of administration. The term
does not include estate or inheritance taxes or demands
or disputes regarding title of a decedent or protected
person to specific assets alleged to be included in the

App. 119
estate.
***
26. “Interested person” includes heirs, devisees,
children, spouses, creditors, beneficiaries, and any
others having a property right in or claim against a
trust estate or the estate of a decedent, ward, or
protected person. The term also includes persons
having priority for appointment as personal
representative and other fiduciaries representing
interested persons. The meaning as it relates to
particular persons may vary from time to time and
must be determined according to the particular
purposes of, and matter involved in, any proceeding.
***
49. “Settlement”, in reference to a decedent's estate,
includes the full process of administration, distribution,
and closing.
***
N.D.C.C. § 30.1-03-01. (1.401). Notice - Method and
time of giving.
1. If notice of a hearing on any petition is required and,
except for specific notice requirements as otherwise
provided, the petitioner shall cause notice of the time
and place of hearing of any petition to be given to any
interested person or the interested person's attorney if
the interested person has appeared by attorney or

App. 120
requested that notice be sent to the interested person's
attorney. Notice shall be given:
a. By mailing a copy thereof at least fourteen
days before the time set for the hearing by certified or
ordinary first-class mail addressed to the person being
notified at the post-office address given in that person's
demand for notice, if any, or at that person's office or
place of residence, if known;
b. By delivering a copy thereof to the person
being notified personally at least fourteen days before
the time set for the hearing; or
c. If the address, or identity of any person is not
known and cannot be ascertained with reasonable
diligence, by publishing at least once a week for three
consecutive weeks, a copy thereof in a newspaper
having general circulation in the county where the
hearing is to be held, the last publication of which is to
be at least ten days before the time set for the hearing.
2. The court for good cause shown may provide for a
different method or time of giving notice for any
hearing.
3. Proof of the giving of notice shall be made on or
before the hearing and filed in the proceeding.
N.D.C.C. § 30.1-03-03. (1.403) Pleadings - When
parties bound by others - Notice.

App. 121
In formal proceedings involving trusts or estates of
decedents, minors, protected persons, or incapacitated
persons, and in judicially supervised settlements, the
following apply:
1. Interests to be affected must be described in
pleadings that give reasonable information to owners
by name or class, by reference to the instrument
creating the interests or in another appropriate
manner.
2. A person is bound by an order binding another in the
following cases:
a. An order binding the sole holder or all
coholders of a power of revocation or a presently
exercisable general power of appointment, including
one in the form of a power of amendment, binds
another person to the extent that person's interests, as
objects, takers in default, or otherwise, are subject to
the power.
b. To the extent there is no conflict of interest
between them or among persons represented, an order
binding a conservator binds the person whose estate
the conservator controls; an order binding a guardian
binds the ward if no conservator of the ward's estate
has been appointed; an order binding a trustee binds a
beneficiary of the trust in proceedings to probate a will
establishing or adding to a trust, to review the acts or
accounts of a former fiduciary and in proceedings
involving creditors or other third parties; an order
binding a personal representative binds a person

App. 122
interested in the undistributed assets of a decedent's
estate in actions or proceedings by or against the
estate; and an order binding a sole holder or all
coholders of a general testamentary power of
appointment binds other persons to the extent their
interests as objects, takers in default, or otherwise are
subject to the power.
c. Unless otherwise represented, a minor or an
incapacitated, unborn, or unascertained person is
bound by an order to the extent the person's interest is
adequately represented by another party having a
substantially identical interest in the proceeding.
3. If no conservator or guardian has been appointed, a
parent may represent a minor child.
4. Notice is required as follows:
a. The notice prescribed by section 30.1-03-01
must be given to every interested person or to one who
can bind an interested person as described in
subdivision a or b of subsection 2. Notice may be given
both to a person and to another who may bind that
person.
b. Notice is given to unborn or unascertained
persons who are not represented under subdivision a or
b of subsection 2 by giving notice to all known persons
whose interests in the proceedings are substantially
identical to those of the unborn or unascertained
persons.

App. 123
5. At any point in a proceeding, a court may appoint a
guardian ad litem to represent the interest of a minor,
an incapacitated, unborn, or unascertained person, or
a person whose identity or address is unknown, if the
court determines that representation of the interest
otherwise would be inadequate. If not precluded by
conflict of interests, a guardian ad litem may be
appointed to represent several persons or interests.
The court shall state its reasons for appointing a
guardian ad litem as a part of the record of the
proceeding.
N.D.C.C. § 30.1-12-01. (3-101) Devolution of estate at
death--Restrictions.
The power of a person to leave property by will, and the
rights of creditors, devisees, and heirs to the person's
property, are subject to the restrictions and limitations
contained in this title to facilitate the prompt
settlement of estates. Upon the death of a person, the
decedent's real and personal property devolves to the
persons to whom it is devised by the decedent's last will
or to those indicated as substitutes for them in cases
involving lapse, renunciation, or other circumstances
affecting the devolution of testate estate, or in the
absence of testamentary disposition, to the decedent's
heirs, or to those indicated as substitutes for them in
cases involving renunciation or other circumstances
affecting devolution of intestate estates, subject to
homestead allowance, exempt property, and family
allowance, to rights of creditors, elective share of the
surviving spouse, and to administration.

App. 124
N.D.C.C. § 30.1-17-02. (3-602) Acceptance
appointment--Consent to jurisdiction
Currentness.

of

By accepting appointment, a personal representative
submits personally to the jurisdiction of the court in
any proceeding relating to the estate that may be
instituted by any interested person. Notice of any
proceeding shall be delivered to the personal
representative, or mailed by ordinary first-class mail to
the personal representative's address as listed in the
application or petition for appointment or as thereafter
reported to the court and to the personal
representative's address as then known to the
petitioner.
N.D.C.C. § 30.1-17-07. (3-607) Order restraining
personal representative.
1. On petition of any person who appears to have an
interest in the estate, the court, by temporary order,
may restrain a personal representative from
performing specified acts of administration,
disbursement, or distribution, or exercise of any powers
or discharge of any duties of the personal
representative's office, or make any other order to
secure proper performance of the personal
representative's duty, if it appears to the court that the
personal representative otherwise may take some
action which would jeopardize unreasonably the
interest of the applicant or of some other interested

App. 125
person. Persons with whom the personal representative
may transact business may be made parties.
2. The matter shall be set for hearing within ten days
unless the parties otherwise agree. Notice, as the court
directs, shall be given to the personal representative
and the personal representative's attorney of record, if
any, and to any other parties named defendant in the
petition.
N.D.C.C. § 30.1-17-10. (3-610).
appointment--Voluntary.

Termination of

1. An appointment of a personal representative
terminates as provided in section 30.1-21-03, one year
after the filing of a closing statement.
2. An order closing an estate as provided in section
30.1-21-01 or 30.1-21-02 terminates an appointment of
a personal representative.
3. A personal representative may resign the position by
filing a written statement of resignation with the court
after giving at least fifteen days' written notice to the
persons known to be interested in the estate. If no one
applies or petitions for appointment of a successor
representative within the time indicated in the notice,
the filed statement of resignation is ineffective as a
termination of appointment and in any event is
effective only upon the appointment and qualification
of a successor representative and delivery of the assets
to the successor representative.

App. 126
N.D.C.C. § 30.1-18-03. (3-703) General duties--Relation
and liability to persons interested in estate--Standing
to sue
1. A personal representative is a fiduciary who shall
observe the standards of care applicable to trustees. A
personal representative is under a duty to settle and
distribute the estate of the decedent in accordance with
the terms of any probated and effective will and this
title, and as expeditiously and efficiently as is
consistent with the best interests of the estate. The
personal representative shall use the authority
conferred upon the personal representative by this
title, the terms of the will, if any, and any order in
proceedings to which the personal representative is
party for the best interests of successors to the estate.
***
N.D.C.C. § 30.1-18-13. (3-713). Sale, encumbrance, or
transaction
involving
conflict
of
interest--Voidable--Exceptions.
Any sale or encumbrance to the personal
representative, the personal representative's spouse,
agent, or attorney, or any corporation, limited liability
company, or trust in which the personal representative
has a substantial beneficial interest, or any transaction
which is affected by a substantial conflict of interest on
the part of the personal representative, is voidable by
any person interested in the estate except one who has
consented after fair disclosure, unless:

App. 127
1.

The will or a contract entered into by the
decedent expressly authorized the
transaction; or

2.

The transaction is approved by the court
after notice to interested persons.

N.D.C.C. § 30.1-18-14. (3-714) Persons dealing with
personal representative--Protection.
A person who in good faith either assists a personal
representative or deals with the personal
representative for value is protected as if the personal
representative properly exercised the personal
representative's power. The fact that a person
knowingly deals with a personal representative does
not alone require the person to inquire into the
existence of a power or the propriety of its exercise.
Except for restrictions on powers of supervised
personal representatives which are endorsed on letters
as provided in section 30.1-16-04, no provision in any
will or order of court purporting to limit the power of a
personal representative is effective except as to persons
with actual knowledge thereof. A person is not bound
to see to the proper application of estate assets paid or
delivered to a personal representative. The protection
here expressed extends to instances in which some
procedural irregularity or jurisdictional defect occurred
in proceedings leading to the issuance of letters,
including a case in which the alleged decedent is found
to be alive. The protection here expressed is not in
substitution for that provided by comparable provisions

App. 128
of the laws relating to commercial transactions and
laws simplifying transfers of securities by fiduciaries.
N.D.C.C. § 30.1-19-03. (3-803).
presentation of claims.

Limitations on

1. All claims against a decedent's estate which arose
before the death of the decedent, including claims of
the state or any political subdivision, whether due or to
become due, absolute or contingent, liquidated or
unliquidated, founded on contract, tort, or other legal
basis, if not barred earlier by other statute of
limitations, are barred against the estate, the personal
representative, the heirs and devisees of the decedent,
and nonprobate transferees unless presented as
follows:
a. Within three months after the date of the first
publication and mailing of notice to creditors if notice
is given in compliance with section 30.1-19-01;
provided, claims barred by the nonclaim statute at the
decedent's domicile before the first publication for
claims in this state are also barred in this state.
b. Within three years after the decedent's death,
if notice to creditors has not been published and
mailed.
2. All claims against a decedent's estate which arise at
or after the death of the decedent, including claims of
the state and any subdivision thereof, whether due or
to become due, absolute or contingent, liquidated or
unliquidated, founded on contract, tort, or other legal

App. 129
basis, are barred against the estate, the personal
representative, and the heirs and devisees of the
decedent, unless presented as follows:
a. A claim based on a contract with the personal
representative, within four months after performance
by the personal representative is due.
b. Any other claim, within three months after it
arises.
3. Nothing in this section affects or prevents:
a. Any proceeding to enforce any mortgage,
pledge, or other lien upon property of the estate.
b. To the limits of the insurance protection only,
any proceeding to establish liability of the decedent or
the personal representative for which the decedent or
personal representative is protected by liability
insurance.
N.D.C.C. § 30.1-20-11. (3-911) Partition for purpose of
distribution.
When two or more heirs or devisees are entitled to
distribution of undivided interests in any real or
personal property of the estate, the personal
representative or one or more of the heirs or devisees
may petition the district court prior to the formal or
informal closing of the estate, to make partition. After
notice to the interested heirs or devisees, the district

App. 130
court shall partition the property in the same manner
as provided by chapter 32-16. The district court may
direct the personal representative to sell any property
which cannot be partitioned without prejudice to the
owners and which cannot conveniently be allotted to
any one party.
N.D.C.C. § 30.1-21-01 (3-1001) Formal proceedings
terminating administration--Testate or
intestate--Order of general protection.
1. A personal representative or any interested person
may petition for an order of complete settlement of the
estate. The personal representative may petition at
any time, and any other interested person may petition
after one year from the appointment of the original
personal representative, except that no petition under
this section may be entertained until the time for
presenting claims which arose prior to the death of the
decedent has expired. The petition may request the
court to determine testacy, if not previously
determined, to consider the final account or compel or
approve an accounting and distribution, to construe
any will or determine heirs and adjudicate the final
settlement and distribution of the estate. After notice
to all interested persons and hearing the court may
enter an order or orders, on appropriate conditions,
determining the persons entitled to distribution of the
estate, and, as circumstances require, approving
settlement and, after receiving satisfactory evidence of
payment of any estate tax due, directing or approving
distribution of the estate and discharging the personal

App. 131
representative from further claim or demand of any
interested person.
2. If one or more heirs or devisees were omitted as
parties in, or were not given notice of, a previous
formal testacy proceeding, the court, on proper petition
for an order of complete settlement of the estate under
this section, and after notice to the omitted or
unnotified persons and other interested parties
determined to be interested on the assumption that the
previous order concerning testacy is conclusive as to
those given notice of the earlier proceeding, may
determine testacy as it affects the omitted persons and
confirm or alter the previous order of testacy as it
affects all interested persons as appropriate in the light
of the new proofs. In the absence of objection by an
omitted or unnotified person, evidence received in the
original testacy proceeding shall constitute prima facie
proof of due execution of any will previously admitted
to probate, or of the fact that the decedent left no valid
will if the prior proceedings determined this fact.
N.D.C.C. § 30.1-21-08.
administration - Fee.

(3-1008)

Subsequent

If other property of the estate is discovered after an
estate has been settled and the personal representative
discharged or after one year after a closing statement
has been filed, the court, upon petition of any
interested person and upon notice as it directs, may
appoint the same or a successor personal
representative to administer the subsequently

App. 132
discovered estate. Any person filing a petition under
this section shall pay to the clerk of district court a
filing fee as prescribed in section 27-05.2-03. If a new
appointment is made, unless the court orders
otherwise, the provisions of this title apply as
appropriate, but no claim previously barred may be
asserted in the subsequent administration.
N.D.C.C. § 32-16-04. Lis pendens required.
Immediately after filing the complaint in the district
court, the plaintiff must record in the office of the
recorder of the county, or of the several counties in
which the property is situated, a notice of the pendency
of the action, containing the names of the parties, so far
as known, the object of the action, and a description of
the property to be affected thereby. From the time of
filing such notice for record, all persons shall be
deemed to have notice of the pendency of the action.
N.D.C.C. § 32-16-23. Part of action continued.
When the proceeds of the sale of any share or parcel
belonging to persons who are parties to the action, and
who are known, are paid into court, the action may be
continued as between such parties for the
determination of their respective claims thereto, which
must be ascertained and adjudged by the court.
Further testimony may be taken in court, or by a
referee, at the discretion of the court, and the court, if
necessary, may require such parties to present the
facts or law in the controversy by pleading as in an
original action.

App. 133
N.D.C.C. § 32-16-24. How sales made.
All sales of real property made by referees under this
chapter must be made at public auction to the highest
bidder upon notice published in the manner required
for the sale of real property on execution. The notice
must state the terms of sale and if the property, or any
part of it, is to be sold subject to a prior estate, charge,
or lien, that must be stated in the notice.
N.D.C.C. § 32-16-28. Compensation when consent not
given.
If such consent is not given, filed, and entered as
provided in section 32-16-27 at or before a judgment of
sale is rendered, the court must ascertain and
determine what proportion of the proceeds of the sale,
after deducting expenses, will be a just and reasonable
sum to be allowed on account of such estate, and must
order the same to be paid to such party or deposited in
court for that party, as the case may require.
N.D.C.C. § 32-16-30. Value of future estates settled by
court.
In all cases of sales, when it appears that any person
has a vested or contingent or future right or estate in
any of the property sold, the court must ascertain and
settle the proportionate value of such contingent or
vested right or estate and must direct such proportion
of the proceeds of the sale to be invested, secured, or

App. 134
paid over in such manner as will protect the rights and
interests of the parties.
N.D.C.C. § 32-16-35. Interested party may apply share
on purchase price.
When a party entitled to a share of the property, or an
encumbrancer entitled to have that encumbrancer's
lien paid out of the sale, becomes a purchaser, the
referees may take their receipt for so much of the
proceeds of the sale as belongs to them.

App. 135
__________
APPENDIX L
__________
Jonathan T. Garaas
Garaas Law Firm
DeMores Office Park
1314 23rd Street South
Fargo, North Dakota 58103-3796
Telephone: (701) 293-7211
North Dakota Bar ID #03080
Probate No. 09-07-P-100
Attorneys for Rodney Hogen
IN THE DISTRICT COURT FOR
CASS COUNTY, NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased.
PETITION FOR ORDER RESTRAINING
PERSONAL REPRESENTATIVE
TO THE HONORABLE JOHN C. IRBY, JUDGE OF
THE ABOVE NAMED COURT:
[¶1] Petitioner Rodney Hogen respectfully shows the
Court as follows:
[¶2] Petitioner is a son of the above named decedent
and one of two residuary devisees under the Last Will
and Testament of Arline H. Hogen, Deceased. As one

App. 136
of the two residuary devisees, an undivided one-half of
decedent’s interest in the following four tracts of real
property, situated in Cass County, North Dakota,
devolved upon your Petitioner on March 23, 2007 -- the
date of Arline H. Hogen’s death:
TRACT ONE. Northeast Quarter (NE1/4)
of Section Twenty-one (21), EXCEPT the
East 572 feet of the South 762 feet of the
Northeast Quarter (NE1/4) of Section
Twenty-one (21), Township One Hundred
Forty (140) North of Range Fifty-four (54)
West of the Fifth Principal Meridian,
situate in the County of Cass and the
State of North Dakota, subject to
highways, easements and rights of way of
record.
TRACT TWO.
Northeast Quarter
(NE1/4) of Section Thirty-three (33), in
Township One Hundred Forty (140)
North of Range Fifty-four (54) West of the
Fifth Principal Meridian, situate in the
County of Cass and the State of North
Dakota, EXCEPTING the following
described tract, to-wit: The East Half of
the East Half of the Northeast Quarter
(E1/2E1/2NE1/4) of Section 33, Township
140, Range 54, Cass County, North
Dakota, subject to highways, easements
and rights of way of record.
TRACT THREE.

Northwest Quarter

App. 137
(NW1/4) of Section Thirty-four (34), in
Township One Hundred Forty (140)
North of Range Fifty-four (54) West of the
Fifth Principal Meridian, situate in the
County of Cass and the State of North
Dakota, subject to highways, easements
and rights of way of record, EXCEPTING
the following tracts, to-wit:
That part of the Northwest
Quarter of Section Thirtyfour, in Township One
Hundred Forty North of
Range Fifty-four West of the
Fifth Principal Meridian,
situate in the County of
Cass and the State of North
Dakota, described as
follows, to-wit: Commencing
at the Northwest corner of
said Northwest Quarter;
thence South 00°52'48"
East, assumed bearing
along the West line of said
Northwest Quarter, a
distance of 549.67 feet to the
point of beginning of the
tract to be described; thence
North 88°54'30" East 388.17
feet; thence South 02°51'55"
East 548.01 feet; thence
South 88°54'23" West
407.12 feet to the West line

App. 138
of said Northwest Quarter;
thence North 00°52'48"
West 547.77 feet to the
point of beginning.
AND
A tract of land situated in
the Northwest Quarter of
Section Thirty-four,
Township One Hundred
Forty North of Range Fiftyfour West of the Fifth
Principal Meridian, Cass
County, North Dakota, more
particularly described as
follows: Commencing at the
Northwest corner of the
Northwest Quarter of said
Section Thirty-four; thence
North 89°52'47" East along
the Section line and the
North line of Hogen
Subdivision a distance of
708.89 feet to a point;
thence South 00°52'47" East
along the East line of Lot
One, Block One, Hogen
Subdivision a distance of
537.60 feet to an iron pin at
the Southeast corner of said
Lot One, the point of
beginning;
thence

App. 139
continuing South 00°52'47"
East a distance of 239.48
feet to an iron pin; thence
South 88°38'54" West a
distance of 312.42 feet to an
iron pin on the East line of
Lot Two, Block One, Hogen
Subdivision; thence North
02°51'55" West along the
East line of said Lot Two a
distance of 241.00 feet to an
iron pin at the Northeast
corner of said Lot Two and
on the South line of said Lot
One; thence North 88°54'23"
East along the South line of
said Lot One a distance of
320.69 feet to the point of
beginning.
AND
Lot One (1), Block One (1),
Hogen Subdivision, Cass
County, North Dakota.
TRACT FOUR. Lot One (1), Block One
(1), Hogen Subdivision, Cass County,
North Dakota
[¶3] As one of the two residuary devisees, an
undivided one-half of decedent’s interest in the
following real property, situated in Barnes County,

App. 140
North Dakota, devolved upon your Petitioner on
March 23, 2007 -- the date of Arline H. Hogen’s death:
Northwest Quarter (NW1/4) and the
South Half of the Southwest Quarter
(S1/2SW1/4) of Section Five (5), Township
One Hundred Forty (140) North of Range
Fifty-six (56) West of the Fifth Principal
Meridian, Barnes County, North Dakota.
and the North Half of the Southwest
Quarter (N1/2SW1/4) of Section Five (5),
Township One Hundred Forty (140)
North of Range Fifty-six (56) West of the
Fifth Principal Meridian, Barnes County,
North Dakota, subject to existing
highways, easements and rights of way of
record, EXCEPTING the following tract,
to-wit: Commencing at the West Quarter
corner of said Section Five (5), Township
One Hundred Forty (140), Range Fifty-six
(56), Barnes County, North Dakota,
thence South 46°01'57" East for a
distance of 945.90 feet to the point of
beginning of said tract of land to be
described; thence East for a distance of
525 feet; thence South for a distance of
550 feet; thence West for a distance of 395
feet; thence South for a distance of 170
feet; thence West for a distance of 400
feet; thence North for a distance of 400
feet; thence East for distance of 195 feet;
thence North for a distance of 320 feet;
thence East for a distance of 75 feet to the

App. 141
point of beginning.
[¶4]
This Court issued its Order on Petition for
Approval of Final Account, for Determination pf
Testacy Status, and Settlement of Estate under
N.D.C.C. § 30.1-21-01 on October 24, 2013. Docket
Entry #436. This Court issued its Amended Order on
Petition for Approval of Final Account, for
Determination of Testacy Status, and for Settlement of
Estate on December 11, 2013 [Docket Entry # 490].
This Court issued its Order of March 6, 2014 referring
to these orders and recognizing the Petition Rodney
Hogen was a 50% distributee and his brother Steven
Hogen a 50% distributee,
Docket Entry #506
recognizing what was originally ordered on October 24,
2013, in Docket Entry #436.
[¶5] The Orders, referred to in ¶4 of this Petition were
affirmed by the Supreme Court of North Dakota in
Estate of Hogen, 2015 ND 125, 863 N.W.2d 876. When
affirming this Court’s Orders, referred to in ¶4 of this
Petition, the Supreme Court of North Dakota made the
following pertinent holdings:
[¶1] Rodney Hogen appeals and Steven
Hogen, as personal representative of the
estate of Arline Hogen, cross-appeals
from an order approving a final
accounting and settlement in the probate
of the estate of Arline Hogen. the estate
of Arline Hogen. We hold the district
court did not err in concluding the
devolution of real property to Rodney

App. 142
Hogen was subject to the personal
representative's power during
administration of the estate to seek a
retainer for any noncontingent
indebtedness Rodney Hogen owed Arline
Hogen or the estate.
[¶25] Under the U.P.C. statutory scheme,
a devisee's right to a decedent's property
is subject to administration by a personal
representative, which may continue until
termination of the personal
representative's appointment or execution
of an instrument or deed of distribution,
and nothing in the statutory scheme for
title to a decedent's land requires a
personal representative to take actual
possession of the property to effectuate an
offset. Rather, N.D.C.C. § 30.1-18-09
(U.P.C. § 3-709) contemplates the
personal representative may take
"possession or control" of property except
that any real property may be left with
the person presumptively entitled thereto
unless or until possession or control is
necessary for purposes of administration.
The personal representative's power or
control over the decedent's property or
estate during administration may be
exercised without notice, hearing, or an
order and may continue until termination
of the personal representative's
appointment, or execution of an

App. 143
instrument or deed of distribution
transferring the assets to the distributee.
See N.D.C.C. §§ 30.1-18-11 (U.P.C. §
3-711), 30.1-20-07 (U.P.C. § 3-907) and
30.1-20-08 (U.P.C. § 3-908).
[¶26] We construe the statutory scheme
in N.D.C.C. title 30.1 to authorize the
personal representative, during
administration of the estate, to pursue a
retainer claim against real property in an
estate for assertions involving a devisee's
rental obligations to the decedent or the
estate. Under the statutory provisions, a
devisee's title to the decedent's property
is encumbered as long as the estate is
subject to administration. See N.D.C.C. §
30.1-18-11 (U.P.C. § 3-711).
We conclude the district court did not err
in determining the devolution of real
property to Rodney Hogen was subject to
the personal representative's power
during administration of the estate to
offset any noncontingent indebtedness he
owed to Arline Hogen or her estate. [part
of ¶27]
Bolding supplied by Petitioner for emphasis.
[¶6]
Under N.D.C.C. § 30.1-17-10 (2), “An order
closing an estate as provided in section 30.1-21-01 or
30.1-21-02 terminates an appointment of a personal

App. 144
representative.” When presenting his Petition for
Approval of Final Account, for Determination of
Testacy Status and for Settlement of Estate of March
19, 2010, the Personal Representative Steven C.
Hogen stated his petition was made under N.D.C.C. §
30.1-21-01. [page 9, ¶14 of the personal
representative’s petition; Docket entry 12]. When
presenting his First Amended Petition for Approval of
Final Account, for Determination of Testacy Status and
for Settlement of Estate of February 15, 2013, the
Personal Representative Steven C. Hogen stated his
petition was made under N.D.C.C. § 30.1-21-01. [page
12, ¶14 of the personal representative’s petition;
Docket entry 197]. When affirming the Orders,
referred to in ¶4 of this Petition, the Supreme Court of
North Dakota determined that this Court’s Order(s)
were final orders issued under statutory authority
found in N.D.C.C. § 30.1-21-01.
[¶7]
The Supreme Court of North Dakota has
determined that the personal representative’ power
over Petitioner Rodney Hogen’s inherited real property
continued only until the termination of his
appointment. By statute [and Supreme Court of North
Dakota decision], the Personal Representative’s power
over Rodney Hogen’s inherited real property
terminated when this Court issued its Order(s)
referred to in ¶4 of this Petition; Petitioner’s real
property is no longer encumbered by the personal
representative’s power or estate administration.
[¶8] Under N.D.C.C. § 30.1-17-08, “Termination ends
the right and power pertaining to the office of personal

App. 145
representative as conferred by this title or any will,
except that a personal representative, at any time prior
to distribution or until restrained or enjoined by court
order, may perform acts necessary to protect the estate
and may deliver the assets to a successor
representative.” Neither the leasing of Petitioner
Rodney Hogen’s real property, nor a sale of Petitioner’s
real property, would be an act “necessary to protect the
estate” and therefore are beyond any power that a
personal representative may have after the
termination of his appointment.
[¶9] WHEREFORE, Petitioner Rodney Hogen prays
that the Court fix a time and place for hearing; that
notice be given to all interested persons as provided by
law; and after hearing the Court enter an order
restraining the Personal Representative from
exercising any power over Rodney Hogen’s inherited
real property including any attempt to lease or sell the
real property.
Dated this 10th day of September, 2015.
s/ Rodney Hogen
________________________________
Rodney Hogen
State of North Dakota
County of Cass
Rodney Hogen, being duly sworn, state as
follows: He is the Petitioner in the foregoing Petition,
that he has read the petition and the facts therein

App. 146
stated are true to the best of his knowledge.
s/ Rodney Hogen
____________________________
Rodney Hogen
Subscribed and sworn to before me this 10th day of
September, 2015.
/s Jonathan T. Garaas
______________________________
Notary Public

App. 147
__________
APPENDIX M
__________
Name, Address and Telephone No. of Attorney
Michael D. Nelson
Attorney ID #03457 OHNSTAD TWICHELL,
P.C. 901 - 13th Avenue East
P.O. Box 458
West Fargo, ND 58078-0458 (701) 282-3249
Attorney for Personal Representative
Court File No. 09-07-P-1OO
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
ORDER FOR ENTRY OF SECOND AMENDED (ON
REMAND) ORDER ON PETITION FOR APPROVAL
OF FINAL ACCOUNT, FOR DETERMINATION OF
TESTACY STATUS, AND FOR SETTLEMENT OF
ESTATE
[¶1] The above matter is before the Court
pursuant to the North Dakota Supreme Court's
remand, as part of it's 5/27/15 opinion in Estate of
Hogen2015 ND 125"r 13, 863 N.W.2d 876.
[¶2]

On the basis of the post-appeal submittals

App. 148
of the parties, and the Court's files and records in this
matter, and the Court being fully advised in the
premises,
[¶3] IT IS ORDERED ¶11 of this Court's
12/11/13 Amended Order on Petition for Approval of
Final Account, for Determination of Testacy Status,
and for Settlement of Estate (Doc. #490) (hereinafter
"12/11/13 Order") is amended to read as follows:
"[¶11] Rodney continued his
fanning relationship with his mother's
estate in the same manner that he fanned
the property with his mother for the years
2007 and 2008. The difference, however,
is that the Court finds that no waiver
existed for the years 2007 and 2008.
Essentially, Rodney farmed a portion of
the farm for 2007 and 2008 on a cropshare agreement with the Estate and the
Curtis Hogen Trust on the same one-third
landlord/two-thirds tenant arrangement
with the landlord being responsible for
one-third of the crop inputs. This was a
very favorable arrangement according to
the Estate's expert witness, Kyle Nelson,
a farm appraiser and farm management
professional. Rodney was to continue
farming the Barnes County property on a
cash rent basis of $30 per acre, again, a
very favorable cash rent rate. At $30 per
acre for the 226.8 Barnes acres that were
not in CRP, Rodney owed $6,804 to his

App. 149
collective landlords for each year. The
Estate's share for the year 2007 would be
$3,402. The same amount would be owed
for the year 2008, $3,402. The Court
agrees with the calculation found at
Exhibit #126C, as herein modified on
remand.
[¶4] IT IS FURTHER ORDERED ¶13 of this
Court's 12/11/13 Order is amended to read as follows:
[¶13] For 2007, there was 393.1 crop
share acres. The average input cost per
acre was $59.99. The Estate's one-sixth
share would be $1 0.00. (Exhibit#123C).
The Estate's share of expenses for the
crop-shares would be $3,930.35. Rodney
testified that he off-set the Barnes
County cash rent with the crop-share
expenses of the landlord that he paid on
the crop share acres. However, he
overshot the mark by a bit. The Court's
final calculations for the 2007 farm
proceeds (not counting CRP proceeds)
would be as follows:
Barnes cash rent not paid ....
Crop share receipt shortage ....
Less crop inputs paid by Rodney ...
2007 Estate shortage ...

$3,402
$2,909
($3,930)
$2,381

[¶5] IT IS FURTHER ORDERED,¶15 of this
Court's 12/11/13 Order is amended, to read as follows:

App. 150
[¶15] Crop input expenses per acre for
2008 is $62.45. The Estate's per acre
share would be S10.41. The Estate's 2008
crop share expenses would be $4,091.52.
Again, it appears that Rodney attempted
to off-set the cash rent that he owed to
the Estate for the Barnes County
property with the crop share expenses of
the landlord that Rodney had paid. Again,
he overshot the mark with his expense
deductions. The Court would calculate
Rodney's obligation for 2008 as follows:
Barnes cash rent not paid ...
$3,402.00
Crop share receipt shortage ...
$9,508.92
Less crop inputs paid by Rodney ...($4,091.52)
2008 Estate shortage ...
$8,819.40
[¶6] IT IS FURTHER ORDERED, ¶16 of this
Court's 12/11/13 Order is amended to read as follows:
[¶16] Rodney farmed the Estate's
Barnes County land and Cass County
land for the year 2009. Steven believed
that there was an agreement reached in
2009 for Rodney to cash rent the Barnes
County land at $55 per acre and the Cass
County land at $60 per acre. This
agreement was made in the presence of
the parties' attorneys. The Court finds
that there was, in fact, an agreement
made to rent the property from the Estate
at this rate. Even if there was no

App. 151
agreement reached, the Court concludes
that $55 per acre for Barnes County
farmland rental and $60 for Cass County
farmland rental for 2009 was a rental
rate well within the values for such rental
as testified to by plaintiff's expert
witness, Kyle Nelson. Barnes County rent
for 2009 owed to the Estate would be
calculated as follows:
$55/acre x 226.77 acres x .5 (Estate's share) =
$6,237
2009 Cass County cash rent due calculated as
follows:
$60/acre x 393.1 acres x.5 (Estate's share) =
$11,793.00
[¶7] IT IS FURTHER ORDERED ¶ 22 of this
Court's 12/11/13 Order is amended to read as follows:
[¶22] The total amounts owed to the
Estate by Rodney for shortages as of
November 1,2013, is recapped as follows:
2007
2008
2009
2010
2011
2012
2013

$2,381.00
$8,819.00
$18,030.00
$11,310.00
$11,310.00
$16,722.00
$21.497.00

App. 152
TOTAL

$90,069.00 (excludes CRP
calculations and interest

[¶8] IT IS FURTHER ORDERED ¶26 of this
Court's 12/11/13 Order is amended to read as follows:

***

to size

Table showing court’s recalculations omitted due

***
Total interest to November 2013* ...
$14,234.00
Rent and CRP owed to Estate to 11/1/13 ...
$102,074.00
Total Rent and CRP with interest
owed by Rodney to the Estate to 11/1/13 ...
$116,308.00
*Farm rents are often times due on or about November
1 of each crop year.
BY THE COURT:
Signed:
10/1/2015
11:44:39 AM
s/ John C. Irby

App. 153
_____________________

App. 154
__________
APPENDIX N
__________
Name, Address and Telephone No. of Attorney
Michael D. Nelson
Attorney JD #03457
OHNSTAD TWICHELL, P.C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, NO 58078-0458
(701) 282-3249
Attorney for Personal Representative
Court File No. 09-07-P-l 00
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
MOTION FOR ENTRY OF CASHMORE
BIFURCATION ORDER
[¶1] Personal Representative Steven C. Hogen
("PR") moves the Court pursuant to N.D.C.C. § 30.1-2101(1), and Estate of Cashmore, 2010 ND 159, ¶ 14, 787
N.W.2d 261, for entry of its Order bifurcating issues
that must yet be resolved in this probate proceeding,
including but not limited to those issues addressed
and/or referred to in Doc. #436 and Doc. #490 (the
Estate will proceed to a formal close; Estate farmland

App. 155
will need to be utilized for administrative purposes,
"including dealing with mortgages that Arline Hogen
gave on the land to secure debt incurred by Rodney"),
Doc. #499 (the amount of the right of retainer claim,
post-remand), Doc. #500 (payment of remaining
attorney fees and PR fees, additional real estate taxes,
and the amount of the right of retainer claim, postremand), Doc. #502 (payment of additional
administrative expenses, including additional real
estate taxes), Doc. #505 (payment of PR's fee and
attorney fees "out of the estate assets"), Doc. #506
(payment of PR' s fee and attorney fees), Doc. #521 and
Doc. #522 (payment of PR's fee and attorney fees, and
utilizing correct right of retainer claim, post-remand),
Doc. #546 (in the "REPORT OF PRESENT STATUS
OF PROBATE," at pp. 4-5, the "prior payments"
needed to be paid out of the assets in the Estate before
the Estate can be closed), Doc. #562 (proceed to a
formal close, selling some farm property, deed of sale
will have to be given to the buyer, deed of distribution
for whatever's left will have to be given--p. 16,1.9;
substantial attorneys fees and PR fees that are going
to have to be paid out of the assets of the estate--p. 17,
1. l5; the personal representative has some significant
work to do to bring the estate to its finality, including
deeds of distribution, paying administrative expenses,
and so forth, "so I will order that the personal
representative complete the items that are necessary
to close the estate, whatever those are determined to
be"--p. 21, 1. 17; "the personal representative should do
whatever is necessary, take the necessary steps to close
the estate, including collection of assets, payment of
expenses, and distribution of any remaining property"--

App. 156
p. 22, 1. 12), and Doc. #568 (see pp. 2-7), which issues
are yet to be ruled upon by the Court after future
proceedings and orders, which will culminate in a
formal closing and the entry of a final judgment at a
later date as to all such issues, and/or entry of an order
closing the estate at such later date, and/or entry of an
order terminating the appointment of the PR at such
later date.
[¶2] This Motion is made on the grounds that
there is significant work remaining to be done by the
PR in this probate, in administering the estate, and all
parties and this Court plus the North Dakota Supreme
Court are all aware of that, but respondent Rodney
Hogen ("Rodney") and his counsel refuse to
acknowledge or admit that this probate is not closed,
but instead remains open, and it is apparent that
Rodney and his counsel may have made and filed their
frivolous "Petition for Order Restraining Personal
Representative" (Doc. #560) for the specific purpose of
getting an adverse ruling from this Court and then
immediately appealing that adverse ruling to the
North Dakota Supreme Court, to further gum up and
drag out this probate.
[¶3] This Motion is further made on the grounds
that, should Rodney file such an appeal as referenced
above (in ¶2), the PR's intention is to immediately
move to remand this case back to this Court, in order
for the PR to do his work in administering the instant
estate to a conclusion.
[¶4] This Motion is based on N.D.C.C. § 30.1-21-

App. 157
01(1), and Estate of Cashmore, 2010 ND 159, ¶ 14, 787
N.W.2d 261. and the Brief in Support of PR's Motion
for Entry of Cashmore Bifurcation Order, filed
contemporaneously herewith.
[¶5] The PR respectfully requests that the Court
enter its Cashmore bifurcation order, a preliminary
draft of which (an incomplete draft) is attached as
Exhibit "C" to the PR's Brief in Support of Motion for
Entry of Cashmore Bifurcation Order.
Dated: November 12, 2015.
s/ Michael D. Nelson
______________________
Michael D. Nelson ND ID#03457
Attorney for the Personal Representative,
Steven C. Hogen
OHNSTAD TWICHELL, P .C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, ND 58078-0458
TEL (701) 282-3249
FAX (701) 282-0825
E-mail: mnelson@ohnstadlaw.com

App. 158
__________
APPENDIX O
__________
Name, Address and Telephone No. of Attorney
Michael D. Nelson
Attorney JD #03457
OHNSTAD TWICHELL, P.C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, NO 58078-0458
(701) 282-3249
Court File No. 09-07-P-l 00
Attorney for Personal Representative
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
PETITION FOR SUPERVISED ADMINISTRATION
[¶1] Steven C. Hogen, the Personal
Representative ("PR") in the above-entitled matter,
petitions the Court for supervised administration of the
Estate of Arline H. Hogen, Deceased ("Estate").in
accordance with N.D.C.C. § 30.1-16-02. Supervised
administration is necessary under the circumstances to
protect the devisees and assets of the estate and
conserve judicial resources.

App. 159
[¶2] In support of this Petition for Supervised
Administration ("Petition"), the PR states for the Court
the following grounds for the relief requested:
[¶3] Arline H. Hogen ("Arline") died testate on
March 23, 2007, and the Court appointed Steven C.
Hogen ("Steven") as PR on April 23, 2007. Arline's Will
did not indicate a preference to administer her Estate
through unsupervised or through supervised
administration.
[¶4] Since Arline's death, there has been
contention between the Estate's two devisees, Steven
and Steven's brother, Rodney Hogen ("Rodney"),
regarding real property of the Estate. This contention
has spawned protracted litigation, including an appeal
to the North Dakota Supreme Court that consumed
some 15 months to resolve (from the filing of the notice
of appeal by Rodney to the denial, by the Supreme
Court, of Rodney's petition for rehearing).
[¶5] Estate farmland, located in Cass and
Barnes Counties, State of North Dakota, has increased
in value since Arline's death on March 23, 2007.
[¶6] Due to the above-referenced protracted
litigation, Court-approved costs of administration
already exceed $333,000.00, before even considering
costs of' administration incurred (a) in the abovereferenced appeal and (b) subsequent to the remand of
this matter (by the North Dakota Supreme Court) to
this Court. If the Estate remains unsupervised, the
possibility for additional piecemeal appeals exists, see

App. 160
In re Estate of Hass, 2002 ND 82, ¶ 7, 643 N.W.2d 713,
which if pursued, will almost certainly consume
additional substantial costs of administration. If,
however, the Estate becomes supervised, the costs of
administration for the Estate will be reduced, leaving
the possibility of enhanced assets for distribution to the
Estate's two devisees.
[¶17] Supervised administration of the Estate
will also conserve judicial resources (and time) by
avoiding future piecemeal appeals, which North
Dakota courts generally disfavor. See Riemers v. Hill,
2014 ND 80, ,¶ 6, 845 N.W.2d 364 (referencing "the
longstanding policy to discourage piecemeal appeals");
and Pifer v. McDermott, 2013 ND 153, ¶ 27, 836
N.W.2d 432 (same).
[¶8] Supervised administration is necessary
for the PR to accomplish his duty of settling and
distributing the assets of the Estate "as expeditiously
and efficiently as is consistent with the best interests
of the estate." N.D.C.C. § 30.1-18-03(1) (defining
general duties of a personal representative).
[¶9] As provided in N.D.C.C. § 30.1-16-04,
upon the ordering of supervised administration, the PR
will not exercise his power to make any distribution of
the assets of the Estate without prior Order of the
Court.
[¶10] This Petition is based on the PR's Brief in
Support of Petition for Supervised Administration,
filed contemporaneously herewith.

App. 161
[¶11] WHEREFORE, the PR requests that the
Court order supervised administration of the Estate.
For the Court's convenience, a proposed Order for
Supervised Administration is being filed with the
Court contemporaneously herewith.
Dated: January4, 2016.
s/ Michael D. Nelson
______________________
Michael D. Nelson
ND ID#03457
Attorney for the Personal Representative,
Steven C. Hogen
OHNSTAD TWICHELL, P .C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, ND 58078-0458
TEL (701) 282-3249
FAX (701) 282-0825
E-mail: mnelson@ohnstadlaw.com

App. 162
__________
APPENDIX P
__________
Name, Address and Telephone No. of Attorney
Michael D. Nelson
Attorney JD #03457
OHNSTAD TWICHELL, P.C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, NO 58078-0458
(701) 282-3249
Court File No. 09-07-P-l00
Attorney for Personal Representative
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
PERSONAL REPRESENTATIVE'S FORMAL
REQUEST FOR DELIVERY OF POSSESSION AND
CONTROL OF ESTATE REAL PROPERTY
TO: Interested Person Rodney Hogen and his attorney,
Jonathan T. Garaas, of Garaas Law Firm, DeMores
Office Park, 1314 - 23rd Street South, Fargo, ND
58103-3707.
FROM: Steven C. Hogen, as Personal Representative
of the Estate of Arline H. Hogen, Deceased.

App. 163
[¶1] Pursuant to N.D.C.C. § 30.1-18-09, Steven
C. Hogen, as Personal Representative of the Estate of
Arline H. Hogen, Deceased ("PR"), hereby requests
from Interested Person Rodney Hogen ("Rodney"),
delivery of possession and control of all real property of
the Estate of Arline H. Hogen, Deceased ("Estate"),
including but not limited to the real property described
as follows, to-wit:
1.

An undivided 28.5% interest in and to the
Northeast Quarter (NE¼) of Section
Twenty-one (21), EXCEPT the East 572
feet of the South 762 feet of the Northeast
Quarter (NE¼) of Section Twenty-one
(21), Township One Hundred Forty (140)
North of Range Fifty-four (54) West of the
Fifth Principal Meridian, situate in the
County of Cass and the State of North
Dakota, subject to highways, easements
and rights of way of record.

2.

An undivided one-half interest in and to
the Northeast Quarter (NE¼) of Section
Thirty-three (33), in Township One
Hundred Forty (140) North of Range
Fifty-four (54) West of the Fifth Principal
Meridian, situate in the County of Cass
and the State of North Dakota,
EXCEPTING the following-described
tract, to-wit: The East Half of the East
Half of the Northeast Quarter
(E½E½NE¼) of Section 33, Township
140, Range 54, Cass County, North

App. 164
Dakota, subject to highways, easements
and rights of way of record.
3.

An undivided one half interest in and to
the Northwest Quarter (NW¼) of Section
Thirty-four (34), in Township One
Hundred Forty (140) North of Range
Fifty-four (54) West of the Fifth Principal
Meridian, situate in the County of Cass
and the State of North Dakota, subject to
highways, easements and rights of way of
record, EXCEPTING the following tracts,
to-wit:
That part of the Northwest Quarter of
Section Thirty-four, in Township One
Hundred Forty North of Range Fifty-four
West of the Fifth Principal Meridian,
situate in the County of Cass and the
State of North Dakota, described as
follows, to-wit: Commencing at the
Northwest comer of said Northwest
Quarter; thence South 00° 52'48" East,
assumed bearing along the West line of
said Northwest Quarter, a distance of
549.67 feet to the point of beginning of
the tract to be described; thence North
88°54'30" East 388.17 feet; thence South
02051'55" East 548.01 feet; thence South
88°54'23" West 407.1 2 feet to the West
line of said Northwest Quarter; thence
North 00°52'48" West 547.77 feet to the
point of beginning.

App. 165
AND
A tract of land situated in the Northwest
Quarter of Section Thirty-four, Township
One Hundred Forty North of Range Fiftyfour West of the Fifth Principal Meridian,
Cass County, North Dakota, more
particularly described as follows:
Commencing at the Northwest corner of
the Northwest Quarter of said Section
Thirty-four; thence North 89°52'47" East
along the Section line and the North line
of Hogen Subdivision a distance of 708.89
feet to a point; thence South 00°52'47"
East along the East line of Lot One, Block
One, Hogen Subdivision a distance of
537.60 feet to an iron pin at the
Southeast corner of said Lot One, the
point of beginning; thence continuing
South 00°52'47" East a distance of 239.48
feet to an iron pin; thence South 88°38'54"
West a distance of 312.42 feet to an iron
pin on the East line of Lot Two, Block
One, Hogen Subdivision; thence North
02°51'55" West along the East line of said
Lot Two a distance of 241.00 feet to an
iron pin at the Northeast corner of said
Lot Two and on the South line of said Lot
One; thence North 88°54'23" East along
the South line of said Lot One a distance
of 320.69 feet to the point of beginning.
AND

App. 166
Lot One (1), Block One (1), Hogen
Subdivision, Cass County, North Dakota.
4.

An undivided one-half interest in and to
Lot One (1), Block One (1), Hogenl
Subdivision, Cass County, North Dakota.

5.

An undivided one-half interest in and to
the Northwest Quarter (NW¼) and the
South Half of the Southwest Quarter
(S½SW¼) of Section Five (5), Township
One Hundred Forty (140) North of Range
Fifty-six (56) West of the Fifth Principal
Meridian, Barnes County, North Dakota,
and the North Half of the Southwest
Quarter (N½SW¼) of Section Five (5),
Township One Hundred Forty (l40) North
of Range Fifty-six (56) West of the Fifth
Principal Meridian, Barnes County,
North Dakota, subject to existing
highways, easements and rights of way of
record, EXCEPTlNG the following tract,
to-wit: Commencing at the West Quarter
corner of said Section Five (5), Township
One Hundred Forty (140), Range Fifty-six
(56), Barnes County, North Dakota,
thence South 46°01'57" East for a
distance of 945.90 feet to the point of
beginning of said tract of land to be
described; thence East for a distance of
525 feet; thence South for a distance of
550 feet; thence West for a distance of 395
feet; thence South for a distance of 170

App. 167
feet; thence West for a distance of 400
feet; thence North for a distance of 400
feet; thence East for distance of 195 feet;
thence North for a distance of 320 feet;
thence East for a distance of75 feet to the
point of beginning.
The above-described tracts or parcels of real property
are all included in the PR's Second Amended Inventory
and Appraisement (Doc. #499 in the Estate) previously
filed by the PR.
[¶2] Possession and control of the abovedescribed real property is and will be necessary for
purposes of administration of the Estate, in the
judgment of the PR.
[¶3] This Personal Representative's Request
for Delivery of Possession and Control of Estate Real
Property is in addition to the demands made by the PR,
since his appointment, for signed rental agreements
from Rodney and for rental payments for Rodney's
leasing of Estate real property, none of which demands
have been honored by Rodney, at all.
Dated: January 6, 2016.
s/ Steven C. Hogen
______________________
Steven C. Hogen, as Personal
Representative of the Estate of Arline H.
Hogen, Deceased

App. 168
s/ Michael D. Nelson
______________________
Michael D. Nelson
ND ID#03457
Attorney for the Personal Representative,
Steven C. Hogen
OHNSTAD TWICHELL, P .C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, ND 58078-0458
TEL (701) 282-3249
FAX (701) 282-0825
E-mail: mnelson@ohnstadlaw.com

App. 169
__________
APPENDIX Q
__________
Name, Address and Telephone No. of Attorney
Michael D. Nelson
Attorney JD #03457
OHNSTAD TWICHELL, P.C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, NO 58078-0458
(701) 282-3249
Court File No. 09-07-P-l00
Attorney for Personal Representative
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
ORDER FOR SUPERVISED ADMINISTRATION
[¶1] The above-entitled matter came before the
Court on the Personal Representative's request for
supervised administration of the Estate of Arline H.
Hogen in accordance with N.D.C.C. § 30.1-16-02.
[¶2] The Court finds that supervised
administration will be necessary for the protection of
persons interested in the estate, and is otherwise
necessary under the circumstances.

App. 170
[¶3] On the basis of the foregoing,
[¶4] IT IS HEREBY ORDERED that the
administration of the Estate of Arline H. Hogen will be
supervised by the Court.
BY THE COURT:
Signed: 1/11/2016 2:04:59 PM
s/ John C. Irby

App. 171
__________
APPENDIX R
__________
Jonathan T. Garaas
Garaas Law Firm
DeMores Office Park
1314 23rd Street South
Fargo, North Dakota 58103-3796
Telephone: (701) 293-7211
E-mail address: garaaslawfirm@ideaone.net
North Dakota Bar ID #03080
Probate No. 09-07-P-100
Attorneys for Rodney Hogen
IN THE DISTRICT COURT FOR
CASS COUNTY, NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased.
OBJECTION TO THE COURT’S ORDER
GRANTING SUPERVISORY ADMINISTRATION
[¶1] Devisee Rodney Hogen, by and through his
attorney, Jonathan T. Garaas of the Garaas Law Firm,
Fargo, North Dakota, hereby objects to the Court’s
“Order For Supervised Administration” dated January
11, 2016 [Docket ID # 621], that ordered supervised
administration of the Estate of Arline H. Hogen,
Deceased. The grounds for this objection include the

App. 172
following:
[¶2]

A.

Steven Hogen’s power and authority as
personal representative terminated over
two (2) years prior to the “Order for
Supervised Administration” dated
January 11, 2016, when this Court issued
the following orders: Order of October 24,
2013, on Petition for Approval of Final
Account, for Determination of Testacy
Status, and Settlement of Estate under
N.D.C.C. § 30.1-21-01 [Docket Entry
#436]; Amended Order on Petition for
Approval of Final Account, for
Determination of Testacy Status, and for
Settlement of Estate of December 11,
2013 [Docket Entry #490]; and Order of
March 6, 2014, recognizing the Rodney
Hogen was a 50% distributee and his
brother Steven Hogen a 50% distributee
[Docket Entry #506]. Because this Court
issued these orders under authority
provided by N.D.C.C. § 30.1-21-01
[hereinafter emphasized by Rodney
Hogen when applicable], at Steven
Hogen’s invitation, Steven Hogen’s
appointment as personal representative
terminated as a matter of law. N.D.C.C.§
30.1-17-10; “2. An order closing an estate
as provided in section 30.1-21-01 or 30.121-02 terminates an appointment of a
personal representative.” Steven Hogen,
as a personal representative, had “no

App. 173
right and power” to request supervised
administration under N.D.C.C. § 30.1-1602 because his “right and power
pertaining to the office of personal
representative” had previously ended.
See, N.D.C.C. § 30.1-17-08; N.D.C.C. §
30.1-16-02.
[¶3]

B.

Statutorily, supervised administration is
not possible after a final order has been
issued under N.D.C.C. § 30.1-21-01. See
specifically, N.D.C.C. § 30.1-16-01
[“Supervised administration is a single in
rem proceeding to secure complete
administration and settlement of a
decedent's estate under the continuing
authority of the court which extends until
entry of an order approving distribution
of the estate and discharging the personal
representative, or other order
terminating the proceeding. ..”]; and
N.D.C.C. § 30.1-16-05 [“Unless otherwise
ordered by the court, supervised
administration is terminated by order in
accordance with time restrictions, notices,
and contents of orders prescribed for
proceedings under section 30.1-21-01. ..”].

[¶4]

C.

The Order For Supervised Administration
dated January 11, 2016, was irregularly
entered by this Court, and is void [or
voidable] because Rodney Hogen was not
afforded a meaningful opportunity to

App. 174
respond to Steven Hogen’s petition in
violation of Rodney Hogen’s due process
rights guaranteed to him under the
Fourteenth Amendment to the
Constitution of the United States and the
North Dakota Constitution.
[¶5]

D.

[¶6] E.

The Order For Supervised Administration
dated January 11, 2016, was issued
irregularly, and did not comply with the
fourteen (14) day notice requirement “to
interested
persons” as required by
N.D.C.C. § 30.1-03-01 and N.D.C.C. §
30.1-16-02.
Steven Hogen’s Notice of
Petition for Supervised Administration of
January 4, 2016, had identified that the
petition would be heard on February 2,
2016. This Court abused its discretion
when it issued its Order For Supervised
Administration dated January 11, 2016,
because this Court misapplied the law by
not following the procedural requirements
for issuing the subject order. See, State
v. 1998 Jeep Grand Cherokee, 2016 ND 9,
¶ 9, ___N.W.2d ___.
The District Court has already issued its
order, now final after appeal, that
supervised administration was denied
[Docket Entry # 436], and this Court has
no jurisdiction to alter that final
determination which was affirmed on
appeal – it became the “law of the case”

App. 175
under precepts recognized by Riverwood
Commercial Park, L.L.C. v. Standard Oil
Co., Inc., 2007 ND 101, ¶ 12, 729 N.W.2d
101. If not “law of the case”, it would be
governed by res judicata and collateral
estoppel, and that prior decision to deny
supervised administration, now final,
cannot be undone. Id., ¶s 13-21.
[¶7] F.

If there is a possibility of future district
court probate proceedings, the stated
reason for supervised administration
[“avoiding future piecemeal appeals”; ¶ 7
of the Petition for Supervised
Administration] is inadequate, and would
act to deprive interested persons of their
statutorily authorized civil right to appeal
to the North Dakota Supreme Court
[N.D.C.C. § 28-27-02, among other laws]
as actually recognized to exist with
respect to probate matters in Steven
Hogen’s cited case of In re Estate of Hass,
2002 ND 82, ¶ 7, 643 N.W.2d 713, citing
Schmidt v. Schmidt, 540 N.W.2d 605, 607
(N.D. 1995). The District Court should
not affirmatively participate in the denial
of appellate rights.

[¶8] This objection is respectfully submitted this 20th
day of January, 2016.
GARAAS LAW FIRM

App. 176
s/ Jonathan T. Garaas
___________________________
Jonathan T. Garaas
Attorneys for Rodney Hogen
DeMores Office Park
1314 23rd Street South
Fargo, North Dakota 58103-3796
Telephone: (701) 293-7211
E-mail address:
garaaslawfirm@ideaone.net
North Dakota Bar ID # 03080

App. 177
__________
APPENDIX S
__________
Jonathan T. Garaas
Garaas Law Firm
DeMores Office Park
1314 23rd Street South
Fargo, North Dakota 58103-3796
Telephone: (701) 293-7211
North Dakota Bar ID #03080
Probate No. 09-07-P-100
Attorneys for Rodney Hogen
IN THE DISTRICT COURT FOR
CASS COUNTY, NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased.
AFFIDAVIT OF RODNEY HOGEN RESPONDING
TO THE PETITION FOR COMPLETE
SETTLEMENT AND DISTRIBUTION OF THE
ESTATE
State of North Dakota
County of Cass
[¶1] Rodney Hogen, after first being duly sworn,
respectfully testifies as follows:
[¶2]

On March 19, 2010, Personal Representative

App. 178
Steven C. Hogen filed a Petition for Approval of Final
Account, for Determination of Testacy Status and
Settlement of Estate, containing the following
pleadings pertinent to the Personal Representative
present petition:
5.
Petitioner has filed a Final Account
hereto and the estate is in a condition to
be closed.
* * *
14.
This Petition for Approval of Final
Account, for Determination of Testacy
Status and for Settlement of Estate is
made and filed by petitioner under
N.D.C.C. § 30.1-21-01, in formal
proceedings to terminate administration
of the estate, in lieu of the filing of a
sworn statement closing the estate under
N.D.C.C. § 30.1-21-03.
[¶3] On February 15, 2013, Personal Representative
Steven C. Hogen filed a First Amended Petition for
Approval of Final Account, for Determination of
Testacy Status and Settlement of Estate, containing
the following pleading pertinent to Steven Hogen’s
present petition:
14.
This First Amended Petition for
Approval of Final Account, for
Determination of Testacy Status and for
Settlement of Estate is made and filed by
petitioner under N.D.C.C. § 30.1-21-01, in
formal proceedings to terminate

App. 179
administration of the estate, in lieu of the
filing of a sworn statement closing the
estate under N.D.C.C. § 30.1-21-03.
[¶4] No provision within the First Amended Petition
for Approval of Final Account, for Determination of
Testacy Status and Settlement of Estate asked this
Court to delay the termination of Steven C. Hogen’s
appointment as personal representative so that land
could be sold after the final account. There is no
language within said prior petition that Steven C.
Hogen sought the power to lease the farm lands [for
estate purposes] after the approval of his First
Amended Petition for Approval of Final Account, for
Determination of Testacy Status and Settlement of
Estate.
[¶5]
This Court issued its Order on Petition for
Approval of Final Account, for Determination of
Testacy Status, and Settlement of Estate under
N.D.C.C. § 30.1-21-01 on October 24, 2013. Docket
Entry #436. This Court issued its Amended Order on
Petition for Approval of Final Account, for
Determination of Testacy Status, and for Settlement of
Estate on December 11, 2013. Docket Entry # 490.
[¶6] This Court issued its Order of March 6, 2014,
referring to these orders and recognizing your affiant
was a 50% distributee and his brother Steven Hogen a
50% distributee. Docket Entry #506 recognizing what
was originally ordered on October 24, 2013, in Docket
Entry #436. Under Steven Hogen’s petition(s) to settle
the estate under the provisions of N.D.C.C. § 30.1-21-

App. 180
01, the real estate [owned by Arline Hogen at the time
of death] and the “right of retainer” were listed assets
to be distributed to both your affiant, Rodney Hogen,
and Steven Hogen equally.
[¶7] This Court’s concluding Orders do not reserve
jurisdiction to sell the farm lands that devolved upon
your affiant and Steven Hogen, equally, at the time of
the death of their mother through her probated Will.
Neither do this Court’s concluding Orders reserve
jurisdiction to lease the farm lands.
[¶8] The above referenced Orders were affirmed by
the Supreme Court of North Dakota in Estate of
Hogen, 2015 ND 125, 863 N.W.2d 876. In affirming
this Court’s order(s), the Supreme Court recognized
that your affiant’s appeal was from an “order approving
a final accounting and settlement in the probate of the
estate of Arline Hogen.” Estate of Hogen, ¶ 1. The
Supreme Court of North Dakota also determined that
the personal representative’s power and control over
decedent’s property continues no later than the
“termination of the personal representative’s
appointment ..”. Estate of Hogen, ¶s 25 and 26.
[¶9] In ¶ 20 of Estate of Hogen, the Supreme Court of
North Dakota advanced the following concept about a
personal representative’s powers over real estate
during the time of his administration.
The Editorial Board Comment to
N.D.C.C. § 30.1-18-11 (U.P.C. § 3-711),
states:
The personal representative

App. 181
is given the broadest
possible "power over title".
He receives a "power",
rather than title, because
the power concept eases the
succession of assets which
are not possessed by the
personal representative.
Thus, if the power is
unexercised prior to its
termination, its lapse clears
the title of devisees and
heirs. . . . The power over
title of an absolute owner is
conceived to embrace all
possible transactions which
might result in a
conveyance or encumbrance
of assets, or in a change of
rights of possession. The
relationship of the personal
representative to the estate
is that of a trustee.
Bolding supplied by Rodney Hogen for emphasis.
[¶10]
The power to sell your affiant and Steven
Hogen’s inherited lands was not exercised by the
personal representative prior to the Court’s concluding
Order(s) – Orders which have been determined by the
Supreme Court of North Dakota to be a “final account
and settlement in the probate of the estate of Arline
Hogen.” Estate of Hogen, ¶ 1. The Supreme Court of

App. 182
North Dakota’s determination that this Court’s Orders
were final orders settling the estate is the law of this
case. [BOLDING is made for emphasis].
[¶11] Subsequent to the Supreme Court of North
Dakota’s decision in Estate of Hogen, supra., that
affirmed this Court’s orders – issued under N.D.C.C.§
30.1-21-01, and approving the personal representative’s
final account and order for the distribution of 50% to
Steven Hogen and 50% to Rodney Hogen, the Personal
Representative now files a petition that seeks to wrest
possession of real property from the successors by
erroneously claiming that the “Estate” owns the real
estate and that your affiant had no right to alienate his
inherited real estate by transferring remainder rights
to his wife, Susan Hogen, and his daughter, Marby
Hogen.
The Personal Representative’s present
position, expressed within his present petition, is
inconsistent with the clear holdings by the Supreme
Court of North Dakota in the Estate Hogen, supra.,
which is the “law of this case”. The Personal
Representative’s present position, expressed within his
present petition, is also inconsistent with your affiant’s
constitutional right to alienate his property.
[¶12] Your affiant states that remaindermen Susan
Hogen and Marby Hogen are indispensable parties to
any attempt to effectuate a “new ”distribution of the
real estate that varies from this Court’s prior “final”
Order that had been affirmed on appeal.
[¶13] Your affiant further states that the Personal
Representative’s present position [if there is any

App. 183
present jurisdiction to entertain such petition] is unjust
and inequitable for several reasons, including the
following:
A. The Personal Representative has taken
income from my inherited lands, after the death of
Arline Hogen, but has never paid any principal and
interest payments for the mortgages on said lands. I
have been forced to make all principal and interest
payments on mortgage debt even though the personal
representative has taken income from said lands. The
Personal Representative’s First Amended Inventory
and Appraisement reveals the following principal
amounts on mortgages against your affiant and Steven
Hogen’s inherited lands when inventoried: (1)
$90,000.00 on the NE¼ of 21-140-54, Cass County
North Dakota; (2) $60,900.00 on the NE¼ of 33-140-54,
Cass County, North Dakota; (3) and $200,000.00 for
the subject lands in the W½ of 5-140-56, Barnes
County, North Dakota.
The principal of these
mortgages now approximate the following: (1)
$21,414.79 on the NE¼ of 21-140-54, Cass County
North Dakota; (2) $54,303.27 [$22,613.01 + $31,790.26
= $54,303.27] on the NE¼ of 33-140-54, Cass County,
North Dakota; (3) and $63,835.82 for the subject lands
in the W½ of 5-140-56, Barnes County, North Dakota.
Attached to my affidavit, marked Exhibit A, is a
redacted loan inquiry history concerning the mortgage
to First State Bank of North Dakota - Buffalo of the
mortgage on the NE¼ of 21-140-54, Cass County North
Dakota. Attached to my affidavit, marked Exhibit B,
are mortgagee AgCountry Farm Credit Services
transaction history reports showing the principal

App. 184
balances [and some of the interest payments] for the
mortgage loans it has on Cass County and Barnes
County lands. Part of the interest that I have paid
towards the loans is reflected on said Exhibits and
other amounts of interest paid by me are reflected on
my income tax returns – that have been received into
evidence by this Court previously.
B.
The Personal Representative’s present
position is inequitable for he believes I would be
responsible to pay rent for Cass County lands that
exceed the income that the Cass County lands can
produce. Attached to my affidavit, marked Exhibit C,
is redacted Schedule F showing my 2014 “profit” of
$2,916.00 from farming the Cass County lands and all
CRP [lands received from Arline Hogen and Curtiss
Hogen] in 2014. Attached to my affidavit, marked
Exhibits D, is redacted Schedule F showing my 2015
“profit” of $25,442.00 from farming the Cass County
lands and all CRP [lands received from Arline Hogen
and Curtiss Hogen] in 2015. In crop year 2014, for just
the lands inherited from Arline Hogen, Steven Hogen
believes that this Court [without trial] can impose a
contract upon me – a contract never agreed to by me –
in an amount for rent that exceeds my actual income
from all the land [inherited from Arline Hogen or
Curtiss Hogen] by over $17,262.16 [$2,916.00 actual
income less $19,890.50 request rent less CRP of
$288.00 less CRP of $1,607.00 = negative $17,262.16].
Steven Hogen advocates the same in the Trust action
[involving Curtiss A. Hogen Trust] so that the inequity
to me is more than doubled. In crop year 2015, for just
the lands inherited from Arline Hogen, Steven Hogen

App. 185
believes that this Court [without trial] can impose a
contract upon me – a contract never agreed to by me –
in an amount for rent and CRP that totals $17,791.64
which would leave me only with $7,650.36 in profits
[$25,442.00 income less $17,791.64 = $7,650.36] from
my labors in 2015. Since Steven Hogen advocates the
same position in the Trust case [involving Curtiss A.
Hogen Trust B], he advocates I have no profit in 2015
from my labors.
Steven Hogan wants more from
rentals [for alleged Estate property and alleged Trust
property] than the land produced in farm income for
that year. This would be slavery.
C.
This Court has issued its order that this
matter should not be consolidated with the Trust
action, yet Steven Hogen’s proposals contemplate
consolidation.
D.
There has been no meaningful trial, or
hearing, in these proceedings concerning the factual
issues raised by Steven Hogen’s petition. This Court
would act inequitably [and respectfully submitted,
without any authority in law] if it would take
testimony from a trial in another action, and impose a
contract upon your affiant based upon that testimony.
s/ Rodney Hogen
_________________________
Rodney Hogen
Subscribed and sworn to this 7th day of February, 2017.
s/ David Garaas & seal

App. 186
_________________________
Notary Public

App. 187
__________
APPENDIX T
__________
Jonathan T. Garaas
Garaas Law Firm
DeMores Office Park
1314 23rd Street South
Fargo, North Dakota 58103-3796
Telephone: (701) 293-7211
North Dakota Bar ID #03080
Probate No. 09-07-P-100
Attorneys for Rodney Hogen
IN THE DISTRICT COURT FOR
CASS COUNTY, NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased.
[¶1]

OBJECTION TO PROCEEDINGS

[¶2] Rodney Hogen hereby objects to any proceedings
inconsistent with execution, delivery, and recordation
of any necessary deeds of distribution consistent with
the Last Will and Testament of Arline H. Hogen,
Deceased.
[¶3] Steven Hogen, and his counsel, seek judicial
approval for further violation of Due Process of Law,
and in particular, legal principles made clear by In re
Estate of Cashmore, 2010 ND 159, 787 N.W.2d 261

App. 188
(Cashmore I), and/or In re Estate of Cashmore, 2013
ND 150, 836 N.W.2d 427 (Cashmore II).
[¶4] Following formal proceedings always invoked by
Petitioner Steven Hogen [2010 Docket Entry #12:
“This Petition for Approval of Final Account, for
Determination of Testacy Status and for Settlement of
Estate is made and filed by petitioner under N.D.C.C.
§ 30.1-21-01, in formal proceedings to terminate
administration of the estate, in lieu of filing of a sworn
statement closing the estate under N.D.C.C. § 30.1-2103.”; also, 2013 Docket Entry #197: “This First
Amended Petition for Approval of Final Account, for
Determination of Testacy Status and for Settlement of
Estate is made and filed by petitioner under N.D.C.C.
§ 30.1-21-01, in formal proceedings to terminate
administration of the estate, in lieu of the filing of a
sworn statement closing the estate under N.D.C.C. §
30.1-21-03"], always seeking the statute’s objective –
“complete settlement of the estate”; N.D.C.C. § 30.1-2101 entitled “Formal proceedings terminating
administration – Testate or intestate – Order of
general protection”. Following remand by the North
Dakota Supreme Court for recalculation of the
retainer, and known to have been fully accomplished by
“Order for Entry of Second Amended (On Remand)
Order on Petition for Approval of Final Account, For
Determination of Testacy Status, and For Settlement
of Estate” dated October 1, 2015 [Docket Entry #571;
filed October 6, 2015; Notice of Entry of Second
Amended (On Remand) Order on Petition for Approval
of Final Account, For Determination of Testacy Status,
and For Settlement of Estate noted as Docket Entry

App. 189
#572 on October 6, 2015], no appeal was thereafter
taken by any party.
[¶5] Pursuant to N.D.R.App.P. 4(a), any notice of
appeal required by Rule 3 must have been filed with
the clerk of the supreme court within 60 days from
service of notice of entry of the judgment or order being
appealed. In the absence of timely appeal, the probate
court case was completely settled as a matter of law –
it is now “final”.
[¶6] Steven Hogen’s authority as Personal
Representative ended on October 24, 2013, as a matter
of law, when the Court signed its “Order on Petition for
Approval of Final Account, for Determination of
Testacy Status, and for Settlement of Estate”. Docket
Entry #436. Should there be argument as to that date
[the personal representative has the designation only
authorizing him to wind up the estate by
signing/delivering appropriate deeds of distributions,
etc.] because of the Court’s error in computing the
retainer, then October 1, 2015, becomes the last
possible date – the date the Court entered its final
order authorized by the remand, which was never
appealed. Docket Entry #571. Summarized, the
formal proceedings under section 30.1-21-01, initiated
by Steven Hogen in 2010, and decided in 2013 [and,
following remand, resulting in a 2015 order never
appealed], resulted in the termination of his
statutory/judicial authority in 2013 because N.D.C.C.
§ 30.1-17-10(2) provides: “An order closing an estate as
provided in section 30.1-21-01 or 30.1-21-02 terminates
an appointment of a personal representative.” The

App. 190
Court’s “Order on Second Amended Petition for
Approval of Final Account and Rule 54(b) Certification”
[Docket Entry #506] which clearly established “Rodney
Hogen, a 50% distributee, (and) Steve Hogen, .. also a
50% distributee” was appealed by Rodney Hogen; had
Steven Hogen desired to contest the distribution on a
50/50 basis or the termination of his authority in 2013
(termination as a matter of law invited by lawful
petition), he certainly could have cross-appealed as to
those issues, but chose not to do so. The Supreme
Court’s decision “approving a final accounting and
settlement in the probate of the estate of Arline Hogen”
[In re Estate of Hogen, 2015 ND 125, ¶ 1, 863 N.W.2d
876, is also final. The right to a 50% distribution is
final, and it would be the law of the case. Riverwood
Commercial Park, L.L.C. v. Standard Oil Co., Inc.,
2007 ND 36, ¶ 12, 729 N.W.2d 101. The lower court is
without jurisdiction to alter that final judgment, and if
there ever proves to be subsequently discovered “other
property of the estate”, it also must be distributed
50/50 – consistent with law and two (2) Wills – Curtiss
A. Hogen’s Will and Arline H. Hogen’s Will if either
decedent had other property later discovered.
[¶7] Under N.D.C.C. § 30.1-21-08, subsequent
administration is generally never possible unless
“other property of the estate is discovered after an
estate has been settled”, and the subsequent
administration would only involve “the subsequently
discovered estate”; HOWEVER, there also exists a
massive prohibition precluding any further judicial
oversight – “no claim previously barred may be
asserted in the subsequent administration.” N.D.C.C.

App. 191
§ 30.1-21-08.
[¶8] Simply put, no new property has ever been
identified to exist except possibly, the cash rental
amount(s) now on deposit actually belonging to Steven
Hogen and Rodney Hogen resulting from judicial overreaching initiated by Steven Hogen’s illegal January 4,
2016, Petition for Supervised Administration [Docket
Entry #596] improvidently authorized ex parte and in
violation of due process of law by Order for Supervised
Administration dated January 11, 2016 [Docket Entry
#621], and no claims against said deposited funds are
possible due to statutes of limitations. See, N.D.C.C. §
30.1-19-03(2); In re Estate of Hogen, 2015 ND 125, ¶
29-30, 863 N.W.2d 876; N.D.C.C. § 30.1-21-06(1) [three
years after decedent’s death]; N.D.C.C. § 30.1-21-06(2)
[one year after the time of distribution].
[¶9] Due to clearly pertinent legal discussion(s),
Rodney Hogen attaches his Brief Supporting Rodney
Hogen’s Petition to Restrain Personal Representative
and Rodney Hogen’s Response to Motion for Cashmore
Bifurcation Order [Docket Entry #584], marked Exhibit
A, and incorporated by reference.
[¶10] Rodney Hogen’s property [lease payments]
remains under control of a personal representative
without statutory authority, and court order without
jurisdiction. Rodney Hogen requests that he be
provided appropriate judicial relief, to include
reasonable attorney fees, costs, and disbursements as
allowed by law. The legal theories, and factual
presentation of Rodney Hogen as set forth in his

App. 192
Affidavit [Affidavit of Rodney Hogen Responding to the
Petition for Complete Settlement and Distribution of
the Estate; Docket Entry #680] are hereby incorporated
by reference.
Dated this 27th day of February, 2017.
GARAAS LAW FIRM
s/ Jonathan T. Garaas
___________________________
Jonathan T. Garaas
Attorneys for Rodney Hogen
DeMores Office Park
1314 23rd Street South
Fargo, North Dakota 58103
Telephone: (701) 293-7211
E-mail address:
garaaslawfirm@ideaone.net
North Dakota Bar ID # 03080

App. 193
__________
APPENDIX U
__________
Name, Address and Telephone No. of Attorney
Sara K. Sorenson
Attorney ID #05826
OHNSTAD TWICHELL, P.C.
901 - 13th Avenue East
P.O. Box 458
West Fargo, NO 58078-0458
ssorenson@ohnstadlaw.com
(701) 282-3249
Court File No. 09-07-P-l 00
Attorney for Petitioner Steven C. Hogen
IN THE DISTRICT COURT OF CASS COUNTY,
STATE OF NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased
PETITION FOR DISCHARGE OF PERSONAL
REPRESENTATIVE
[¶1 ] This Estate is supervised. In order for the
Estate to be closed in a supervised administration, the
Court is required to do the following: (1) approve the
distribution of the estate;
and (2) discharge the personal representative. See
Matter of Estate of Starcher. 447 N. W.2d 293, 296
(N.D. 1989). This petition requests a discharge of the

App. 194
Personal Representative because the Estate will or has
been distributed in accordance with the previous
Orders in this matter.
[¶2] The balance of the Estate remaining in
the possession of the Personal Representative for
distribution pursuant to the previous Orders in this
matter, has been paid out and distributed (or held in
Trust for distribution) in accordance with such
previous Orders and as set forth in the following
paragraphs.
[¶3] The Court previously approved the sale of
estate property to pay mortgages and other monetary
liens, court-ordered attorney's fees and costs, and
payments to the devisees to make an equal
distribution. (Order on Petition for Complete
Settlement and Distribution of Estate, Index # 702, ¶
14.)
[¶4] In order to sell the property to pay for
debts incurred, the Court previously approved the
allocation of the real property between Steven and
Rodney as set forth in the following table:
Estate

Trust

Steven

1 Grandma'
s Quarter
$81,624 $204,776 $286,400
(NE¼Sec
t. 21)

Rodney

App. 195
2

3

West
Home
Quarter
(NE¼
Sect. 33)

$116,350 $116,350

$232,700

East
Home
Quarter
(NW¼
Sect. 34)

$143,805 $143,805

$287,610

$50,000 $50,000

$100,000

4 Farmstea
d
5

North/So
uth
Oriska
Quarters
(Barnes)

6

Missile
Site
(Barnes)

T
o
t
a
l

$283,9
77

$567,9
54

$283,977 $6,400

$6,400
$620,3
10

$805,308 $860,754

[¶5] The Estate property is equalized between
the two devisees as follows:

App. 196
Estate Real
Property to
Steven
(Estate's share
of#l and #5,
above)

$365,601.00

Estate Real
Property to
Rodney
(Estate's share
of #2, #3,
#4,above)
Estate
checking
account cash to
Steven

$310,155.00

$1,939.52
FN#1

Unpaid
Rent/CRP
Owing Estate
as Determined
by Court

109,619.82
FN#2

Unpaid
Rent/CRP
Owing Estate
for Years 2014,
2015, and 2016

$55,379.73
FN#3

TOTALS

$367,540.52

$475,154.55

App. 197
Amount Owing
to Steven from
Rodney for
Equal
Distribution

$53,807.02

($53,807.02)

$421,347.54

$421,347.54

FN#1: This amount is detailed on Exhibit 1 to this
Petition as the amount maintained in the Estate
checking account. The amount detailed on Exhibit 1 is
a continuation of the "Record of Receipts and
Disbursements" as previously set forth in the Court
record at Index # 673.
FN#2: On remand, the Court in the Estate determined
that $116,308.00 was owed by Rodney in a right of
retainer claim, for unpaid rent and CRP, plus interest.
(Index # 571, ¶ 8, Estate of Arline Hogen, Case No. 0907-P-1OO). This amount became law of the case due to
the appeal. Nonetheless, Steven Hogen agrees that this
amount erroneously contains an extra $6,688.18 for an
unaccounted-for crop-share deposit, and this amount is
subtracted from the Court-ordered amount of $116,308,
to yield a net amount of $109,619.82.
FN#3: This amount is per the Court's decision (Index
# 702, ¶ 9.)
[¶6] The real property allocated to Rodney and
a portion of the real property allocated to Steven had to
be sold to pay for amounts owing from the Estate, and
the proceeds of the sales should be distributed as

App. 198
follows:

App. 199

DISBURSEMENT OF ESTATE CASH
STEVEN

RODNEY

Gross proceeds from
sale of real property
FN#4
$182,253.75 $651,363.50
*Footnotes 4-16 at back
of Petition as endnotes
Less: Rent owned to
buyer minus real estate
taxes FN#5

(4,52] .65)

$(10,885.73)

Less: Commission to
auctioneer (4%)FN#6

$ (7,290.15)

$(26,054.54)

Less: Sales expenses
FN#7

$ (570.06)

$ (570.06)

Less: Survey expense

$ (1,221.97)

$

0.00

Less: Abstract updates $ (815.49)

$ (725.00)

Less: Title
opinions/closing fee

$ (119.12)

$ (450.00)

Less: Deed
preparation/document
preparation

$

$ (40.00)

Less: Recording
mortgage
satisfactions/other
documents

$ (27.49)

0.00

75.00)

App. 200

Net Proceeds from land
$167,687.83 $612,563.17
sale
Cash amounts to
Steven from Rodney
FN#8

$ 53,807.02

Estate Income to
Steven and Rodney
FN#9

$ 11,190.79

Less: Mortgage payoffs
$ (3,216.84)
FN#10
Less: Approved
fees/costs FN#11

(53.807.02)

$ 11,190.79

$(131,923.38)

$(129,942.16) $(129,942.16)

Less: Adjustment for
interest on amounts
$ 20,214.23
owed by Rodney FN#12

$(20,214.23)

Less: Cass Rural
Water Charges owed by $
Rodney FN#13

$ (39.65)

39.65

Preliminary cash
allocation prior to
deduction for unpaid
fees/costs and future
expenses

$119,780.52 $ 287,827.53

Less: Cash withheld
for preparation of
Estate tax returns

$ (2,500.00) $ (2,500.00)

App. 201

Less: Cash payment
of attorney’s fees
$(25,000.00) $(225,000.00)
and costs
FN#14
Less: Cash withheld
for fees/future expenses
FN#15
TOTAL CASH
PAYABLE FROM
ESTATE:

$(23,000.00)

$ 92,280.52 $ 37,327.53

[¶7] Steven Hogen has consulted with a CPA
to prepare the final tax returns for the Estate and
Trust, and the CPA has estimated the fees for the
preparation of the Estate/Trust tax returns and
calculation of basis in conjunction therewith, to be
$8,000-$10,000, of which one-half ($5,000) is allocated
to the Estate (with the remaining one-half to the Trust,
and the one-half allocated to the Estate is split between
Steven and Rodney.
[¶8] Counsel for Steven Hogen has prepared
an affidavit outlining the attorney fees and costs
incurred by the Personal Representative since the last
fee application in this matter, and that affidavit is filed
contemporaneously herewith.
A.

Distribution to Rodney Hogen

[¶9]

As set forth in the previous table, the real

App. 202
estate in the Estate allocated to Rodney Hogen was
sold to pay for: (1) personal debts of Rodney Hogen, (2)
an allocation to Steven Hogen to make the distribution
between Steve Hogen and Rodney Hogen equal, (3)
interest owing by Rodney Hogen to the Estate on
amount previously determined owing the Estate; and
(4) and administrative expenses of the Estate. The
Settlement Statements showing the proceeds of the
sale are set forth on Exhibits 5 and 6.
[¶10] Personal debts of Rodney Hogen. As set
forth in the table above and footnote 10, Steven Hogen,
as the Personal Representative, has distributed Estate
cash on behalf of Rodney to pay off personal loans with
AgCountry Farm Credit Services and First State Bank
of Buffalo.
[¶11] Allocation to Steven Hogen to make the
distribution between Steven Hogen and Rodney Hogen
equal. From the proceeds of the sale, and as set forth in
paragraph 5, the amount of $53,807.02 was subtracted
from the distribution to Rodney Hogen and distributed
to Steven Hogen to make the allocation between them
equal.
[¶12] Interest owing by Rodney Hogen to the
Estate. Rodney Hogen owes interest on amounts
previously ordered by the Court in this matter. The
amount of $109,619.82 was owing on unpaid rents as of
November 1,2013. See footnote 2, above. Interest on
this amount from November 1, 2013, until July 20,
2018, was calculated at the rate of 6% as set forth on
Exhibit 4. The Court previously determined that rents

App. 203
owing for 2014, 2015, and 2016, without interest,
totaled $55,379.73 as calculated by the personal
representative. (Order on Petition for Complete
Settlement and Distribution of Estate, Index # 702, ¶
9.) The Court determined that interest at 6% per year
will be allowed on each component of that total. (Id.)
[¶13] The amount determined by the Personal
Representative for the years 2014, 2015, and 2016, is
as follows. (Petition for Complete Settlement and
Distribution of Estate, Index #668, ¶ 6.) The amount of
$21,785.17 was owing in unpaid rents as of November
1, 2014. Interest on this amount from November 1,
2014, until July 20,2018, was calculated at the rate of
6% as set forth on Exhibit 4. The amount of $17,791.31
was owing on unpaid rents as of November 1,2015.
Interest on this amount from November 1,2015, until
July 20, 2018, was calculated at the rate of 6% as set
forth on Exhibit 4. The amount of $15,802.26 was
owing on unpaid rents as of November 1,2016. Interest
on this amount from November 1, 2016, until July 20,
2018, was calculated at the rate of 6% as set forth on
Exhibit 4. One-half of the total interest amount,
$20,214.23, is subtracted from Rodney's share and
added to Steven's share to make the distributions to
them equal.
[¶14] Administrative Expenses of the Estate.
Administrative expenses were subtracted from the cash
held in the IOLTA Trust account for the Estate account
as detailed on Exhibit 3. In addition, one-half of the
unpaid attorney's fees and costs, previously approved
by the Court, are withheld from Rodney's share, as

App. 204
further detailed above and in footnote 11.
[¶15] Without authority, Rodney allowed a
tenant, Leroy Cromwell, to occupy the Farmstead
owned by the Estate. An eviction action was required
to evict Leroy Cromwell. Mr. Cromwell indicated that
he paid rent to Rodney, but this amount was never
paid to the Personal Representative. In addition, the
tenant failed to pay certain utility bills at the
Farmstead, including $79.30 to Cass Rural Water,
which became due and owing by the Estate. One-half
of the Estate's share of this expense is subtracted from
Rodney's share and added to Steven's share to make
the distribution to Steven and Rodney equal.
[¶16] The remaining amount of cash allocated to
Rodney from the Estate after the payment of the
amounts detailed above equals $287,827.53. The
personal representative proposes that $2,500 of this
amount be withheld from Rodney's share for the
payment of the final Estate tax return. A similar
amount would be withheld from Steve's share.
[¶17] Attorney's fees and costs. Prior to the
remand of the first appeal in this matter (which
remand happened on May 27, 2015) and following the
Court's last award of fees and costs in this matter,
which was through October 29, 2013, the time spent by
the Personal Representative's attorneys at the hourly
rate applicable to those charging time on this matter,
totaled $97,037.00, as further detailed on the Affidavit
in Support of Petition for Discharge of Personal
Representative. During this same time period, the

App. 205
amount of $1,614.68 in costs was incurred, for total
fees and costs of $98,651.68.
[¶18] This Court has previously held that the
"personal representative's attorney's fees and costs
following the remand of this matter by the Supreme
Court are awarded against Rodney Hogen and Rodney
Hogen's distribution of the Estate rather from the
Estate as a whole." (Order on Petition for Complete
Settlement and Distribution of Estate, Index # 702, ¶
9.) Following the remand of this matter on May 27,
2015, the time spent by the Personal Representative's
attorneys at the hourly rate applicable to those
charging time on this matter, totaled $166,516.50, as
further detailed on the Affidavit in Support of Petition
for Discharge of Personal Representative. During this
same time period, the amount of $1,660.62 in costs was
incurred, for total fees and costs of $168,177.12. It is
anticipated that Rodney will appeal any decision in
this matter, and it is estimated that $20,000 in fees
and costs will be expended for any appeal.
[¶19] In addition, following the remand in this
matter, in June 2017, the Personal Representative was
served with the Summons and Complaint in a Barnes
County, North Dakota, lawsuit seeking to quiet title to
all real estate commonly owned by the Estate and the
Curtiss Hogen Trust B. The lawsuit was brought by
Marby Hogen and Susan Hogen, (respectively Rodney
Hogen's daughter and wife), whose claims were
purportedly based upon the Quit Claim Deeds signed
by Rodney Hogen as described in the Court's Order of
April 3, 2017, at paragraph 5. That lawsuit was filed as

App. 206
Barnes County District Court File No. 02-2017-CV 00116. The plaintiffs were represented by the same
attorney and law firm that represented Rodney Hogen
throughout these proceedings. Lis Pendens was again
filed against all of the real estate owned by the Estate.
See, Barnes County Document No. 285453 and Cass
County Document No. 15117l7.
[¶20] The Barnes County lawsuit, and the
related Lis Pendens filings, clouded the title to the real
estate being administered by the Personal
Representative and potentially jeopardized the already
announced auction sale of several parcels of real estate
necessary for administration of this Estate as directed
by the Court. As a result, considerable legal work and
expense was necessarily incurred by the Personal
Representative to release and remove the Lis Pendens,
Answer and defend the lawsuit, and, ultimately, obtain
Judgment dismissing the plaintiff's claims (Barnes Dkt
#90).
[¶21] The Barnes County plaintiffs have
appealed the dismissal of their claims. The North
Dakota Supreme Court file number is 20180143. The
Brief of Appellants was served on June 19,2018. The
Appellee's Brief was served on July 18,2018. It is
anticipated that additional legal work and expense will
be required to argue the Personal Representative's
position before the North Dakota Supreme Court.
[¶22] The time spent by the Personal
Representative's attorneys at the hourly rate
applicable to those charging time on this matter

App. 207
related to the Barnes County action along with the outof-pocket costs, totaled $61,129.26, as further detailed
on the Affidavit in Support of Petition for Discharge of
Personal Representative. It is anticipated an additional
$3,000 in legal fees and expenses will be incurred on
the appeal.
[¶23] The Personal Representative was also
required to evict a tenant of the homestead following
the sale of the property. Prior to the eviction hearing in
April 2018, the tenant, LeRoy Cromwell, neither paid
rent to the Personal Representative or obeyed his
instructions to leave the property.
[¶24] Two separate eviction proceedings were
necessary as the tenant testified he had been regularly
paying monthly rent of $400/$450 to Rodney Hogen,
who had not asked him to vacate the premises. If true,
this appears to contravene ¶4 of this Court's Order of
April 3, 2017. These Cass County District Court
eviction proceedings may be found as files #09-2017 CV -02802 and 09-2018-CY-01059. Rodney Hogen has
not accounted to the Personal Representative for any
monthly rents received from this tenant.
[¶25] The time spent by the Personal
Representative's attorneys at the hourly rate
applicable to those charging time in the Barnes County
action along with the out-of-pocket costs for this
matter, totaled $10,788.59 as further detailed on the
Affidavit in Support of Petition for Discharge of
Personal Representative.

App. 208
[¶26] All of the legal fees and expenses itemized
regarding the Barnes County lawsuit and the evictions
are attributable to the unjustifiable conduct of Rodney
Hogen and should be charged exclusively against his
share of the estate proceeds.
[¶27] Of the amount of fees expended prior to
the remand, the Personal Representative proposes that
a total of $50,000 in fees and costs be approved and
one-half be withheld each from Steven and Rodney
Hogen. Of the amount of fees expended following
remand, the Personal Representative proposes that
$200,000 be withheld from Rodney's share of the
Estate, to include the attorney's fees and costs for the
Barnes County action and the eviction. FN#16
[¶28] Steven Hogen proposes to hold $23,000 in
remaining cash amounts to be distributed to Rodney
Hogen in trust until such time as the appeal period
runs and/or any appeal in this matter and the Barnes
County case are finally determined.
A.

Distribution to Steven Hogen

[¶29] As set forth above, a portion of the real
estate in the Estate allocated to Steven Hogen was sold
to pay for: (1) a personal debt of Rodney Hogen to First
State Bank of which Steven Hogen agreed to pay for
one-half because the proceeds were used to invest into
Red Trail Vineyards, of which Steven Hogen has a onehalf interest; and (2) administrative expenses of the
Estate. The Settlement Statement showing the
proceeds of the sale are set forth on Exhibit 7.

App. 209
[¶30] Personal debt of Rodney Hogen to First
State Bank. As set forth in the table above and footnote
10, Steven Hogen, as the Personal Representative, has
distributed Estate cash on behalf of Steven to pay off
Rodney's personal loan with First State Bank of
Buffalo, half of which Steven Hogen agreed to pay from
his Trust and Estate distributions.
[¶31] Administrative Expenses of the Estate.
Administrative expenses were subtracted from the cash
held in the IOLTA Trust account for the Estate account
as detailed on Exhibit 3. In addition, one-half of the
unpaid attorney's fees and costs, previously approved
by the Court, are withheld from Steven's share, as
further detailed above and in footnote 11.
[¶32] The remaining real estate not sold, which
was allocated to Steven Hogen, is the remaining
portion of the North/South Oriska Quarters and
Grandma's Quarter. Both parcels will be deeded to
Steven Hogen.
[¶33] The amount of $l ,939.52, which consists
of the proceeds in the Estate checking account, as
detailed in Exhibit 1, has been distributed to Steven
Hogen. The remaining amount of cash allocated to
Steven from the Estate after the payment of the
amounts detailed above equals $119,780.52. The
Personal Representative proposes that $2,500 of this
amount be withheld from Steven's share for the
payment of the final Estate tax return, and $25,000 for
attorney's fees and costs prior to the remand. The
Personal Representative proposes the balance,

App. 210
$92,280.52, be distributed to Steven Hogen.
[¶34] WHEREFORE, Steven Hogen prays that
the Court:
[¶35] Fix a time and place for a hearing on this
Petition;
[¶36] Enter an order approving the
distributions and disbursements as set forth herein;
[¶37] Enter an order approving Steven Hogen's
attorney's fees and expenses and allocating such fees
and expenses as set forth herein;
[¶38] Enter an order formally discharging the
Personal Representative, but staying such order until
the appeal period runs in this matter or until this
matter is finally resolved following an appeal; and
[¶39] Grant such other and further relief as
may be proper.
[¶140]
Under penalties for perjury, I
declare or affirm that I have read this document and I
know or believe its representations are true and
complete.
s/ Steven C. Hogen 7/23/18
_______________________date
4.
Based upon the allocation of real estate
between the parties, the division of the respective gross

App. 211
sales proceeds is noted. The sales proceeds are more
than the date of death values.
To Steven - "North/South Oriska Quarters" - Sale Price
- $364,507.50 (½ Estate, ½ Trust)
The total to Steven of the Estate real estate proceeds
allocated to him is ½ of the sales proceeds for the South
Oriska Quarter of $182,253.75. Only a portion of the
South Oriska Quarter (111.3 acres) was sold at
$3,275/acre. The "North/South Oriska Quarters" as
referenced herein are more fully described in the
Second Amended Inventory and Appraisement at page
4, paragraph 5. (Index # 499.) The remaining portion
of the North/South Oriska Quarters not sold will be
conveyed to Steven Hogen.
To Rodney - "West Home Quarter" - Sale Price $564,000.00 (½ Estate, ½ Trust)
To Rodney - "East Home Quarter" - Sale Price $678,727.00 (½ Estate, ½ Trust)
To Rodney - "Farmstead" - Sale Price - $60,000.00 (½
Estate, ½ Trust)
The total to Rodney of the Estate real estate proceeds
allocated to him is one-half of the sales proceeds for the
West Home Quarter, East Home Quarter, and
Farmstead, since the Estate only owns one-half of
these items. (One-half of ($564,000.00 + $678,727.00 +
$60,000.00)) for a total of $651,363.50.
The "West Home Quarter" as referenced herein is more
fully described in the Second Amended Inventory and

App. 212
Appraisement at page 2, paragraph 2. (Index # 499.)
The "East Home Quarter" as referenced herein is more
fully described in the Second Amended Inventory and
Appraisement at pages 2-3, paragraph 3. (Index # 499.)
The "Farmstead" as referenced herein is more fully
described in the Second Amended Inventory and
Appraisement at page 4, paragraph 4. (Index # 499.)
5.
The purchase agreements for the sale
required the buyers to pay the 2017 taxes and to
receive the 2017 rent. Because of the delay in the sale,
the Estate paid the taxes and received the rent. Thus,
the net amount of the taxes less the rent was returned
to the buyer. For the property allocated to Steven, a
total of $9,565.94 was returned to the buyer. The
Estate's portion of this amount is $4,521.65. For the
property allocated to Rodney, $21,771.46 was returned
to the buyer. The Estate's portion is $10,885.73. The
calculation of these amounts is more fully set forth on
Exhibit 2.
6.
This amount is 4% of the gross proceeds
from the sale.
7.
The total amount of sales expenses is
$2,280.25 for advertising. Half of this amount
($1,140.13) is allocated to the Estate, and half of the
amount allocated to the Estate is split evenly between
Steven and Rodney.
8.
This is the amount calculated in
paragraph 5 above as Amount Owing to Steven from
Rodney for Equal Distribution.

App. 213
9.
This amount is the amount remaining
from the income to the Trust after the payment of
expenses as detailed in Exhibit 3, and it is split evenly
between Steven and Rodney.
10.
Encumbrances against Estate/Trust real
property allocated to Rodney:
AgCountry Farm Credit Services - $257,413.07
was paid ($250,288.07 was paid from the closing plus
$3,562.50 was paid from the Estate trust account and
$3,562.50 was paid from the Trust trust account due to
an assignment of rents).
*One-half of the total payoff is included in the
estate distribution and one-half of the payoff is
included in the trust distribution as the real property
was owned equally by the estate and trust.
First State Bank of ND - $22,574.33 was paid
($11,720.38 was paid from the proceeds of the closing
plus $5,426.97 was paid from the Trust and $5,426.98
was paid from the Estate due to an assignment of
rents)
*Between the Trust and Estate, 71.5% of this
amount is allocated to the Trust because it encumbers
"Grandma's Quarter" which is owned 71.5% by the
Trust, and the remaining 28.5% is owned by the
Estate. Thus, $6,433.68 is allocated to the Estate. The
First State Bank of ND mortgage is allocated equally
to Steven and Rodney in the Estate and Trust as it was
taken out in order to invest the funds into Red Trail

App. 214
Vineyards. "Grandma's Quarter" as referenced herein
is more fully described in the Second Amended
Inventory and Appraisement at page 1, paragraph 1.
(Index # 499.)
11.
The Court approved a total of $333.272.23
in fees and costs prior to the first appeal in this matter.
(Index #505, ¶ 15.). At the time of this approval,
$46,105.50 had been paid in fees and $1,334.42 had
been paid in costs. Since that time, approved costs to
Bradley Business Advisors in the amount of $24,925
was paid from the Estate checking account (the
remaining amount owed to Bradley Business Advisors
of $1O,OOO was advanced by Ohnstad Twichell, P.C.).
In addition, the amount of $1,023 in the Estate IOLTA
account was applied to costs. Thus, the amount that
remained to be paid to Ohnstad Twichell, P.C., and
that was approved by the Court prior to the first appeal
in this matter is $259,884.31 ($333,272.23-$46,105.50$1 ,334.42-$24,925.00-$1,023.00). Half of this amount,
$129,942.15 is allocated each to Steven and Rodney.
12.
Interest at the rate of 6% until July 20,
2018, is calculated on the amounts determined owing
from Rodney as set forth in Exhibit 4.
13.
The Estate and Trust were required to
pay a bill of $79.30 to Cass Rural Water because
Rodney allowed a tenant to live on the Farmstead after
the Court ordered that Rodney was not allowed to
interfere with Steven Hogen's possession of the
Farmstead.

App. 215
14.
Round numbers resulted from a discount
applied by Ohnstad Twichell, P.C., against larger
numbers shown on billing records. See, Affidavit in
Support of Petition for Discharge of Personal
Representative, ¶18.
15.
See, Affidavit in Support of Petition for
Discharge of Personal Representative, ¶¶8, 18, and 19.
16.

See, footnote 14, supra.

App. 216
__________
APPENDIX V
__________
Jonathan T. Garaas
Garaas Law Firm
DeMores Office Park
1314 23rd Street South
Fargo, North Dakota 58103
Telephone: (701) 293-7211
E-mail address: garaaslawfirm@ideaone.net
North Dakota Bar ID #03080
Probate No. 09-07-P-100
Attorneys for Rodney Hogen, Susan Hogen
and Marby Hogen
IN THE DISTRICT COURT FOR CASS COUNTY,
NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased.
DECLARATION OF INTERESTED PERSONS
VOIDING THE ALLOCATION, PARTITION, SALE,
ENCUMBRANCE OF REAL PROPERTY ONCE
OWNED BY THE DECEDENT
AND
PETITION OF INTERESTED PERSONS FOR
ORDER VOIDING PERSONAL
REPRESENTATIVE’S ALLOCATION, PARTITION,

App. 217
SALE OR ENCUMBRANCE OF REAL PROPERTY
ONCE OWNED BY THE DECEDENT [OR ORDER
CONFIRMING THE DECLARATION OF
INTERESTED PERSONS VOIDING THE
PERSONAL REPRESENTATIVE’S
TRANSACTION(S)]
AND
PETITION OF INTERESTED PERSONS TO
VACATE THIS COURT’S ORDER OF APRIL 3, 2017
[¶1] Without doubt, Steven C. Hogen originally
sought in 2010, and then obtained in 2014, a formal
order closing the estate pursuant to N.D.C.C. § 30.1-2101 which “terminates an appointment of a personal
representative.” N.D.C.C. § 30.1-17-10(2). To set the
stage for Petitioners’ positions set forth hereafter,
Petitioners implore the court first examine N.D.C.C. §
30.1-17-08 which specifically provides “(t)ermination
ends the right and power pertaining to the office of
personal representative as conferred by this title or any
will ..” The Editorial Board Comments to the latter
statute notes (1) “(t)ermination” “provides definiteness
respecting when the powers of a personal
representative (who may or may not be discharged by
court order) terminate”, and (2) “that ‘termination’ is
not ‘discharge’. However an order of the court entered
under section 30.1-21-01 .. both terminates the
appointment of, and discharges, a personal
representative.” After 2014, Steven C. Hogen cannot
lawfully claim the status of personal representative,
nor lawfully act as personal representative, and

App. 218
Petitioners respectfully show the court as follows:
[¶2] 1.
estate.

Petitioners are persons interested in the

[¶3] Petitioner Rodney Hogen, is one of the residual
devisees under the Last Will and Testament of Arline
H. Hogen, deceased, and therefore, Rodney Hogen is a
person interested in the estate, as defined by the laws
of the State of North Dakota. N.D.C.C. § 30.1-0106(25). Through two (2) quit claim deeds attached as
Exhibits 1 and 2 to this petition, Rodney Hogen has
conveyed to his wife, Susan Hogen, a life estate, and to
his daughter, Marby Hogen, a remainderman’s interest
in and to all real property once owned by the Decedent
Arline H. Hogen at the time of her death. As the result
of the two (2) quit claim deeds, Petitioners Susan
Hogen and Marby Hogen are persons interested in the
estate, as defined by N.D.C.C. § 30.1-01-06(25), and
have been persons interested in the estate since the
quit claim deeds were delivered to them on February
20, 2014.
[¶4] Rodney Hogen’s Quit Claim Deeds to Susan
Hogen and Marby Hogen trailed this court’s December
11, 2013,“order approving a final accounting and
settlement in the probate of the estate of Arline
Hogen.” After the execution and delivery of the quit
claim deeds, this court issued its Order on Second
Amended Petition for Approval of Final Account and
Rule 54(b) Certification, describing “...interested
person Rodney Hogen, a 50% distributee, or Steve
Hogen, the PR and also a 50% distributee ...”. This

App. 219
court’s 2013 and 2014 orders, made under authority of
N.D.C.C. § 30.1-21-01, indicated its “ruling ends the
actions as to said matters.” District Court Docket
Entry #506.
[¶5] 2.

Pertinent Background for Petitioners’
declaration voiding transactions of Steven
C. Hogen, and for their Petitions.

[¶6] On March 19, 2010, Personal Representative
Steven C. Hogen filed a Petition for Approval of Final
Account, for Determination of Testacy Status and
Settlement of Estate [District Docket Entry # 12],
containing the following pleadings:
5.
Petitioner has filed a Final Account
hereto and the estate is in a condition to
be closed.
* * *
14.
This Petition for Approval of Final
Account, for Determination of Testacy
Status and for Settlement of Estate is
made and filed by petitioner under
N.D.C.C. § 30.1-21-01, in formal
proceedings to terminate administration
of the estate, in lieu of the filing of a
sworn statement closing the estate under
N.D.C.C. § 30.1-21-03.
[¶7] On February 15, 2013, Personal Representative
Steven C. Hogen filed a First Amended Petition for
Approval of Final Account, for Determination of
Testacy Status and Settlement of Estate [District

App. 220
Court Docket Entry #197], containing the following,
almost identical, pleadings:
14.
This First Amended Petition for
Approval of Final Account, for
Determination of Testacy Status and for
Settlement of Estate is made and filed by
petitioner under N.D.C.C. § 30.1-21-01, in
formal proceedings to terminate
administration of the estate, in lieu of the
filing of a sworn statement closing the
estate under N.D.C.C. § 30.1-21-03.
[¶8]
There was no provision within the “First
Amended Petition for Approval of Final Account, for
Determination of Testacy Status and Settlement of
Estate” that asked this court to delay the termination
of Steven C. Hogen’s appointment as personal
representative so that land could be leased, sold,
allocated or partitioned after the final account. There
is no language within said petition(s) indicating Steven
C. Hogen sought the power to lease, sell, or partition
the farm lands [for estate purposes] after his
appointment would be terminated by issuance of an
order [or orders] under the provisions of N.D.C.C. §
30.1-21-01. Steven C. Hogen did not seek, nor suggest,
[and certainly this court never ordered from 2007
through February 20, 2014] a bifurcation of issues
[under procedural path suggested available by In re
Cashmore, 2010 ND 159, 787 N.W.2d 261] prior to the
Supreme Court’s mandate.
[¶9]

This court issued its Order on Petition for

App. 221
Approval of Final Account, for Determination of
Testacy Status, and Settlement of Estate under
N.D.C.C. § 30.1-21-01 on October 24, 2013. District
Docket Entry #436. The court issued its Amended
Order on Petition for Approval of Final Account, for
Determination of Testacy Status, and for Settlement of
Estate on December 11, 2013. District Docket Entry
#490.
[¶10] This court issued its Order of March 6, 2014,
referring to these two (2) Orders [District Docket Entry
#506], recognizing Petitioner Rodney Hogen was a 50%
distributee and his brother, Steven Hogen, a 50%
distributee. The March 6, 2014, Order affirmed what
was originally ordered on October 24, 2013. District
Docket Entry #506, page 2, ¶3; and District Docket
Entry #506, page 2, ¶6. Under Steven Hogen’s 2010
and 2013 petition(s) to formally settle the estate, made
under the provisions of N.D.C.C. § 30.1-21-01, (a) the
real estate [owned by Arline Hogen at the time of
death], and (b) the “right of retainer”, were listed as
assets to be distributed to Rodney Hogen and Steven
Hogen, and by this court order(s), to be divided equally.
[¶11] This court’s concluding Orders [in 2013 or 2014]
did not reserve jurisdiction to lease, sell, allocate or
partition the farm lands that devolved upon Rodney
Hogen and Steven Hogen, equally, at the time of the
death of their mother through her probated will.
Again, bifurcation under Cashmore was never sought,
nor suggested, and never ordered prior to the Supreme
Court’s mandated remand.

App. 222
[¶12]
The three Orders, referred to above, were
affirmed by the Supreme Court of North Dakota in
Estate of Hogen, 2015 ND 125, 863 N.W.2d 876. In
affirming this court’s order(s), the Supreme Court
recognized Rodney Hogen’s appeal was from an “order
approving a final accounting and settlement in the
probate of the estate of Arline Hogen.” Estate of
Hogen, ¶1. The Supreme Court of North Dakota also
determined that the personal representative’s power
and control over decedent’s property continues no later
than the “termination of the personal representative’s
appointment ...”. Estate of Hogen, ¶s 25 & 26; as a

matter of law [N.D.C.C. § 30.1-17-10(2)], termination
of appointment occurs upon the entry of order(s) made
under N.D.C.C. § 30.1-21-01.

[¶13] In ¶20 of Estate of Hogen, the Supreme Court of
North Dakota advanced the following concept about a
personal representative’s powers over real estate
during the time of his administration.
The Editorial Board Comment to
N.D.C.C. § 30.1-18-11 (U.P.C. § 3-711),
states:
The personal representative
is given the broadest
possible "power over title".
He receives a "power",
rather than title, because
the power concept eases the
succession of assets which
are not possessed by the

App. 223
personal representative.
Thus, if the power is
unexercised prior to its
termination, its lapse clears
the title of devisees and
heirs. . . . The power over
title of an absolute owner is
conceived to embrace all
possible transactions which
might result in a
conveyance or encumbrance
of assets, or in a change of
rights of possession. The
relationship of the personal
representative to the estate
is that of a trustee.
Bolding supplied by Petitioners for emphasis.
[¶14] The power to sell or partition Rodney Hogen and
Steven Hogen’s inherited lands was not exercised by
the personal representative prior to this court’s
concluding Order(s) of 2013 and 2014. These Order(s)
have been determined by the Supreme Court of North
Dakota to be the “final account and settlement in the
probate of the estate of Arline Hogen.” Estate of
Hogen, ¶1.
[¶15] During the September 3, 2015, Hearing on
Remand, Rodney Hogen informed this court of his
position that the administration [or powers of the
personal representative] had terminated. Page 15 of
Transcript of Hearing on Remand Held September 3,

App. 224
2015, [District Court Docket No. 562]. Rodney’s
position was the Supreme Court of North Dakota’s
pronouncement that the District Court’s Order(s),

made after Steven Hogen’s voluntary petition(s) for
formal closing of the Estate under N.D.C.C. § 30.1-2101, were a “final account and settlement”, and the law

of this case had terminated Steven Hogen’s powers as
a personal representative – as a matter of law. Id. It
was Rodney’s position that the District Court had
ordered a 50-50 distribution to Rodney Hogen and
Steven Hogen of the lands and the determined
“retainer” by the concluding Order(s) that had been
affirmed on appeal. Transcript of September 3, 2015
Hearing, pages 15, 20, and 21.
[¶16] During the September 3, 2015, Hearing on
Remand, both the personal representative’s attorney
and this court disagreed with Rodney Hogen’s position
that the personal representative’s powers had been
statutorily terminated by this court’s “order approving
a final accounting and settlement in the probate of the
estate of Arline Hogen”, and the ordered 50-50
distribution. Transcript of September 3, 2015 Hearing,
pages 17-19.
[¶17] On September 10, 2015 [because of this court’s
“in court” rejection of Rodney Hogen’s position that the
powers of the personal representative had been
terminated], Rodney Hogen filed his verified Petition
for Order Restraining Personal Representative.
District Docket Entry #560. Within this petition,
Rodney Hogen advanced his legal authority [statues
and the Supreme Court’s pronouncements within

App. 225
Estate of Hogen, supra., that support his position]
Steven C. Hogen’s personal representative powers over
Rodney Hogen’s inherited lands had terminated. Id.
Rodney Hogen’s petition was first noticed for November
2, 2015, but due to the District Judge’s health
problems, was not heard until February 2, 2016.
[¶18]
Steven C. Hogen resisted Rodney Hogen’s
position that his personal representative powers over
Rodney’s inherited lands had terminated.
On
November 12, 2015, and apparently spurred by Rodney
Hogen’s position as to the termination of the powers of
the personal representative, Steven C. Hogen moved
for the entry of a “Cashmore Bifurcation Order.”
District Docket Entry #576. Steven C. Hogen’s
spurious argument concerning Rodney Hogen’s position
as to the “law of the case” [or mandate rule] is best
seen in ¶9 of his Brief in Support of Personal
Representative’s Motion for Entry of Cashmore
Bifurcation Order [District Docket Entry #578]–
attorney Nelson did not understand the Cashmore
ruling:
[¶9] Notwithstanding the North Dakota
Supreme Court’s statement in its
introductory sentence in Hogen I at ¶ 1,
to-wit:
Rodney Hogen appeals and
Steven Hogen, as personal
representative of the estate
of Arline Hogen, crossappeals from an order

App. 226
approving a final accounting
and settlement in the
probate of the estate of
Arline Hogen.
(emphasis added), no such “order
approving settlement” (final or otherwise)
has ever been entered in this case. Nor
has any order directing or approving
distribution of the estate (final or
otherwise) ever been entered in this case.
Nor has any order closing or terminating
the estate ever been entered in this case.
Nor has any order ever been entered
determining the persons entitled to
distribution of the estate. Nor has any
order discharging the PR ever been
entered in this case.
Finally, as
Cashmore makes clear, the only
prohibition on filing an amended final
account arises after a final judgment or
order has been entered approving a final
accounting and distribution:
Once a final judgment or
order has been entered
approving a final accounting
and distribution under
N.D.C.C. § 30.1-21-01(1),
the estate proceedings are
concluded, and the parties
are not authorized to file a
petition to approve an

App. 227
amended final accounting
under the statute.
Matter of Estate of Cashmore, 2010 ND 159, ¶
14.
Steven C. Hogen’s motion for the entry of a “Cashmore
Bifurcation Order” was originally to be heard on
December 3, 2015. District Docket Entry #577.
[¶19]
On November 23, 2015, Rodney Hogen
responded to Steven C. Hogen’s Motion for Cashmore
Bifurcation Order, repeating his claim as to the
“finality” of this court’s concluding order(s), affirmed on
appeal. Rodney Hogen argued Steven C. Hogen had
ignored North Dakota’s controlling statutes, and the
clear pronouncement of the Supreme Court of North
Dakota [including its use of only the past tense when
referring to Steven C. Hogen’s probate administration]
within Estate of Hogen, supra. District Docket Entry
#584. Rodney Hogen’s position was that Steven C.
Hogen confused “probate administration” with his
“ministerial duties” of “winding up” the estate [such as
performing the ministerial duty to execute and deliver
an appropriate deed to document the devolvement of
real property at the time of Arline Hogen’s death].
[¶20] Rodney Hogen’s response caused Steven C.
Hogen to seek an extension of time – to January 8,
2016 – to respond by filing his reply to Rodney’s
response. District Docket Entry #590. This court
granted the extension on December 30, 2015. District
Docket Entry #595.

App. 228
[¶21] On January 4, 2016, Steven C. Hogen filed a
Petition for Supervised Administration with notice to
Rodney his petition would be heard on February 2,
2016. District Docket Entry #596. Without any

meaningful opportunity for Rodney Hogen to respond
to Steven C. Hogen’s petition for supervised
administration, this court, ex parte and without notice,

issued its Order for Supervised Administration on
January 11, 2016 – before the noticed hearing date.
District Docket Entry #621.
[¶22] On January 5, 2016, Steven C. Hogen petitioned
for an “Order for Delivery and Possession and Control
of Estate Real Property.” District Docket Entry #604.
This was Steven Hogen’s first attempt to obtain control
of Cass County lands since this court’s concluding 2013
and 2014 order(s).
[¶23] On January 8, 2016, Steven C. Hogen filed his
brief replying again to Rodney Hogen’s position as to
the “finality” of the District Court’s prior order(s) that
were affirmed on appeal. District Docket Entry #618.
In his reply, Steven C. Hogen tries to escape from the
Supreme Court of North Dakota’s clear words in Estate
of Hogen, ¶1, that Rodney Hogen’s prior appeal was
from an “order approving a final accounting and
settlement in the probate of the estate of Arline
Hogen.” Trying to escape from the res judicata effect
[and/or law of the case] of the appealed Order(s)
[determined by this court to be final], Steven C. Hogen
argued, “Rodney can point to no language in the
Supreme Court’s decision where that Court
‘determined that this Court’s Order(s) were final orders

App. 229
issued under statutory authority found in N.D.C.C. §
30.1-21-01,’ because no such determination was made
by the Supreme Court, anywhere, in its lengthy
opinion.” District Docket Entry #618, page 11. Within
his reply, Steven C. Hogen presented no meaningful
law [neither case law, nor statute] that detracted from
Rodney Hogen’s position [which was based upon
statute and case law], including ¶1 of Estate of Hogen:
“Rodney Hogen appeals and Steven Hogen, as personal
representative of the estate of Arline Hogen, crossappeals from an order approving a final accounting and
settlement in the probate of the estate of Arline
Hogen”. Curiously, Steven C. Hogen attempted to
lessen the res judicata effect [and/or law of the case
effect] of the appealed Order(s), and the adjudication of
an equal distribution, by trying to again advance the
unequal distribution he favored in his petition made
under N.D.C.C. § 30.1-21-01. District Docket Entry
#618, pages 8 and 9. Not able to advance any credible
law or fact to support his position, Steven C. Hogen
then resorted to disparagement of Rodney Hogen
[and/or the members of the Garaas Law Firm] calling
his argument “frivolous,” containing “falsehoods,” and
“bizarre.” District Docket Entry #619, pages 1,7-10,
and 14.
[¶24] On January 19, 2016, Rodney Hogen responded
to Steven C. Hogen’s motion to obtain possession and
control of his inherited real property for crop year
2016. District Docket Entry #624. In his response,
Rodney Hogen repeated his position that the personal
representative’s powers terminated upon the entry of
the 2013 and 2014 Order(s) issued under N.D.C.C. §

App. 230
30.1-21-01 - final Order(s) that were affirmed upon
appeal by the Supreme Court of North Dakota in
Estate of Hogen, supra.
[¶25] On January 20, 2016, Rodney Hogen submitted
his Objection to this court’s irregularly issued Order
Granting Supervisory Administration. District Docket
Entry #626. Rodney based his objection upon his
position the powers of the personal representative had
terminated by the entry of the 2013 and 2014 Order(s)
that were subject of the prior appeal, and the
procedural irregularity leading up to the “order for
Supervised Administration.” Id.
[¶26] This court entertained oral arguments on the
various petitions and motions on February 2, 2016.
See Transcript; District Docket Entry #642. After
hearing oral arguments, this court issued the following
three (3) orders: (1) Order on Petition for Delivery of
Possession and Control of Estate Real Property dated
February 2, 2016 [District Docket Entry #633]; (2)
Order Denying Petition for Restraining Personal
Representative of February 4, 2016 [District Docket
Entry #638]; and (3) Order Bifurcating Issues of
February 6, 2016 [District Docket Entry #639]. When
entering these three (3) orders, the lower court rejected
all of Rodney Hogen’s positions, claims, or legal
arguments concerning the termination of the personal
representative’s powers and the finality of the prior
Order(s) that were affirmed by the Supreme Court of
North Dakota in Estate of Hogen, supra.
[¶27]

To protect Rodney Hogen’s interest in and to

App. 231
real estate Rodney Hogen inherited from his mother,
the Garaas Law Firm filed a Lis Pendens for both Cass
County and Barnes County lands in early February,
2016.
[¶28] On November 9, 2016, Steven Hogen moved to
consolidate the Estate of Arline Hogen probate
proceedings with trust proceedings involved in “In the
Matter of Curtiss A. Hogen Trust B as created under
the Last Will and Testament of Curtiss A. Hogen”,
Cass County District No. 09-2015-CV-01717. District
Docket Entry #651.
[¶29] On November 18, 2016, Rodney Hogen timely
resisted the consolidation of the probate and the trust
matter. When resisting consolidation, Rodney Hogen
made the following claims: (1) when issuing its
pertinent Order(s) of October 24, 2013 through March
6, 2014, the Probate Court did not reserve jurisdiction
to sell or partition farm lands; (2) the power to sell
Rodney and Steven Hogen’s inherited farm lands was
not exercised by the personal representative prior to
the Probate Court’s concluding orders; (3) the
determined “right of retainer” was distributed to
Rodney and Steven Hogen equally with the determined
amount [after remand] of $102,074.00 in principal and
with interest to November 1, 2013, for a total of
$116,308; (4) the personal representative had
“retained” the principal amount of $97,220.66 [as of
November 18, 2016, and without interest thereon] from
post-death income from just the inherited lands from
Arline; (5) the probate or trust proceedings did not
presently involve a partition; (6) necessary parties to

App. 232
the partition of the lands would include Rodney
Hogen’s grantees Marby Hogen and Susan Hogen; (7)
the personal representative’s power(s) to sell, lease or
initiate partition proceedings terminated when the
probate court issued its 2013 and 2014 concluding
order(s) that had been affirmed on appeal; and (8)
neither the amounts claimed as a right of retainer, nor
unpaid probate or Trust administration expenses could
be paid in a partition action for they are neither liens,
nor encumbrances upon the land. District Docket
Entry #657.
[¶30] On December 12, 2016, this court denied Steven
Hogen’s motion for consolidation with the trust matter.
District Docket Entry #665.
[¶31] On January 27, 2017, Steven C. Hogen filed a
Petition for Complete Settlement and Distribution of
the Estate. Steven C. Hogen sought this court to
determine and order, without benefit of a proper
pleading or trial in the probate proceedings, that (1)
Rodney Hogen owes an additional $55,379.63 together
with interest thereon for crop years 2014, 2015, and
2016; (2) an order directing Rodney Hogen to release
the two Lis Pendens filed in Cass County and Barnes
County; (3) an order authorizing the sale of real
property and distribution of the Estate; (4) an order
determining capital gain taxes to be paid on land sold
by the personal representative based upon the personal
representative’s allocation of the real estate; (5) such
other necessary orders to accomplish a settlement of
the estate; and (6) after the completion of the sale and
distribution, an order discharging the personal

App. 233
representative. District Docket Entry #668.
[¶32] In ¶9 of his January 27, 2017, petition, Steven
C. Hogen fraudulently asserted a proposed allocation
of real property based upon an alleged agreement
between Rodney Hogen and Steven C. Hogen, as
revealed in testimony in In the Matter of the Curtiss A.
Hogen Trust, Cass County District Court No. 09-2015CV-01717. The following portions of the transcript in
that case establishes the falsity of Steven C. Hogen’s
factual assertions in his petition to this probate court:
A. Transcript of Proceeding of September 22, 2016,
pages 189-190:
Q
In 2009, was there an effort on the
part of Steven Hogen to become a 100
percent owner of certain lands and you to
become a 100 percent owner of certain
lands?
A
Yeah, we had emails going back
and forth pertaining to how we were
going to split the land and what would
work out best.
Q
And had you reached an agreement
with only the paperwork to be
accomplished by the Ohnstad Twichell
Law Firm?
A

Right. Yeah.

App. 234
Q

Did it ever get accomplished?

A

It never happened.

B. Transcript of Proceeding of September 22, 2016,
pages 196-197:
THE COURT: So before the time those
two ships passed, again you have never
agreed on an undivided one-half interest
split with Steven, right?
THE WITNESS:
Right. We -- like it
said, we said, let’s – you take yours and
I’ll take mine. Steve, Barnes County, I’ll
take Cass County. I still farmed. It
would be handy. And also in Cass County
there would be more land, so one of the
quarters in Cass County Steve and I were
going to split to make it fair.
THE COURT: And you came close, but
that didn’t happen.
THE WITNESS:

It didn’t happen.

THE COURT:
And then since then there’s
been no agreement I assume.
THE WITNESS: No.
The above testimony establishes that Steven C.
Hogen’s proposed allocation of the lands was not

App. 235
“pursuant to the agreement”, as his petition falsely
claimed, because there was never an effective
agreement between them. What verbal agreement that
may have been reached in 2009, between Steven C.
Hogen and Rodney Hogen, substantially varied from
the allocation submitted by Steven C. Hogen in his
2017 petition. Exhibit C to the Post-Hearing Brief of
Devisee Rodney Hogen, dated August 4, 2013, [District
Court Docket #432] reflects Rodney Hogen’s
understanding of the parties’ “verbal” agreement.
[¶33] On February 7, 2017, Rodney Hogen submitted
his Affidavit of Rodney Hogen Responding to the
Petition for Complete Settlement and Distribution of
the Estate. See, District Docket Entries #681-684.
Within this affidavit, Rodney Hogen testified in
reference to the following claims made by him: (1) that
the probate court’s concluding Order(s) [that were
previously affirmed on appeal] terminated Steven C.
Hogen’s powers as the personal representative; (2) the
Order of March 6, 2014, had recognized that Rodney
Hogen and Steven C. Hogen were entitled to an equal
distribution which included the real estate and the
determined right to retainer; (3) when issuing its
concluding Order(s) [that were affirmed on appeal], the
probate court did not reserve jurisdiction to sell or
lease the farm land; (4) the personal representative did
not exercise power to sell the real property before the
probate court issued its concluding Order(s); (5) the
personal representative’s position is inconsistent with
law of the case expressed in Estate of Hogen, supra.
[¶34] Repeating his post-appeal position concerning

App. 236
the effect of the probate court’s Order(s), all affirmed
on appeal in Estate of Hogen, supra., Rodney Hogen
filed his Objection to Proceedings on February 27,
2017. District Docket Entry #698.
[¶35] Oral arguments on Steven Hogen’s Petition for
Complete Settlement and Distribution of the Estate
were held on March 2, 2017. On March 10, 2017, three
days after the trust hearing, Steven C. Hogen’s
attorneys sent this court a letter informing him of the
Post-Trial Opinion and Order in Cass County District
Court No. 09-2015-CV-01717 [involving the Curtiss A.
Hogen Trust]. District Docket Entry #701.
[¶36] On April 3, 2017, this court issued its Order on
Petition for Complete Settlement and Distribution of
Estate. District Docket Entry #703. This order
concludes the “supervised administration” that began
in 2016 – after the finality of Estate of Hogen [to
include the remand] – contains the following orders: (1)
an allocation of the estate of real property as set forth
in Exhibit A to the personal representative’s petition or
in such other manner as may be commercially
reasonable; (2) the release of Rodney’s Lis Pendens; (3)
the sale of real property to pay (a) all mortgages and
monetary liens as determined by the personal
representative; (b) estate attorney fees and costs as
previously ordered by the court; and (c) payments to
devisees to make an equal distribution. See ¶14 of said
Order. After the proceeds of such sale were used to pay
the mortgages, monetary liens, and the previously
ordered attorney fees, this court ordered the “allocated”
real property was to be distributed to Rodney Hogen

App. 237
and Steven C. Hogen. Order, ¶15 and ¶16.
[¶37] Without a “determination” of the amount – and
without recitation as to the authority for its order – the
April 3, 2017 Order shifted all post-appeal attorney
fees incurred by Steven C. Hogen to Rodney Hogen,
apparently due to Rodney’s continued position that the
personal representative’s powers had previously
terminated and the filing of the Lis Pendens.
[¶38] Although Rodney Hogen asserts, and continues
to maintain, this court did not have jursidiction to
issue its April 3, 2017 Order [due to the law of the case
doctrine, statutes, and Cashmore decision], if this court
had continuing jurisdiction, such Order would be a
“final” judgment as envisioned by N.D.R.Civ.P. 52
[although not final for appeal purposes until a
discharge of the personal representative].
[¶39] Under N.D.R.Civ.P. 54(e)(3), Steven C. Hogen
[or his attorneys] were required to file a motion with 21
days after the notice of entry of the judgment as to
their claim for attorney fees [Steven C. Hogen and his
attorneys had notice its judgment was entered no later
than April 10, 2017 for Rodney Hogen attempted to
appeal from such order]. Steven C. Hogen and his
attorneys have failed to bring the requisite motion to
obtain the “determination” of the amount of attorney
fees, and there is not any order of judgment requiring
Rodney Hogen to pay attorney fees, in a determined
amount, in existence at the time of this petition.
[¶40]

On or about July 26, 2018, Steven C. Hogen

App. 238
gave notice to Petitioner Rodney Hogen of two (2)
Settlement Statements relating to a purported sale of
real property once owned by Arline Hogen. The
documentation provided to Rodney Hogen, through his
attorneys, establishes Steven C. Hogen has exceeded
what this court ordered [Rodney maintains without
jurisdiction] on April 3, 2017. On April 3, 2017, this
court only ordered a sale of lands sufficient to pay (1)
“(m)ortgages and monetary liens as listed in personal
representatives ‘Exhibit A’”; (2) “(e)state attorney fees
and costs as ordered by the court”; and (3) “(a)ny
payments to the devisees to make an equal
distribution.” District Court Docket #702, ¶14. Under
¶15 of this Court’s April 3, 2017, order, Rodney Hogen
was to be distributed all remaining real property, and
proceeds from the sale of Rodney Hogen’s allocated real
property. As of the date of the June 15, 2017, personal
representative’s auction, the only “determined” and
“ordered” attorney fees were those stemming from this
court’s 2013 and 2014 final order. As of the date of the
June 15, 2017, auction, the only “ordered” attorney fees
totaled $259,884.12 [Petition for Discharge of Personal
Representative, footnote 11] of which the personal
representative maintains Rodney is responsible for
$129,942.15.
To pay the mortgages upon the
“trust/estate” lands required only $250,888.07 [Petition
for Discharge of Personal Representative, footnote 10].
Since one-half (½) of the mortgage amounts was to be
paid out of “trust” lands, only $125,444.04 of Rodney
Hogen’s lands had to be sold due to the mortgages.
This court’s order only contemplated selling no more

App. 239
than $255,086.191 [$129,942.15 + $125,444.04 =
$255,086.19] of lands allocated Rodney Hogen, yet
Steven Hogen – exceeding what was authorized by this
court’s orders, has sold $651,363.50 [total sales of
trust/estate land allocated to Rodney is $1,302,727.00
divided by two (2) equals $651,363.50]. This court
never authorized Steven C. Hogen the right to sell all
of the lands allocated to Rodney Hogen.
[¶41] Steven C. Hogen’s auction of the farmlands, and
farm yard, was not done in a commercially reasonable
manner as ordered by this court. Steven C. Hogen
failed to provide prior notice to either Susan Hogen or
Marby Hogen that their interest in the subject real
property was in jeopardy by his actions as the
purported personal representative, and failed to obtain
their permission to sell real estate interest that was
transferred to them through the aforementioned quit
claim deeds.
The Due Process Clause of the
Fourteenth Amendment ensures Petitioners Marby
Hogen and Susan Hogen that no probate court order
can deprive them of their interest in the subject lands
without a meaningful opportunity to be heard.
1

Under Steven C. Hogen’s allocation, Steven C. Hogen was
to receive Barnes County lands which were encumbered, as
revealed by Steven C. Hogen’s Exhibit “A” referring to Trust trial
Exhibit 3, by a mortgage(s) with a balance owing on four(4) notes
of $207,605.96 as of August 25, 2016. One hundred and twenty
acres of Cass County farm lands, allocated to Rodney Hogen was
burdened by a mortgage with a balance of $32,383.19 [as of August
25, 2016, and would not have had to be totally paid to reach a fair
allocation of lands between Steven C. Hogen and Rodney Hogen or
to pay “ordered” attorney fees.

App. 240
[¶42] Although the sale was advertised as a public
sale, Steven C. Hogen failed to allow Petitioners
Rodney Hogen, Susan Hogen, and Marby Hogen to
protect their interests in the lands being sold when it
refused the Petitioners’ attorney access to the sale.
Without access by their attorneys, the Petitioners were
denied the right to participate in the bidding process,
or the right to protect their respective interests in
lands by submitting a bid. There is nothing in any
court order of this court that would have prevented the
Petitioners from participating in the sale, and Steven
C. Hogen’s denial of opportunity for the Petitioners to
participate is an act in excess of the parameters set by
this court in its order of April 3, 2017. The Affidavit of
Jonathan T. Garaas relating to the auction sale is
incorporated by reference.
[¶43] Steven C. Hogen did not act in a commercially
reasonable manner when he failed to reject the 2016
bid of only $60,000.00 for the homestead which,
according to Steven C. Hogen’s tardy2 Inventory, had a
value of $100,000.00 in 2007. There was absolutely no
need for the estate to sell this tract of land to
accomplish what was “ordered” to be paid in April 3,
2017, and there was absolutely no reason for the
personal representative to evict a tenant to accomplish
a sale that should not have been made.

Petitioners also note Rodney Hogen has items of
personal property located on the farmstead. Because of this court’s
orders, Rodney Hogen is subject to contempt if he tries to go on his
own lands to retrieve his own property. This court should allow
Rodney Hogen reasonable access to the farmstead forthwith.
2

App. 241
[¶44] Although Steven C. Hogen has been aware of
Rodney Hogen’s quit claim deeds to Petitioners Susan
Hogen and Marby Hogen, Steven C. Hogen has never
provided either Susan Hogen or Marby Hogen any form
of notice that their real estate interests would be in
jeopardy by his actions. This court has never provided
either Susan Hogen or Marby Hogen notice or
opportunity to be heard concerning a sale, or
encumbrance of real property interests received from
Rodney Hogen. Although persons interested in this
estate since February 20, 2014, this Petition is the first
time that Petitioners Susan Hogen and Marby Hogen
have entered an appearance in the in rem probate
proceedings herein. The Petitioners Susan Hogen and
Marby Hogen enter their appearance at a time their
appeal from an adverse Barnes County, North Dakota,
quiet title action judgment is awaiting oral arguments
in Supreme Court of North Dakota (appeal no.
20180143).
[¶45] 3.

Declaration of interested persons voiding
the allocation, partition, sale,
encumbrance of real property once owned
by the decedent.

[¶46]
By statutory right granted to all persons
interested in the estate as set forth in N.D.C.C. § 30.118-13, Petitioners Rodney Hogen, Susan Hogen, and
Marby Hogen hereby void, revoke and render
ineffectual the following transactions made without
notice and opportunity to be heard by Petitioner Susan
Hogen and Petitioner Marby Hogen , and made without
“fair disclosure” of the extent of the intended acts of the

App. 242
purported personal representative
Petitioner Rodney Hogen:

afforded

to

1.

The allocation of the claimed “estate real
property” as reflected in Exhibit A to the
personal representative’s Petition for
Complete Settlement and Distribution
dated January 27, 2017 [Petitioners also
void any other manner of allocation,
partition, or sale by the personal
representative, whether commercially
reasonable or not].

2.

All contracts, including all earnest money
contracts, relating to an auction of Barnes
County and Cass County lands [personal
representative’s claimed “estate” lands]
occurring on or about June 15, 2017,
made by Steven C. Hogen as a personal
representative of the above named estate
with John H. Triebold or Alan N.
Triebold.

3.

All deeds, and contracts leading to the
deeds such as Settlement Statements,
given by Steven C. Hogen, as a personal
representative of the Estate of Arline H.
Hogen, Deceased, to John H. Triebold and
Alan N. Triebold, or to either of them.

4.

All contracts, including all earnest money
contracts, relating to an auction of Barnes
County and Cass County lands [personal

App. 243
representative’s claimed “estate” lands]
occurring on or about June 15, 2017,
made by Steven C. Hogen as a personal
representative of the above named estate
with Tulip Acres, LLLP.
5.

All deeds, and contracts leading to the
deeds such as Settlement Statements,
given by Steven C. Hogen, as a personal
representative of the Estate of Arline H.
Hogen, Deceased, to Tulip Acres, LLLP.

6.

The encumbrances made upon the
Petitioners’ interest in real estate [or in
the proceeds of the sale or leasing of real
estate] in favor of personal
representative’s attorney by placing such
proceeds [sale and rentals] in an IOTA
account of the Ohnstad Twichell law firm
solely under their control.

7.

The exoneration of Steven C. Hogen from
the encumbrances of mortgages on lands
he has allocated to himself, in violation of
N.D.C.C. § 30.1-19-14.

[¶47] In reference to all of the matters [or categories
of matters] that the Petitioners hereby void, by
statutory right, personal representative Steven C.
Hogen has a conflict of interest with the Petitioners
herein. As a personal representative, Steven C. Hogen
is a fiduciary with a duty to settle and distribute the
estate of decedent Arline Hogen in accordance with the

App. 244
terms of her probated will, working expeditiously, and
consistently with the best interests of the estate. When
exercising his fiduciary powers, Steven C. Hogen must
act in the best interests of the successors of the estate.
See, N.D.C.C. § 30.1-18-03. The above matters the
Petitioners now void, revoke, and render ineffectual,
stem from Steven C. Hogen’s violations of his fiduciary
duties to the Petitioners. In said matters, and acting
with a clear and substantial conflict of interest, Steven
C. Hogen has attempted to gain more than a 50%
share of his mother’s estate [or distributable estate] at
the expense of his brother, Rodney Hogen, and
Rodney’s family transferees. Steven C. Hogen has
delayed the equal distribution mandated by this court’s
2013 and 2014 order(s) which were affirmed on appeal
solely to use his perceived role as personal
representative to gain economic advantage over his
brother. Acting with a clear conflict of interest, after
the death of their mother from 2007 through 2017,
Steven C. Hogen has taken income from Rodney
Hogen’s inherited real property, but never paid
principal and interest payments for the loan. When
Rodney Hogen made the mortgage payments, through
his own labors by farming his inherited lands, Steven
C. Hogen, acting with a clear conflict of interest,
claimed rental from Rodney Hogen in amounts that
income from the land would not support. Schedule F of
Rodney Hogen’s 2014 Income Tax Return [District
Court Docket #683] shows that Rodney Hogen’s net
profit from his own labors was only $2,916.00 and the
farm lands itself only produced $55,723.00 [$58,581.00
- $2,868.00 fuel tax credit = $55,723] in crops or
proceeds from farm program. Yet on January 27, 2017,

App. 245
two years after Rodney Hogen farmed his inherited
lands in 2014, Steven C. Hogen imposed a rental
agreement upon Rodney Hogen of $19,980.50 [meaning
with the personal representative’s imposed rental,
Rodney Hogen’s farm income in 2014 is negative
$17,262.15 [without taking into account a similar rent
was imposed by the Trust Court]. Schedule F of
Rodney Hogen’s 2015 Income Tax Return [District
Court Docket #684] shows that Rodney Hogen’s net
profit from his own labors was only $25,442.00 and the
farm lands itself only produced $60,346.00
[$108,366.00 - $43,415.00 insurance proceeds -$1,065.
00 custom hire income- $5,240 fuel tax credit =
$60,346.00] in crops or proceeds from farm programs.
Yet on January 27, 2017, one year after Rodney Hogen
farmed his inherited lands in 2015, Steven C. Hogen
imposed a rental agreement upon Rodney Hogen of
$17,791.64 [meaning with the personal representative’s
imposed rental, Rodney Hogen’s farm income in 2015
is $7,650.36 [and when taking into account a similar
rent was imposed by the Trust Court, Rodney Hogen
has been imposed by the personal representative a
negative income in 2015 and has been denied the fruit
of his labors]. In 2016, Rodney Hogen’s rental
payments were intercepted by mortgagees exercising
their assignment of rents which were superior to
Steven C. Hogen’s claimed possession of the 2016 farm
lands. Yet Steven C. Hogen imposed $15,802.59 in
2016 rentals upon Rodney Hogen, even though Steven
C. Hogen personally, or as a personal representative,
did not pay any mortgage or interest expense in 2016.
Steven C. Hogen also seeks to transfer his own
attorney fees unto Rodney Hogen, claiming to be acting

App. 246
on behalf of the Estate as Personal Representative.
[¶48] Neither Steven C. Hogen, nor his attorneys ever
brought the requisite motion, under N.D.R.Civ.P.
54(e)(3), for attorney fees 21 days after the notice of
entry of this court’s April 3, 2017, Order on Petition for
Complete Settlement and Distribution of Estate. Yet
Steven C. Hogen, acting with a clear conflict of
interest, has placed all proceeds from his purported
sale of Rodney Hogen’s interest in Cass County and
Barnes Count lands in the hands of his attorneys
through its IOLTA Trust to dispense as they
determine. This is an encumbrance in favor of the
personal representative’s attorney, and such
encumbrance is voidable at the will of any of the
Petitioners under the authority of N.D.C.C. § 30.1-1813.
[¶49] All transactions, sought to be avoided, are also
affected by Steven C. Hogen’s conflict of interest
concerning subjecting Petitioners’ real property
interest to the payment of barred debts, including
attorney fees barred by N.D.C.C. § 30.1-19-03(2),
N.D.C.C. 30.1-21-06, N.D.C.C. 30.1-21-08, or N.D.C.C.
§ 28-01-06.
[¶50] 4.

[¶51]

Petition of interested persons for order
confirming personal representative’s
allocation, partition, sale or encumbrance
of real property once owned by the
decedent has been voided.

The Petitioners Rodney Hogen, Susan Hogen

App. 247
and Marby Hogen hereby restate and incorporate by
reference all matters set forth in ¶1 through ¶49,
inclusive, above. The Petitioners’ pray that this court
determine, as to all of the transactions that Petitioners,
or any of them, have declared void, such transactions
were made without notice and a meaningful
opportunity to be heard afforded to Petitioners Susan
Hogen and Marby Hogen, and made without “fair
disclosure” of the extent of the intended acts of the
purported personal representative afforded to
Petitioner Rodney Hogen.
[¶52] The Petitioners pray that this Court determine,
as to all of the transactions that Petitioners have
declared void, that the personal representative Steven
C. Hogen has a substantial beneficial interest in all the
transactions. Each transaction was made, designed, or
undertaken by Steven C. Hogen to increase his right
from an equal inheritance from his mother’s to a
greater share of the estate, at the expense of brother
Rodney Hogen, and family transferees.
[¶53] The Petitioners pray that this Court determine,
as to all of the transactions that Petitioners have
declared void, that the personal representative Steven
C. Hogen has a substantial conflict of interest in all the
transactions. Each transaction was made, designed, or
undertaken by Steven C. Hogen to increase his right
from an equal inheritance from his mother to a greater
share of the estate, at the expense of brother Rodney
Hogen. Each transaction was made, designed, or
undertaken by Steven C. Hogen to require Rodney
Hogen to pay for a disproportionate share of the fight,

App. 248
needlessly brought by Steven C. Hogen, concerning the
ownership rights of inherited real property.
[¶54] The Petitioners pray this Court determine there
has been no notice to Petitioners Susan Hogen and
Marby Hogen, and inadequate notice to Petitioner
Rodney Hogen, and that this court issue its order
affirming the Petitioners, by statutory right, have
voided each of the aforesaid transactions due to
personal representative Steven C. Hogen’ s substantial
beneficial interest and/or substantial conflict of interest
in each transaction.
[¶55]

5.

Petition of interested persons to
vacate this court’s order of April 3,
2017.

[¶56] The Petitioners Rodney Hogen, Susan Hogen
and Marby Hogen hereby re-state and incorporate by
reference all matters set forth in ¶1 through ¶49,
inclusive, above.
[¶57] The Petitioners Rodney Hogen, Susan Hogen
and Marby Hogen hereby restate and incorporate by
reference all matters set forth in ¶50 through ¶54,
inclusive, above.
The Petitioners reassert their
position they have voided by statutory right, all of the
aforementioned transactions in which personal
representative has a substantial conflict of interest,
and have asked this court for an order affirming their
declaration voiding such transactions.
[¶58] Petitioners now assert this court acted in excess

App. 249
of its jurisdiction, or without jurisdiction, when
entering its Order on Petition for Complete Settlement
and Distribution of Estate of April 3, 2017, for the
following reasons:
A.

Following formal proceedings always
invoked by Personal Representative
Steven C. Hogen {[2010 Docket Entry
#12]: “This Petition for Approval of Final
Account, for Determination of Testacy
Status and for Settlement of Estate is
made and filed by petitioner under
N.D.C.C. § 30.1-21-01, in formal
proceedings to terminate administration
of the estate, in lieu of filing of a sworn
statement closing the estate under
N.D.C.C. § 30.1-21-03.”; also, 2013 Docket
Entry #197:
“This First Amended
Petition for Approval of Final Account, for
Determination of Testacy Status and for
Settlement of Estate is made and filed by
petitioner under N.D.C.C. § 30.1-21-01, in
formal proceedings to terminate
administration of the estate, in lieu of the
filing of a sworn statement closing the
estate under N.D.C.C. § 30.1-21-03]},
Personal Representative Steven C. Hogen
was always seeking the statute’s objective
– “complete settlement of the estate”.
N.D.C.C. § 30.1-21-01 entitled “Formal
proceedings terminating administration –
Testate or intestate – Order of general
protection”. Following remand by the

App. 250
North Dakota Supreme Court for
recalculation of the retainer, and known
to have been fully accomplished by “Order
for Entry of Second Amended (On
Remand) Order on Petition for Approval
of Final Account, For Determination of
Testacy Status, and For Settlement of
Estate” dated October 1, 2015 [Docket
Entry #571; filed October 6, 2015; Notice
of Entry of Second Amended (On
Remand) Order on Petition for Approval
of Final Account, For Determination of
Testacy Status, and For Settlement of
Estate noted as Docket Entry #572 on
October 6, 2015], no appeal was
thereafter taken by any party. The
decision is final.
B.

Steven C. Hogen’s authority as Personal
Representative ended on October 24,
2013, as a matter of law, when the Court
signed its “Order on Petition for Approval
of Final Account, for Determination of
Testacy Status, and for Settlement of
Estate”. Docket Entry #436. Should
there be argument as to that date [the
personal representative has the
designation only authorizing him to wind
up the estate by signing/delivering
appropriate deeds of distributions, etc.]
because of the court’s error in computing
the retainer, then October 1, 2015,
becomes the last possible date – the date

App. 251
the court entered its final order
authorized by the remand, which was
never appealed. Docket Entry #571.
Summarized, the formal proceedings
under section 30.1-21-01, initiated by
Steven Hogen in 2010, and decided in
2013 [and, following remand, resulting in
a 2015 order never appealed], resulted in
the termination of his statutory/judicial
authority in 2013 because N.D.C.C. §
30.1-17-10(2) provides: “An order closing
an estate as provided in section 30.1-2101 or 30.1-21-02 terminates an
appointment of a personal
representative.” The court’s “Order on
Second Amended Petition for Approval of
Final Account and Rule 54(b)
Certification” [Docket Entry #506] which
clearly established “Rodney Hogen, a 50%
distributee, (and) Steve Hogen, .. also a
50% distributee” was appealed by Rodney
Hogen; had Steven Hogen desired to
contest the distribution on a 50/50 basis
or the termination of his authority in
2013 (termination as a matter of law
invited by lawful petition for formal
closing), he certainly could have crossappealed as to those issues, but chose not
to do so. The Supreme Court’s decision
“approving a final accounting and
settlement in the probate of the estate of
Arline Hogen” [In re Estate of Hogen,
2015 ND 125, ¶ 1, 863 N.W.2d 876], is

App. 252
also final. The right to a 50% distribution
is final, and it would be the law of the
case. Riverwood Commercial Park, L.L.C.
v. Standard Oil Co., Inc., 2007 ND 36, ¶
12, 729 N.W.2d 101. The lower court is
without jurisdiction to alter that final
judgment, and if there ever proves to be
subsequently discovered “other property
of the estate”, it also must be distributed
50/50 – consistent with law and two (2)
Wills – Curtiss A. Hogen’s Will and
Arline H. Hogen’s Will if either decedent
had other property later discovered.
C.

Under N.D.C.C. § 30.1-21-08, subsequent
administration is generally never possible
unless “other property of the estate is
discovered after an estate has been
settled”, and the subsequent
administration would only involve “the
subsequently discovered estate”;
HOWEVER, there also exists a massive
prohibition precluding any further
judicial oversight – “no claim previously
barred may be asserted in the subsequent
administration.” N.D.C.C. § 30.1-21-08.
Simply put, no new property has ever
been identified to exist except possibly,
the cash rental amount(s) now on deposit
actually belonging to Steven Hogen and
Rodney Hogen resulting from judicial
over-reaching initiated by Steven Hogen’s
illegal January 4, 2016, Petition for

App. 253
Supervised Administration [Docket Entry
#596] improvidently authorized, ex parte
and in violation of due process of law, by
Order for Supervised Administration
dated January 11, 2016 [Docket Entry
#621], and no claims against said
deposited funds are possible due to
statutes of limitations. See, N.D.C.C. §
30.1-19-03(2); In re Estate of Hogen, 2015
ND 125, ¶ 29-30, 863 N.W.2d 876;
N.D.C.C. § 30.1-21-06(1) [three years
after decedent’s death]; N.D.C.C. § 30.121-06(2) [one year after the time of
distribution].
D.

This exceeded its statutory authority
when it ordered the personal
representative to “allocate the estate real
property as set forth in Exhibit A to the
personal representative’s petition or in
such manner as may be commercially
reasonable.” Since the real property
devolved upon Arline Hogen’s death to
Rodney Hogen and Steven Hogen, as
equal tenants in common, there is no
statutory authority to “allocate” real
property by the personal representative.
The allocation, authorized by this court’s
order, was in the nature of a partition of
land, and this court’s order failed to honor
the mandated procedure, dictated
N.D.C.C. § 30.1-20-11, of “partition of the
property in the same manner as provided

App. 254
by Chapter 32-16" of the North Dakota
Century Code. This court exceeds its
jurisdiction when it authorizes a personal
representative to partition lands without
compliance with the statutory procedure.
F.

This court exceeded its jurisdiction when
it issued its order authorizing a sale,
allocation, partition, or encumbrance or
the real property, once owned by Arline
Hogen, without prior notice or a
meaningful opportunity to be heard
afforded to Petitioner Susan Hogen and
Petition Marby Hogen. Without notice to
Susan Hogen and Marby Hogen making
them parties to the probate proceeding
[required by N.D.C.C. § 30.1-03-01], no
estate proceeding, subsequent to
February 20, 2014, can be binding on the
them, or their interest in the lands.
Alward v. Borah, 381 Ill. 13, 44 N.E.2d
865 (1942). This court should recognize,
as courts in all civilized countries
recognize, it has no power to divest a
person of a vested right without notice
and a meaningful opportunity to be
heard. Id. Federal due process rights are
implicated. Richards v. Jefferson County,
Ala., 517 U.S. 793, 796 (1996).

G.

This court exceeded its statutory
authority when it ordered “any capital
gains taxes associated with the sale of

App. 255
real property herein shall be assessed
against and paid by the devisee to whom
such property has been allocated herein.”
If a personal representative sells real
property, the estate itself should be
responsible for the tax. There is no
statutory authority to sell a devisee’s real
property, incur capital gain taxes at the
tax rate of an estate, and impose that tax
rate upon an individual devisee. This
court’s order exceeds its statutory
authority for it negates the date of
distribution rule for the valuation of
property mandated by N.D.C.C. § 30.1-2006. Further, if real estate is sold by the
personal representative, the lands not
sold should be distributed to the devisees
equally as Arline Hogen’s Will directs,
subject to Rodney Hogen’s prior transfers
to his wife and daughter.
[¶59] Petitioners further assert this court did not
regularly pursue any authority it might have when this
court, in its Order on Petition for Complete Settlement
and Distribution of Estate of April 3, 2017, shifted
attorney fees to Rodney Hogen, for the following
reasons:
A.

The lower court should have applied the
“American Rule for attorney fees in the
case. In Strand v. Cass County, 2008 ND
149, ¶ 9, 753 N.W.2d 872, it is stated:

App. 256
[¶9] Generally, under North
Dakota law, each party to a
lawsuit bears its own attorney's
fees absent statutory or
contractual authority. Danzl v.
Heidinger, 2004 ND 74, ¶ 6, 677
N.W.2d 924.
In this ¶16 of the April 3, 2017, order,
this court states it shifted attorney fees to
Rodney Hogen merely because his
attorneys filed a lis pendens, his
attorneys continuation of their objections
to this post-remand order in order to
preserve Rodney Hogen’s potential
appellate issues, and Rodney Hogen’s
transfer of a real property interest in his
inherited farm lands to his wife and
daughter. This court’s order, reasoning,
and procedural path taken is inconsistent
with N.D.R.Civ.P. 11 and N.D.C.C. § 2826-01(2), as follows:
i.

Neither Rodney Hogen, nor his
attorneys, have been afforded the
procedural protections of
N.D.R.Civ.P. 11. Under such rule,
a party moving for sanctions must
give the other party an opportunity
of 21 days to withdraw or correct
the challenged “paper, claim,
defense, contention, or denial”.
N.D.R.Civ.P. 11(c)(2). Steven C.

App. 257
Hogen did not bring a motion
under N.D.R.Civ.P. 11 and Rodney
Hogen and his attorneys were not
afforded the 21 day safe harbor to
withdraw or correct his alleged
offending court document.
ii.

Taking into account the provisions
of N.D.R.Civ.P. 11(c), it is
inappropriate to order monetary
sanctions against Rodney Hogen by
the lower court’s own initiative.
Before imposing sanctions in the
nature of shifted attorney fees, the
court must “first” issue an order to
Rodney Hogen“to show cause why
conduct specifically described in
the order has not violated Rule
11(b)” as required by N.D.R.Civ.P.
11(c)(3). As stated in Clark v.
United Parcel Serv., Inc., 460 F.3d
1004 (8th Cir. 2006), on page 1008:
Rule 11 provides a specific
procedure to be followed
when sanctions are
considered. A district court
may impose Rule 11
sanctions on its own
initiative, but it must first
enter an order describing
the specific conduct that
appears to violate Rule
11(b), and direct the

App. 258
attorney to show cause why
he has not violated the rule.
Fed.R.Civ.P. 11(c)(1)(B); see
also Fuqua Homes, Inc. v.
Beattie, 388 F.3d 618, 623
(8th Cir.2004). Then, when
imposing sanctions, the
court is required to describe
the conduct determined to
constitute a violation of
Rule 11, and explain the
basis for the sanction
chosen. Fed.R.Civ.P.
11(c)(3).
Not only did this court fail to “first”
issue an order to show cause to
Rodney Hogen describing the
specific offending conduct, this
court failed to explain how its
sanction was “limited to what
suffices to deter repetition of the
conduct or comparable conduct by
others similarly situated” as
required by N.D.R.Civ.P. 11(c)(4).
[¶60]

iii.

Neither the personal
representative, nor this court, have
ever plead in reply or made a
factual determination that any
“claim for relief” made by Rodney
Hogen was frivolous within the
meaning of N.D.C.C. § 28-26-01(2),

App. 259
nor could any litigant or court
make such necessary finding to
shift attorney fees to Rodney
Hogen. To date, Rodney Hogen
believes this Petition is his fifth
(5th) request from this court for
affirmative relief and his four (4)
prior requests for affirmative relief
were based upon probate code
statutes. Prior to this court’s 2013
and 2014 orders made under
authority of N.D.C.C. § 30.1-21-01,
Rodney Hogen only sought
affirmative relief in the nature of
supervised administration and
summary judgment, neither
pleading determined frivolous by
this court. After the remand of the
appeal In the Matter of the Estate
of Arline Hogen, supra., Rodney
Hogen requested this court to
restrain Steven Hogen, believing
his administrative powers
terminated as a matter law under
the provisions of N.D.C.C. § 30.117-10.
Rodney Hogen further
asked this court of law to vacate its
order for special administration,
entered without an meaningful
opportunity for Rodney Hogen to
be heard. None of his prior “claims
for relief” were to be determined to
be frivolous, or could be

App. 260
determined to be frivolous, and
none of his prior motions would
justify the massive amounts the
Ohnstad Twichell is billing so that
Steven C. Hogen can have a
greater inheritance than his
brother [and family transferees], in
contravention to Arline Hogen’s
Will.
[¶61]

iv.

This court’s” inherent” powers
would not justify the shifting of
attorney fees to Rodney Hogen.
Rodney Hogen’s constitutional
right to alienate his inherited real
property, vested at the moment of
Arline Hogen’s death, is protected
by the Fourteenth Amendment to
the Constitution of the United of
America, and the act of
transferring an interest in real
property would not justify this
court to shift attorney fees to
Rodney Hogen. A Lis Pendens is a
privileged communication serving
to provide constructive notice to
subsequent purchasers of the
pendency of an action related to
real property so that they can be
bound upon the final judgment.
Boehm v. Long, 172 N.W. 862
(N.D. 1919). It is a communication
made in a “proceeding authorized

App. 261
by law” and therefore is a
privileged communication under
N.D.C.C. § 14-02-05(2). It appears
that the majority of states hold
that the filing of a lis pendens is
absolutely privileged, while a
minority of states hold that a filing
of a lis pendens is conditionally
privileged.
See Havilah Real
Property Services, LLC v. VLK,
LLC, 108 A3d 334, 345-346 (D.C.
2015) . Neither the Lis Pendens,
nor the transfer of an interest in
Rodney Hogen’s inherited lands,
would justify this court’s shifting of
attorney fees to Rodney Hogen
under any claimed inherent
authority when exercising this
court’s in rem probate jurisdiction.
B.

The Ohnstad Twichell law firm has a
substantial conflict of interest precluding
it being attorney fees from the estate or
Rodney Hogen. Steven C. Hogen’s probate
strategy, through Ohnstad Twichell, was
designed to solely promote Steven C.
Hogen’s selfish motives of obtaining a
greater share of the real property while
distributing to Rodney Hogen a specious
“Right to Retainer”.
Under such
circumstances, neither Steven C. Hogen,
nor his attorneys’ fees for his attorneys’
services should be shifted to Rodney

App. 262
Hogen, or to the Arline Hogen Estate, for
such attorney fees were rendered solely
on behalf of Steven personally, and for his
own self motive. See, Raszler v. Raszler,
81 N.W.2d 120, 123 (N.D. 1957);
Sturdevant v. Sturdevant, 340 N.W.2d
888, 892-893 (N.D. 1983); and Coulter v.
Coulter, 328 N.W.2d 232, 238 (N.D.1982).
As stated in Matter of Estate of Rohrich,
496 N.W.2d 566, 571 (N.D. 1993);
“Because an attorney employed by a
beneficiary usually seeks to benefit only
his or her client and not the entire estate,
regardless of their professed motives or
resulting outcome, attorney fees are
disallowed.”
Steven C. Hogen refused to execute
any deed distributing the inherited real
property so that Steven C. Hogen could
personally gain at Rodney’s expense.
Steven C. Hogen’s disloyalty to his
mother’s Will’s directions for an equal
inheritance between two (2) brothers
should have precluded any award of
attorney fees. See, In re Estate of
Wallace, 829 S.W.2d 696 (Tenn. Ct. App.
1992); Ray v. National Health Investors,
Inc, 280 Ga. App. 44, 633 S.E.2d 388
(2006); and In re Estate of Stowell, 595
A.2d 1022 (Me. 1991).
Ohnstad Twichell, representing

App. 263
Steven C. Hogen as a personal
representative of his mother’s estate, and
representing Steven C. Hogen,
individually, as a devisee trying to snag a
greater share of the estate than entitled
to under his mother’s Will, has a conflict
of interest precluding attorney fees. As a
fiduciary under the Will of his mother,
Steven C. Hogen has a fiduciary duty to
distribute all property to the two (2)
persons entitled to all property – Steven
and Rodney [and to his transferees],
equally. The lawyers, as fiduciaries
representing the Estate of Arline H.
Hogen, have undertaken a duty of loyalty
to the Arline Hogen’s Will, and a duty of
impartiality to all devisees. By agreeing
to undertake a duty to represent the
Estate, Ohnstad Twichell assumed a duty
to all interested persons to make sure
that the distribution of all property to the
two (2) persons entitled to all property –
Steven and Rodney [and/or his
transferees], equally – take place as soon,
and as inexpensively, as possible. In re
Estate of Fogelman, 197 Ariz. 1172, ¶ 17,
3 P.3d 1172 (2000); and In re Estate of
Wallace, 829 S.W.2d 696 (Tenn. Ct. App.
1992). When Ohnstad Twichell, P.C.,
choose to simultaneously represent
Steven C. Hogen’s individual interests,
altering Arline Hogen’s Will’s demand for
equal and timely distribution, Ohnstad

App. 264
Twichell, P.C., breaches its ethical duties
without notice to, and without consent of,
Rodney Hogen.
By participating in
litigation when there are clear conflicts of
interest that are obvious – Ohnstad
Twichell, P.C., is not entitled to receive
any legal fees from the Trust assets,
Estate assets, and Steven or Rodney, as
individuals. In re Estate of McCool, 131
N.H. 340, 351, 553 A.2d 761 (1988); In re
Estate of Watson, 5 Neb.App. 184, 557
N.W.2d 38 (1996).
C.

Although this court’s April 3, 2017, order
authorized a shifting of attorney fees to
Rodney Hogen, it did not make a
determination of the amount of attorney
fees. Steven C. Hogen, and/or his
attorneys, Ohnstad Twichell P.C., have
failed to bring a motion for the amount of
the attorney fees with 21 days of the April
3, 2017, order, as required by N.D.R.Civ.
P. 54(e)(3). The failure of Steven C.
Hogen, or his attorneys, to abide by the
procedural rules to recover attorney fees,
should preclude an award of attorney
fees. Further, due to the “American
Rule,” the amount of attorney fees that
could be shifted to Rodney Hogen would
be a court determined “reasonable”
amount and only incurred when
responding to Rodney Hogen’s 2015
Petition to Restrain the Personal

App. 265
Representative – not the massive amount
Ohnstad Twichell, P. C., bills [i.e. over
$10,000 for an eviction action] nor
matters Steven C. Hogen presented,
himself, to this court.
[¶62] WHEREFORE, Petitioners pray that the Court
fix a time and place of hearing; that notice be given to
all interested persons as provided by the laws of the
State of North Dakota; that, after notice, and proper
hearing, the court enter a judicial order formally
determining the Petitioners have voided the
transactions stated above; that the court enter a
judicial order determining this court acted in excess of
its jurisdiction, or without jurisdiction, when entering
its Order on Petition for Complete Settlement and
Distribution of Estate of April 3, 2017, and vacate all
orders that are inconsistent with an equal [50-50]
distribution of property and the statutory protections
of the statutes concerning the partition of lands; that
the court enter a judicial order determining this court
did not regularly pursue any authority it might have
when this court, issued its Order on Petition for
Complete Settlement and Distribution of Estate of
April 3, 2017, shifting attorney fees to Rodney Hogen;
that the court enter a judicial order determining
neither Steven C. Hogen, nor Ohnstad Twichell, P. C.,
are entitled to attorney fees from the estate or Rodney
Hogen due to the above stated conflicts of interest; and
for such other and further relief as is just and proper.
Dated this 2nd day of August, 2018.

App. 266
GARAAS LAW FIRM
s/ Jonathan T. Garaas
______________________
Jonathan T. Garaas
Attorneys for Petitioners
1314 23rd Street South
Fargo, North Dakota 58103
E-mail address:
garaaslawfirm@ideaone.net
Telephone: (701) 293-7211
ND Bar ID # 03080
s/ Rodney Hogen
_________________________________
Rodney Hogen, Petitioner
s/ Susan Hogen
_________________________________
Susan Hogen, Petitioner
State of North Dakota
County of Cass
Rodney Hogen and Susan Hogen, being duly
sworn, state as follows:
That they are two (2) of the Petitioners in the
foregoing petition; that they have read the petition, and
the facts therein stated are true to the best of their
knowledge.
s/ Rodney Hogen
______________________
Rodney Hogen

App. 267
s/ Susan Hogen
_______________________
Susan Hogen
Subscribed and sworn to before me this 2nd day of
August, 2018.
s/ Jonathan T. Garaas & seal
_________________________
Notary Public
Signature Page of Petitioner Marby Hogen
s/ Marby Hogen
_________________________
Marby Hogen
State of North Dakota
County of Burleigh
Marby Hogen being duly sworn, states as
follows:
That she is one of the Petitioners in the
foregoing petition; that she has read the petition, and
the facts therein stated are true to the best of her
knowledge.
s/ Marby Hogen
_______________________
Marby Hogen
Subscribed and sworn to before me this 2nd day of

App. 268
August, 2018.
s/ Gretchen N. Vetter & seal
________________________
Notary Public

App. 269
__________
APPENDIX W
__________
Jonathan T. Garaas
Garaas Law Firm
DeMores Office Park
1314 23rd Street South
Fargo, North Dakota 58103
Telephone: (701) 293-7211
E-mail address: garaaslawfirm@ideaone.net
North Dakota Bar ID #03080Probate No. 09-07-P-100
Attorneys for Rodney Hogen
IN THE DISTRICT COURT FOR
CASS COUNTY, NORTH DAKOTA
In the Matter of the Estate of Arline H. Hogen,
Deceased.
OBJECTION TO DISCHARGE OF THE PERSONAL
REPRESENTATIVE IN SUPERVISED
PROCEEDINGS
[¶1]
IF THERE ARE VALID PROBATE
PROCEEDINGS NOW EXISTING, NOTICE IS
HEREBY GIVEN that devisee and interested person
Rodney Hogen, and interested persons Susan Hogen
and Marby Hogen, hereby object to the “discharge” of
Steven C. Hogen, as the Personal Representative in the
supervised administration of the above named estate,
which supervised administration was initiated by an ex

App. 270

parte order of this court issued on January 11, 2016, in
violation of Due Process of Law,1 and statute forbidding
new informal or formal estate proceedings more than
three (3) years after Arline Hogen’s death in 2007 – the
“ultimate time limit for probate, testacy, and
appointment proceedings as referenced in Dennison v.
North Dakota Dept. Of Human Services, 2003 ND 10,
¶11, 656 N.W.2d 25,2 followed by entering into a
“winding-up” stage after this court had already issued
its “concluding” Order on Petition for Complete
Settlement and Distribution of Estate dated April 3,
2017. District Docket Entries #621 and #703. All
orders are contrary to the prior order of the Court
made pursuant to statute, and mandate of the North
Dakota Supreme Court in Estate of Hogen, 2015 ND

Steven C. Hogen falsely claimed status as personal
representative when seeking supervised administration after the
“final” judgment in the estate proceedings (never appealed).
N.D.C.C. § 30.1-17-08 specifically provides the termination of
under the statute, also “terminates the personal representative’s
authority to represent the estate in any pending or future
proceeding.” In the same statute, the termination of the estate
also “ends the right and power pertaining to the office of personal
representative as conferred by this title or any will ..”
1

N.D.C.C. § 30.1-12-08 forbids commencement of
any probate proceedings “more than three years after the
decedent’s death”, and none of the five (5) exceptions existed in
2017, or ever. Moreover, even if Steven C. Hogen could fit into any
of them, it would have to be subsection 4 which provides “the
personal representative has no right to possess estate assets as
provided in section 30.1-18-09 beyond that necessary to confirm
title to the assets in the successors to estate and claims other than
expenses of administration may not be presented against the
estate.”
2

App. 271
125, 863 N.W.2d 876, following “an order approving a
final accounting and settlement in the probate of the
estate of Arline Hogen.” Id., ¶1.
[¶2]
Although they have no objection to the
resignation of Steven C. Hogen as a personal
representative of the irregularly-established supervised
administration of the above named estate [an estate
already terminated by operation of law; the authority
of the personal representative having been terminated,
and already discharged according to the UPC Editorial
Board Comments3 at N.D.C.C. § 30.1-17-08 (UPC 31001 is N.D.C.C. § 30.1-21-01 the statute authorizing
“an order of complete settlement of the estate” utilized
in the Estate of Hogen)], Rodney Hogen, Susan Hogen
and Marby Hogen object to the discharge of Steven C.
Hogen as the personal representative in the supervised
proceedings. Steven C. Hogen has failed in his
statutory duty [N.D.C.C. § 30.1-18-12] to exercise his
power(s) concerning the estate [if they exist] in a
proper manner, as a fiduciary with the same duties as
a trustee of an express trust. In all transactions
related to the devolvement [or his purported allocation,
partition, or sale] of real property, Steven C. Hogen has
been disloyal to the Last Will and Testament of Arline
H. Hogen, deceased, that called for an equal
distribution to residuary devisees Steven C. Hogen and
Rodney Hogen. In all transactions related to the
devolvement [or his purported allocation, partition, or

Estate of Hogen, at ¶12: “In construing the U.P.C.,
we may also look to the Editorial Board Comment for guidance.
(citation omitted).”
3

App. 272
sale] of real property, and in conflict with his mother’s
Will, Steven C. Hogen has improperly used his
power(s) to promote positions, transactions, and
litigation that advance his own personal interests to
achieve a greater share of the probate estate [or
distribution] to him as compared to his brother Rodney
Hogen [and Rodney’s transferees]. In attempt to gain
personally, at the expense of his brother Rodney Hogen
[and Rodney’s transferees], Steven C. Hogen has
exceeded his statutorily granted powers, and has
exceeded any authority granted by this court’s April 3,
2017, concluding order. Because of Steven C. Hogen’s
clear disregard of his fiduciary duties to them, Rodney
Hogen, Susan Hogen, and Marby Hogen object to his
discharge as a personal representative in the
irregularly-created supervised administration. At the
time of making their objection to the personal
representative’s discharge, Rodney Hogen, Susan
Hogen, and Marby Hogen note that the personal
representative has not distributed one (1) claimed
estate asset, but rather, has placed all claimed probate
assets in the hands of Ohnstad Twichell, PC – a law
firm that has a conflict of interest with the devisees
relating to fees barred by applicable law – and then he
proposes, without statutory authority or court
authorization, to leave all decision-making to the law
firm as to what is paid [distributed?], and to whom.
[¶3]
Rodney Hogen, Susan Hogen, and Marby
Hogen’s objection to the discharge includes, but is not
necessarily limited to the following reasons (in addition
to the primary objection relating to the authority to act
following termination and discharge pursuant to prior

App. 273
“final” judgment/order):

[¶4]

A.

On August 2, 2018, devisee and
interested person Rodney Hogen, and
interested persons Susan Hogen and
Marby Hogen, filed herein a verified
Declaration of Interested Persons Voiding
The Allocation, Partition, Sale,
Encumbrance of Real Property Once
Owned by the Decedent And Petition of
Interested Persons for Order Voiding
Personal Representative’s Allocation,
Partition, Sale or Encumbrance of Real
Property Once Owned by the Decedent
[Or Order Confirming the Declaration of
Interested Persons Voiding the Personal
Representative’s Transaction(s)] and
Petition of Interested Persons to Vacate
This Court’s Order of April 3, 2017.
District Court Docket #729.
Rodney
Hogen, Susan Hogen and Marby Hogen
hereby re-state, and incorporate by
reference, all matters set forth in said
declaration and petition(s), and state such
re-stated and incorporated reasons
preclude the discharge of Steven C.
Hogen as the personal representative in
the supervised administration.

B.

Steven C. Hogen, breaching his fiduciary
duty of loyalty, is failing to distribute the
estate equally – at date of distribution
values – to the two (2) residuary devisees

App. 274
[or their transferees, as the transferee’s
interest appears] as required by the
terms of Arline H. Hogen’s Will. Steven
C. Hogen has pursued an unequal
distribution that conflicts with statutory
provisions within N.D.C.C. Title 30.1.
Under the terms of the controlling Will
and statutes, if Steven C. Hogen has
accomplished a commercially reasonable
sale of any part of the property of the
estate, Steven C. Hogen would be
required to distribute all real property
not sold by him as a personal
representative, to Steven C. Hogen and
Rodney Hogen, equally [as tenants in
common, with tenant in common owner
Rodney Hogen’s interest subject to his
2014 conveyances to Susan Hogen and
Marby Hogen].
C.

Not only is Steven C. Hogen acting
inconsistently with the decedent’s
controlling Will, and controlling statutes
relating to distribution, he is acting
inconsistently with this court’s 2013 and
2014 concluding “final” order(s) that
require a 50%-50% distribution to Steven
C. Hogen and Rodney Hogen [now subject
to Rodney’s transfer of part of his
inherited real property to Susan Hogen
and Marby Hogen]. This court’s 2013 and
2014 concluding order(s), now “final”,
were made upon Steven C. Hogen’s own

App. 275
petition under N.D.C.C. § 30.1-21-01,
were affirmed on appeal in Estate of
Hogen, 2015 ND 125, 863 N.W.2d 876,
and are the law of the case and/or subject
to the mandate rule.
Riverwood
Commercial Park, L.L.C. v. Standard Oil
Co., Inc., 2007 ND 36, ¶12, 729 N.W.2d
101; Viscito v. Christianson, 2016 ND
139, ¶7, 881 N.W.2d 633.4
D.

Steven C. Hogen has wrongfully obtained

4

Viscito v. Christianson, 2016 ND 139, ¶ 7, 881

N.W.2d 633:
“Generally, the law of the case is defined as the principle that if an
appellate court has passed on a legal question and remanded the
cause to the court below for further proceedings, the legal question
thus determined by the appellate court will not be differently
determined on a subsequent appeal in the same case where the
facts remain the same. In other words, [t]he law of the case
doctrine applies when an appellate court has decided a legal
question and remanded to the district court for further
proceedings, and [a] party cannot on a second appeal relitigate
issues which were resolved by the Court in the first appeal or
which would have been resolved had they been properly presented
in the first appeal. The mandate rule, a more specific application
of law of the case, requires the trial court to follow
pronouncements of an appellate court on legal issues in
subsequent proceedings of the case and to carry the [appellate
court's] mandate into effect according to its terms.... and we retain
the authority to decide whether the district court scrupulously and
fully carried out our mandate's terms.

Carlson v. Workforce Safety & Ins., 2012 ND 203, ¶ 16, 821
N.W.2d 760 (citations and quotation marks omitted); see also
Inv'rs Title Ins. Co. v. Herzig, 2013 ND 13, ¶ 10, 826 N.W.2d 310.

App. 276
an April 3, 2017, order from this court
based upon his fraudulent
misrepresentation to this court as to
Rodney Hogen’s testimony in court
proceedings involving the Curtiss A.
Hogen Trust B. Due to Steven C. Hogen’s
fraudulent misrepresentation that
Rodney Hogen had agreed to an allocation
of real property, this court allowed an
unequal allocation of real property, and a
sale of part of the property allocated to
Rodney Hogen. Steven C. Hogen failed to
make adequate disclosure(s) of his
intentions relating to his proposed sale of
real estate once owned by decedent.
Steven C. Hogen never informed Rodney
Hogen [or this court] he intended to sell
all land allocated to Rodney Hogen. This
court did not previously authorize the
sale of all of Rodney Hogen’s interest in
and to the real property, as Steven C.
Hogen now purports to have done.
Because of Steven C. Hogen’s clear
conflict of interest concerning the
allocation and sale, Rodney Hogen has
voided all transactions made by Steven C.
Hogen involving Rodney Hogen’s
inherited real estate. Steven C. Hogen is
not entitled to be discharged until (1)
Rodney Hogen’s statutory right [N.D.C.C.
§ 30.1-18-13] to revoke the transactions
are honored by t he p er sonal
representative [and/or the court], and (2)

App. 277
Rodney Hogen [and his transferees] are
distributed 50% of all real property of the
estate.
E.

Steven C. Hogen failed to provide
interested persons Susan Hogen and
Marby Hogen either notice, or a
meaningful opportunity to be heard, that
their respective interests in and to real
property was contemplated to be sold,
allocated, partitioned, or encumbered by
him. Until August 2, 2018, neither Susan
Hogen nor Marby Hogen had entered an
appearance in the probate proceedings
that trailed the February 20, 2014, quit
claim deeds that transferred, into them,
an interest in the subject real property.
Without notice to Susan Hogen and
Marby Hogen – making them parties to
the probate proceeding [required by
N.D.C.C. § 30.1-03-01] – no estate
proceeding, subsequent to February 20,
2014, can be binding on them, or their
interest in the lands [for they have not
voluntarily appeared in the probate
proceedings until August 2, 2018, when
they sought to guard themselves – and
others – from the wrongful acts of Steven
C. Hogen (and his attorneys) purporting
to act as a personal representative]. As
stated in Alward v. Borah, 381 Ill. 134,
136-138, 44 N.E.2d 865, 867-868 (1942).

App. 278
It is a matter of common
knowledge that some
estates are not settled for
many years, and third
parties may acquire
interests in the real estate
passing to the heir. It is
also well known that where
an estate is devised by will,
rights of third parties may
be acquired by judgment or
otherwise, even though it be
subject to the demands of
creditors of decedent.
When, however, the
administrator or executor
undertakes to exercise his
power of sale in the manner
provided by statute, the
latter requires that all
persons having an interest
therein shall be made
parties. If the appellees in
this case had been made
parties they would have had
an opportunity to protect
their rights by becoming
bidders at the sale, but
having no notice they
necessarily are not bound.
The mineral deeds of
appellees were on record,

App. 279
and appellant, as purchaser
of the premises, was bound
to examine the title and
ascertain what he was
getting through the deed of
the executor. Leininger v.
Reichle, 317 Ill. 625, 148
N.E. 384; Shup v. Calvert,
174 Ill. 500, 51 N.E. 828.
Appellees, as owners of
record of an interest in the
real estate involved, were
entitled to notice of the
proceeding. In the early
case of Botsford v.
O'Conner, 57 Ill. 72, we
said: ‘It is a principle that
lies at the foundation of all
jurisprudence in civilized
countries, that a person
must have an opportunity of
being heard, before a court
can deprive such person of
his rights. To proceed upon
any other rule, would shock
the sense of justice
entertained by mankind,
would work great wrong and
injustice, and render the
administration of justice a
mere form. Until a person
is made a party to a suit,
and is afforded a reasonable

App. 280
opportunity of being heard
in defense of his rights, a
court has no power to divest
him of a vested right.’ So
far as we know, we have
never departed from this
rule, but have reaffirmed it
many times. Leininger v.
Reichle, supra; Heppe v.
Szczepanski, 209 Ill. 88, 70
N.E. 737, 101 Am.St.Rep.
221.
Appellant cites a
number of cases to the effect
that an heir or devisee
cannot sell or mortgage his
interest in land to the
prejudice of the ancestor's
creditors, and that the
executor has the authority
to sell the entire interest of
the deceased under the
statute. There can be no
doubt about either legal
proposition advanced, but
this does not dispose of the
requirement that the
interested parties must be
brought before the court in
such a proceeding. No one,
we presume, would claim
that an heir would be

App. 281
foreclosed of his right in his
ancestor's property by such
a proceeding unless he be
made a party (Burr v.
Bloemer, supra), and since
the statute expressly
provides that not only heirs,
but also all persons holding
liens or having or claiming
any interest, in possession
or otherwise, must be made
parties to such a proceeding,
it necessarily follows that
before grantees of an heir or
devisee may be deprived of
their rights in a proceeding
under the statute to pay
debts, they must have had
their day in court.
In every case cited by
appellant, while general
language was used, an
examination of the case
shows that service of
process was had upon the
interested parties, and no
single case cited holds that
a person acquiring an
interest from an heir or
devisee may be deprived of
his rights in a proceeding by
the administrator or

App. 282
executor to sell property to
pay debts without being
made a party and served
with process, as required by
the statute or law then in
effect. It follows that the
proceeding of the executor
in the present case against
the appellees was without
any force of effect whatever.
Burr v. Bloemer, supra;
Leininger v. Reichle, supra.
Appellees raise some
question as to the validity of
the sale and the jurisdiction
of the court to enter a decree
of sale.
Since appellees
were not parties to the
proceeding it is not
necessary to consider this
point, as it is immaterial to
appellees whether the
proceeding was regular or
irregular. They were not
parties thereto, and are not
bound thereby.
Because Susan Hogen and Marby Hogen
have not been provided Due Process of
Law by Steven C. Hogen [see, Richards v.
Jefferson County, Ala., 517 U.S. 793, 796
(1996)] concerning the allocation,
partition or sale of their real property

App. 283
interests, the two (2) of them are not
bound by the prior orders of this court
[any order trailing the February 20, 2014
deeds, and preceding their August 2,
2018, appearance]. Due to Steven C.
Hogen’s inequitable allocation, and
inappropriate sale of the subject real
property, Susan Hogen and Marby Hogen
exercised their statutory right [N.D.C.C.
§ 30.1-18-13] to void all of Steven C.
Hogen’s transactions relating to their real
property interests. Steven C. Hogen is
not entitled to be discharged until
interested persons Susan Hogen and
Marby Hogen’s statutory right to revoke
the transaction(s) are honored by the
personal representative and/or the court,
and 50% of the real estate be distributed
to Rodney Hogen and Susan Hogen, for
their lives, and the remainder to Marby
Hogen.
F.

The purported personal representative’s
auction sale was not made in a
commercially reasonable manner.
Neither Susan Hogen nor Marby Hogen
were ever afforded prior notice [or a
meaningful hearing] their interests in
lands were in jeopardy of being sold; and
neither consented to the auction sale.
Neither Rodney Hogen, Susan Hogen, nor
Marby Hogen – through their attorneys
– were allowed to bid at the sale in order

App. 284
to protect their real estate interests.
Alward v. Borah, supra. Purportedly, a
farm site was sold in 2017 [without a
2017 appraisal] at a price less than its
2007 appraised value. Steven C. Hogen
has a fiduciary duty to conduct any sale of
probate property in a commercially
reasonable manner. Steven C. Hogen
breached such duty when he precluded
Rodney Hogen, Susan Hogen, or Marby
Hogen [or their attorneys] from
participating in the advertised public
auction. When Steven C. Hogen accepted
the 2017 low bid for the farm site, at a
price less than what Rodney Hogen was
forced to accept for such farmstead
through Steven C. Hogen’s 2017
allocation, Steven C. Hogen breached his
fiduciary duties to Rodney Hogen, Susan
Hogen, and Marby Hogen. See, the
unpublished opinion of In re Estate of
Anderson, Not Reported in N.W.2d, 2016
WL 3582414 (Mn. Ct. of App. 2016), for
an apt discussion concerning a breach of
a fiduciary duty by the acceptance of an
inadequate sale price. Said Minnesota
Court of Appeals opinion also has an apt
definition for the necessary “conflict of
interest” to void a transaction made by a
personal representative under
Minnesota’s statutory equivalent to
N.D.C.C. § 30.1-18-13:
“A personal
representative has a conflict of interest if

App. 285
his personal interests directly conflicts
with the decedent’s interests.”
G.

Steven C. Hogen’s seeks discharge despite
his failure to carry out the mandate of the
Supreme Court of North Dakota [see,
Estate of Hogen, supra.] that affirmed
this court’s “final” order(s) of 2013 and
2014, and are the law of the case, and
subject to the mandate rule. Steven C.
Hogen’s acts, proposal, and circumstances
upon which he seeks changes are contrary
to the law expressed in In re Cashmore,
2010 ND 159, 787 N.W.2d 261, for he is
attempting to alter a final decree. Until
Steven C. Hogen distributes all real
property owned at death of Arline Hogen
equally between himself and Rodney
Hogen [and his transferees], Steven C.
Hogen is not entitled to a discharge. He
has failed to honor both Will and law.

I.

Other than what was distributed through
this court’s concluding order(s) of 2013
and 2014 [and long-ago “final”], Steven C.
Hogen has not distributed any property to
anyone, but rather, he has transferred
what property he did hold to Ohnstad
Twichell, PC. The Ohnstad Twichell law
firm has a substantial conflict of interest
with the Estate of Arline Hogen,
Deceased, and the devisees named in her
Will. The law firm has pursued a probate

App. 286
strategy designed to solely promote
Steven C. Hogen’s selfish motives of
obtaining a greater share of the real
property while distributing to Rodney
Hogen a specious “Right to Retainer”.
Under such circumstances, neither
Steven C. Hogen, nor his attorneys’ fees
for his attorneys’ services should be
shifted to Rodney Hogen, or to the Arline
Hogen Estate, for such attorney fees were
rendered solely on behalf of Steven C.
Hogen personally, and for his own self
motive. See, Raszler v. Raszler, 81
N.W.2d 120, 123 (N.D. 1957); Sturdevant
v. Sturdevant, 340 N.W.2d 888, 892-893
(N.D. 1983); and Coulter v. Coulter, 328
N.W.2d 232, 238 (N.D.1982). As stated in
Matter of Estate of Rohrich, 496 N.W.2d
566, 571 (N.D. 1993):
“Because an
attorney employed by a beneficiary
usually seeks to benefit only his or her
client and not the entire estate,
regardless of their professed motives or
resulting outcome, attorney fees are
disallowed.” The Ohnstad Twichell law
firm has a conflict of interest for it seeks
fees from the estate despite such conflict.
It also seeks fees from the estate that are
barred by various statutes, including but
not necessarily limited to, N.D.C.C. §
30.1-19-03(2),
N.D.C.C. 30.1-21-06,
N.D.C.C. 30.1-21-08, and/or N.D.C.C. §
28-01-06.

App. 287
Because of Steven C. Hogen’s
transfer of “estate” property to Ohnstad
Twichell, PC, [an entity with a clear
conflict of interest], Rodney Hogen, Susan
Hogen, and Marby Hogen have voided the
transaction. Steven C. Hogen is not
entitled to a discharge until all monies
and/or property transferred to Ohnstad
Twichell, PC, are distributed equally to
Steven C. Hogen and Rodney Hogen [and
his transferees] – without payment of any
attorney fees barred because of the
conflict of interest, or barred by statute.
J.

Litigation involving the supervised
administration of Arline Hogen and
Susan Hogen and Marby Hogen is still
pending in a case entitled “Marby Hogen
and Susan Hogen, Plaintiffs and
Appellants v. Steven C. Hogen, as
Personal Representative of the Estate of
Arline H. Hogen, Deceased; Steven C.
Hogen, as Trustee of the Curtiss A.
Hogen Trust B, as created under the Last
Will and Testament of Curtiss A. Hogen;
and Steven C. Hogen, individually,
Defendants and Appellees” and docketed
in the Supreme Court of North Dakota as
case #20180143. Steven C. Hogen should
not be discharged until all probate
litigation is concluded.

App. 288
K.

Steven C. Hogen has failed to account for
any of his actions since his appointment
– Rodney Hogen has not received any
notice of any transactions or activities of
the Personal Representative since
issuance of the 2017 order for supervised
administration, and never has there been
any accounting for any cash rent, income,
or expenditures.

L.

There can be no payment of any claims or
attorney fees – only confirming title in
Steven C. Hogen and Rodney Hogen [and
his transferees] is possible. “In a tardy
proceeding, the personal representative
can only “confirm title” to estate assets,
and “[c]laims other than expenses of
administration shall not be presented
against the estate.” Ader v. Estate of
Felger, 375 P.3d 97, 106 (Ariz. Ct. App.
2016), citing Arizona’s statute modeled
upon U.P.C. 3-108 [N.D.C.C. § 30.1-12-08;
see Footnote #2]. The North Dakota
Supreme Court impliedly recognized this
statutory limitation upon judicial action
in the case known as In re Estate of
Huston, 2014 ND 29, ¶s14 & 15, 843
N.W.2d 3, stating the District Court “did
not misapply the law and provided a
reasoned explanation for its
determination not to remove (the
personal representative)”, in part: “It has
been over three years since the date of

App. 289
death of Mr. Virgil N. Huston, so the
personal representative only has power to
confirm title to property that transferred
at the moment of his passing.” The
decision fully recognizes the transfer of
title at the “moment of passing”,
“immediately
upon
death”,
“instantaneously upon death”, or a
hundred other ways of recognizing the
transfer of title by Will or by operation of
law (not necessarily by deeds).
[¶5] As to the consolidation of hearing done by ex
parte motion/order, and contrary to law because our
rules require “Notice must be served and filed with a
motion” under N.D.R.Ct. 3.2(a)(1) and/or N.D.R.Civ.P.
6(d), the undersigned legal counsel does not believe
that the prospective purchasers’ due process rights are
being protected, nor are the rights of anyone else being
protected. A motion for consolidation, without any
accompanying notice of motion, along with meaningful
opportunity to respond, is worthless. Our rules provide
for appropriate response periods, and the Court failed
to take into account the need for fourteen (14) days
notice to the prospective purchasers under N.D.C.C. §
30.1-03-01. Indeed, no notice was afforded anyone
before the court acted in violation of Due Process of
Law.
[¶6]
WHEREFORE for the above state reasons.
Rodney Hogen, Susan Hogen, and Marby Hogen
request this court enter an appropriate order denying
the dischargeof Steven C. Hogen.

App. 290
[¶7] Dated this 8th day of August, 2018.
GARAAS LAW FIRM
s/ Jonathan T. Garaas
___________________________
Jonathan T. Garaas
Attorneys for Rodney Hogen,
Susan Hogen, & Marby Hogen
DeMores Office Park
1314 23rd Street South
Fargo, North Dakota 58103-3796
Telephone: (701)293-7211
E-mail address:
garaaslawfirm@ideaone.net
North Dakota Bar ID # 03080

App. 291
__________
APPENDIX X
__________
In District Court, County of Cass, State of North
Dakota
IN THE MATTER OF THE ESTATE OF ARLINE E.
HOGEN, DECEASED
CIVIL FILE NO. 09-07-P-00100
Transcript of Proceedings
RECORDED ON JULY 22, 2010
(Page 63, lines 6-21)
THE COURT: Okay. You know, we’ve had
this hearing now for, what, oh, hour and a half or so
and we’ve talked about a lot of procedure, wrangling,
who has provided what information, who wants
information in what format, how we’re going to proceed
in trying it when we have a couple of farm boys that
want to try the meat and potatoes of a case as to
whether or not there’s a contract; and if there is a
contract, has it been breached; and if it’s breached are
there damages.
And I want to get to that point. And I don’t like
seeing this kind of wrangling and positioning because
it’s all going to come down to the fact that some way, in
some shape or form, I’m going to hear the evidence and

App. 292
make the determination.
And once that’s done the Estate will be
distributed accordingly and this case will be over. And
hopefully all these things will just disappear.

